<html>
<title> - ESEA REAUTHORIZATION: BOOSTING QUALITY IN THE TEACHING PROFESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     ESEA REAUTHORIZATION: BOOSTING 
                   QUALITY IN THE TEACHING PROFESSION 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 11, 2007

                               __________

                           Serial No. 110-34

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

34-990 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director




































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 11, 2007.....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    74
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     3
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     2
        Additional submissions:
            Prepared Statement of Linda Darling-Hammond, Charles 
              E. Ducommun Professor, Stanford University School 
              of Education.......................................    74
            Letter from the National School Boards Association 
              (NSBA), dated May 10, 2007.........................    82
            Letter from the National Writing Project, dated May 
              11, 2007...........................................    84

Statement of Witnesses:
    Bibeau, Joan, Education Minnesota............................    31
        Prepared statement of....................................    33
    Burke, Dr. Joseph P., superintendent of schools, Springfield, 
      MA.........................................................    41
        Prepared statement of....................................    42
    Dale, Dr. Jack D., superintendent, Fairfax County Public 
      Schools, Fairfax, VA.......................................    24
        Prepared statement of....................................    26
    Klein, Joel I., chancellor, New York City Department of 
      Education..................................................    13
        Prepared statement of....................................    15
    McLean, Valdine, chemistry, physics, and biology teacher, 
      Pershing County High School, Lovelock, NV..................    21
        Prepared statement of....................................    23
    Podesta, John D., president and chief executive officer, 
      Center for American Progress...............................     8
        Prepared statement of....................................    10
    Ritter, Gary W., associate professor, endowed chair in 
      education policy, Department of Education Reform, College 
      of Education and Health Professions, University of Arkansas    36
        Prepared statement of....................................    38
    Sanford, Dr. Jarvis, principal, Dodge Renaissance Academy....    17
        Prepared statement of....................................    18


   ESEA REAUTHORIZATION: BOOSTING QUALITY IN THE TEACHING PROFESSION

                              ----------                              


                          Friday, May 11, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 9:33 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Tierney, Kucinich, Holt, Susan Davis, Danny Davis of Illinois, 
Bishop of New York, Sarbanes, Sestak, Loebsack, Hirono, Hare, 
Clarke, Courtney, Shea-Porter, McKeon, Petri, Castle, Ehlers, 
Keller, Price, Kuhl, Bishop of Utah, David Davis of Tennessee, 
Walberg, and Heller.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Alice Cain, Senior Education Policy 
Advisor (K-12); Adrienne Dunbar, Legislative Fellow, Education; 
Amy Elverum, Legislative Fellow, Education; Denis Forte, 
Director of Education Policy; Lloyd Horwich, Policy Advisor for 
Subcommittee on Early Childhood, Elementary and Secondary 
Education; Lamont Ivey, Staff Assistant, Education; Brian 
Kennedy, General Counsel; Ann-Frances, Lambert, Administrative 
Assistant to Director of Education Policy; Jill Morningstar, 
Education Policy Advisor; Ricardo Martinez, Policy Advisor for 
Subcommittee on Higher Education Lifelong Learning and 
Competitiveness; Joe Novotny, Chief Clerk; Lisette Partelow, 
Staff Assistant, Education; Daniel Weiss, Special Assistant to 
the Chairman; Mark Zuckerman, Staff Director; James Bergeron, 
Minority Deputy Director of Education and Human Services 
Policy; Robert Borden, Minority General Counsel; Kathryn Bruns, 
Minority Legislative Assistant; Taylor Hansen, Minority 
Legislative Assistant; Linda Stevens, Minority Chief Clerk; 
Assistant to the General Counsel; and Brad Thomas, Minority 
Professional Staff Member.
    Chairman Miller. Good morning. The Committee on Education 
and Labor will come to order for this morning's hearing. And I 
want to say how much I look forward to this hearing focusing on 
one of the most important issues in education today, and that 
is teacher quality.
    A fundamental goal of No Child Left Behind was to close the 
achievement gap. One of the best ways we can close the 
achievement gap is to close the teacher quality gap. We must 
ensure that every child in every classroom is taught by an 
outstanding teacher.
    No Child Left Behind took important steps for setting some 
of these basic criteria for determining who is qualified to 
teach. It requires teachers to be certified, to have a 
bachelor's degree and know something about the subject they 
teach.
    The law set a deadline, the 2005-2006 school year, for all 
States to ensure that teachers meet the criteria. 
Unfortunately, no States met the deadline and it has since been 
extended by a year; and as a result, too many children are 
still taught by teachers who are not certified and who do not 
have the expertise in the subject matter that they are 
teaching, and it is inexcusable.
    Even more troubling is the fact that for too many low-
income children the best teachers are often across town, a 
world away from the students who need them the most. For 
example, nearly three-quarters of the math classes in high-
poverty middle schools are taught by teachers who lack a major, 
even a minor in math. It is these students who most need a leg 
up in life that a good education can provide.
    And with that I am going to ask unanimous consent to revise 
and extend my remarks. I know we have many members who are 
here. We had a big change in schedule yesterday, and I want to 
make sure that they get the opportunity to hear the witnesses.
    I will put the rest of my remarks in the record at this 
time. Thank you. And I recognize Mr. McKeon, the senior 
Republican on the committee.
    [The prepared statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. I'm looking forward to today's hearing because it 
focuses on one of the most important issues in education today: teacher 
quality.
    We all remember the difference that wonderful teachers have made in 
our lives and I want to thank our teachers here today for their 
dedication and commitment to taking on the overwhelming demands of 
their profession.
    We ask teachers to perform miracles every day in our under-funded 
and overcrowded system. We owe them and their students more than 
rhetoric; we need to show our commitment to encouraging talented people 
to enter the field and stay there.
    Report after report has shown that the single most important factor 
in determining a child's success in school is the quality of his or her 
teacher. Unfortunately, the data is equally clear that low-income and 
minority students are much less likely than their peers to be taught by 
well-qualified teachers.
    A fundamental goal of No Child Left Behind is to close the 
achievement gap. One of the very best ways we can close the achievement 
gap is to close the teacher quality gap. We must ensure that every 
child, in every classroom, is taught by an outstanding teacher.
    No Child Left Behind took an important first step by setting some 
very basic criteria for determining who is qualified to teach. It 
requires teachers to be certified, have a Bachelor's degree, and know 
something about the subject they teach.
    The law set a deadline--the 2005-2006 school year--for all states 
to ensure that their teachers meet this criteria. Unfortunately, no 
states met the deadline and it has since been extended by a year.
    Too many children are still taught by teachers who are not 
certified or who do not have expertise in the subject they are 
teaching. This is inexcusable.
    Even more troubling is the fact that for too many low-income 
children the best teachers are often across town and a world away from 
the students who need them most. For example, nearly three-quarters of 
math classes in high-poverty middle schools are taught by teachers who 
lack a major--or even a minor--in math. It is these students who most 
need the leg up in life that a good education can provide.
    We all remember a teacher who made us proud of ourselves for what 
we accomplished and helped us face our future with hope and confidence. 
Imagine if every one of our teachers over the years had given us that 
same strength.
    Over the next decade, we will need to hire more than two million 
new teachers to serve in our public schools. Yet today, we have no 
national plan for attracting outstanding students into the teaching 
profession, or keeping them there.
    There are many reasons why people decline to enter the teaching 
profession or decide to leave--low pay, lack of meaningful professional 
development, lack of respect, unsuitable working conditions, or little 
opportunity for advancement.
    By failing to address this problem, Congress is shortchanging our 
children and costing taxpayers an estimated $2.2 billion annually to 
replace teachers who have left the profession. We need to act 
immediately to ensure that we have an adequate supply of outstanding 
teachers for the next generation of students.
    This week 43 of my colleagues and I introduced the TEACH Act of 
2007 to help increase our supply of excellent teachers and principals. 
It would double the federal investment in teacher quality so that all 
children will be taught by high-quality teachers and all teachers will 
have the supports they need to do their job well.
    Among its many provisions, the TEACH Act addresses the teacher 
shortage crisis in math, science, foreign language, special education 
and English language instruction through incentives, including upfront 
tuition assistance and loan forgiveness.
    The bill also establishes state-of-the-art induction programs for 
new teachers so they will have the support they need to succeed. It 
helps school districts establish career ladders for teachers who expand 
their knowledge and skills and take on new professional and leadership 
roles such as mentor or master teacher.
    The TEACH Act also ensures children have teachers with expertise in 
the subjects they teach. It provides financial incentives, including 
performance pay, to support outstanding teachers and principals who 
commit to spending four years in the hardest-to-staff schools, with 
extra incentives for teachers of shortage subjects.
    It also enforces NCLB's teacher equity provisions by making ESEA 
funding contingent on states' compliance with their plans to make sure 
poor and minority children have equitable access to high-quality 
teachers.
    Finally, the TEACH Act identifies and rewards our best teachers 
using 21st century data, tools and assessments. This includes holding 
schools of teacher education accountable for results by requiring 
states receiving Title II Teacher Quality grants to track the quality 
and results of the graduates of teacher education programs in the state 
and makes continued funding contingent on their progress.
    Nothing we will do this year on this committee is more important 
that ensuring that we live up to the promise at the core of No Child 
Left Behind--the promise of a qualified teacher for every child.
    We must dedicate the necessary resources, demand the necessary 
results, and stay with it to the end to make sure every child in 
America has a teacher we can all be proud of. We must also work to 
ensure that every teacher in America can say they are proud of us for 
the support we give them.
    I appreciate all each of you are doing to make this a reality and 
am looking forward to hearing more about what Congress can do to help 
through the ESEA reauthorization.
                                 ______
                                 
    Mr. McKeon. Thank you, Mr. Chairman, for convening today's 
hearing. And I thank the witnesses for joining us here today 
and welcome each of you.
    The subject of teacher quality is a priority for me, this 
committee and this Congress. As we move forward with the 
reauthorization of No Child Left Behind, we must be mindful 
that we have 3.2 million teachers serving in our Nation's 
classrooms, working with our children to help shape their 
futures. Through No Child Left Behind we placed upon ourselves 
the responsibility to ensure that the children in those 
classrooms are receiving the best education possible and from 
highly qualified, effective teachers.
    About a year ago, unfortunately, the Department of 
Education announced that no State would meet No Child Left 
Behind's requirement of having highly qualified teachers in 
every classroom by the end of 2005-2006. And while many States 
submitted revised plans to achieving that goal, it is my belief 
that it will take a bolder approach to develop and retain the 
most capable teachers in our schools. The foundation for this 
approach is ensuring that resources are in place to make it 
happen.
    During the No Child Left Behind era, Congress and President 
Bush have been working to address the subject of teacher 
quality by providing historic increases in teacher development 
funding to help States put the best-trained teachers in every 
classroom. In fact, since NCLB was first enacted, we have seen 
a 35 percent increase in funding for the teacher and principal 
training and recruitment fund, a formula grant program 
supporting activities to improve elementary and secondary 
teacher quality.
    Another key part of our effort must be innovation. On this 
front, States and schools have received more than $100 million 
in recent years to design and implement their own unique 
performance-based compensation standards through the Teacher 
Incentive Fund. Testimony from several of our witnesses today 
will show that performance pay for teachers can boost the 
quality of the teaching force and improve student achievement.
    I am sorry to say that the omnibus spending measure passed 
by Congress earlier this year virtually eliminated all funding 
for these programs leaving many States and local school 
districts to question whether they can fully implement the 
teacher recognition pay systems they have designed over the 
past several years. To ensure that the teacher incentive fund 
becomes a permanent part of our national effort to boost 
teacher quality, our committee colleague, Congressman Tom 
Price, introduced the Teacher Incentive Fund Act legislation 
that would authorize locally designed performance pay programs. 
The Teacher Incentive Fund Act enjoys broad bipartisan support, 
and I encourage my colleagues to join me in ensuring it plays a 
prominent role in the No Child Left Behind reauthorization 
process.
    Coupled with advancing this important legislation, Congress 
must also work to break down burdensome barriers currently in 
place through overly cumbersome collective bargaining 
agreements. Quite often these agreements include onerous 
bureaucratic hurdles for school districts that have nothing to 
do with teacher quality or student achievement. Removing these 
hurdles would provide principals and other education leaders 
more freedom to reward good teachers, remove poor ones and 
generally create a staff that is responsive to their schools 
needs. If we are truly serious about placing high-quality 
teachers in every American classroom, then this committee must 
explore ways to include proposals addressing collective 
bargaining agreements in the reauthorization process.
    For example, quite often restructuring a school into a 
charter school or making other wholesale changes to a school 
staff and curriculum requires a waiver from some of the work 
rules contained in collective bargaining agreements. Allowing 
school districts to waive those rules for schools in the 
restructuring process is a policy change that deserves serious 
consideration.
    Mr. Chairman, our Nation's teachers and principals are on 
the front lines in the effort to close the achievement gap in 
our schools. During this reauthorization process, we must push 
for innovative ways to reward these men and women for their 
successes inside the classroom. I look forward to hearing the 
testimony of each of our witnesses today, and I would like to 
thank each of you for joining us here today. Thank you.
    [The prepared statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Mr. Chairman, for convening today's hearing, and I thank 
the witnesses for joining us and welcome them.
    The subject of teacher quality is a priority for me, this 
Committee, and this Congress. As we move forward with the 
reauthorization of NCLB, we must be mindful that we have 3.2 million 
teachers serving in our nation's classrooms--working with our children 
to help shape their futures. Through No Child Left Behind, we placed 
upon ourselves the responsibility to ensure that the children in those 
classrooms are receiving the best education possible--and from highly 
qualified teachers.
    About a year ago, unfortunately, the Department of Education 
announced that no state would meet No Child Left Behind's requirement 
of having ``highly qualified teachers'' in every classroom by the end 
of the 2005-2006 school year. And while many states submitted revised 
plans to achieving this goal, it is my belief that it will take a 
bolder approach to develop and retain the most capable teachers in our 
schools.
    The foundation for this approach is ensuring that resources are in 
place to make it happen. During the No Child Left Behind era, Congress 
and President Bush have been working to address the subject of teacher 
quality by providing historic increases in teacher development funding 
to help states put the best-trained teachers in every classroom. In 
fact, since NCLB was first enacted, we have seen a 35 percent increase 
in funding for the Teacher and Principal Training and Recruitment 
Fund--a formula grant program supporting activities to improve the 
elementary and secondary teacher quality.
    Another key part of our effort must be innovation. On this front, 
states and schools have received more than $100 million in recent years 
to design and implement their own unique performance-based compensation 
standards through the Teacher Incentive Fund. Testimony from several of 
our witnesses today will show that performance pay for teachers can 
boost the quality of the teaching force and improve student 
achievement. I am sorry to say that the omnibus spending measure passed 
by Congress earlier this year virtually eliminated all funding for 
these programs, leaving many states and local school districts to 
question whether they can fully implement the teacher recognition pay 
systems they've designed over the past several years.
    To ensure that the Teacher Incentive Fund becomes a permanent part 
of our national effort to boost teacher quality, our Committee 
colleague, Congressman Tom Price, introduced the Teacher Incentive Fund 
Act--legislation that would authorize locally-designed performance pay 
programs. The Teacher Incentive Fund Act enjoys broad, bipartisan 
support, and I encourage my colleagues to join me in ensuring it plays 
a prominent role in the No Child Left Behind reauthorization process.
    Coupled with advancing this important legislation, Congress also 
must work to break down burdensome barriers currently in place through 
overly-cumbersome collective bargaining agreements. Quite often, these 
agreements include onerous bureaucratic hurdles for school districts 
that have nothing to do with teacher quality or student achievement. 
Removing these hurdles would provide principals and other education 
leaders more freedom to reward good teachers, remove poor ones, and 
generally create a staff that is responsive to their schools' needs.
    If we are truly serious about placing high-quality teachers in 
every American classroom, then this Committee must explore ways to 
include proposals addressing collective bargaining agreements in the 
reauthorization process. For example, quite often, restructuring a 
school into a charter school or making other wholesale changes to a 
school's staff and curriculum requires a waiver from some of the work 
rules contained in collective bargaining agreements. Allowing school 
districts to waive those rules for schools in the restructuring phase 
is a policy change that deserves serious consideration.
    Mr. Chairman, our nation's teachers and principals are on the 
frontlines in the effort to close the achievement gap in our schools. 
During this reauthorization process, we must push for innovative ways 
to reward these men and women for their successes inside the classroom. 
I look forward to hearing the testimony of each of our witnesses and 
would like to thank each of you for joining us here today.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    We have the honor of having a great panel this morning to 
help us learn about this issue and, hopefully, provide some 
suggestions for our reauthorization of No Child Left Behind. I 
consider this the centerpiece of the changes that we need to 
make to see this law successfully reauthorized, to provide for 
the distribution of highly qualified teachers, to improve the 
skills of new teachers and current teachers and, hopefully, to 
end the unfortunate loss of talent through the very high 
turnover in people leaving the field after a couple of years.
    We are joined this morning, first, by John Podesta, who is 
President and CEO for the Center for American Progress, a 
progressive think tank dedicated to improving the lives of 
Americans through ideas and action. He served as Chief of Staff 
to President Clinton from 1998 to 2001 and is currently a 
visiting professor of law at Georgetown University Law Center.
    And next we are joined by Chancellor Joel Klein, who became 
New York City School's Chancellor in 2002 when he went ahead 
and instituted a comprehensive public school reform program, 
Children First. Previously, he was the Chairman and CEO of 
Bertelsmann, Incorporated, and the Chief Liaison Officer of 
Bertelsmann, AG. Prior to Bertelsmann, he served as Assistant 
Attorney General in charge of the U.S. Antitrust Division after 
serving 2 years as Deputy Counsel to President Clinton.
    Next is Jarvis Sanford, who is the principal of the Dodge 
Renaissance Academy--good to see you again; it was only a week 
ago, I believe; thank you for being with us--a public school in 
Chicago. Sanford has a distinguished educational background 
that includes a B.A. from Morehouse and a Doctorate of 
Education from Northern Illinois University, and he is a 
graduate of the New Leaders for New Schools principal training 
program.
    The accomplishments that bring him here today, however, 
come during his 3-year tenure at Dodge. In 2005, 26 percent of 
the students scored at or above national norms. One year later 
62 percent of the students achieved this level representing a 
36 percent gain in 1 year, the largest gain in the State of 
Illinois.
    And I think Mr. Davis had something he wanted to say about 
those tremendous results.
    Mr. Davis of Illinois. Thank you very much. The only thing 
I would really say is that when we describe the community where 
the Dodge School is located, it is one of the low income, or 
one of the poorest communities in urban America, which makes 
the accomplishments of Dr. Sanford and his staff even more 
outstanding when you consider the impediments that exist in 
that community.
    And we are certainly pleased that he is here and look 
forward to his testimony.
    Chairman Miller. Thank you very much.
    Next is Ms. Valdine McLean, who is a science teacher from 
Pershing County in Lovelock, Nevada; and Mr. Heller is going to 
make the introduction.
    Mr. Heller. Thank you Mr. Chairman. It is my pleasure to 
introduce Valdine McLean as an exceptional high school teacher 
at Pershing County High School in Lovelock, Nevada. Ms. McLean 
teaches physics, chemistry, biology leadership classes to 
students in grades 9 through 12. She was the first teacher in 
her school to use computers in her classroom, has created a 
technology-rich environment that has proven to be particularly 
effective for English language learners and special needs 
students.
    She has served as a State President in the Nevada State 
Science Teachers Association, and worked extensively with the 
writing and revision of the State Science Standards Committee. 
Her awards include Pershing County Teacher of the Year in 2000, 
Nevada Teacher of the Year 2001, Horace Mann Teaching 
Excellence Award 2001 and NEA Foundation for Improving 
Education and Teaching Excellence Awards 2001.
    So I am proud to have a fellow Nevadan here. I know the 
chairman of the school board, Todd Plimpton, is pleased to have 
her here also. Her influence is not only in the classroom, but 
on the field also, as her husband is the football coach for the 
high school. Thank you.
    Chairman Miller. Thank you. And welcome.
    Next is Mr. Jack Dale, who is the Superintendent of Fairfax 
County Public Schools. Previously he served as Superintendent 
for Frederick County, Maryland Public Schools, where in his 
fourth year he was named Maryland Superintendent of the Year. 
He has been a teacher of mathematics, Assistant Principal, 
Director of Instruction and Associate Superintendent.
    Welcome.
    And Joan Bibeau, who is the elementary school teacher on 
Leech Lake Indian Reservation in rural, northern Minnesota. She 
is a 34-year veteran teacher, an enrolled member of the White 
Earth Bank of Ojibwe Tribe, and she was awarded the Minnesota 
Indian Education Association Teacher of the Year in 2006.
    Dr. Joseph Burke has been the Superintendent of Schools in 
Springfield, Massachusetts, since 2001. Prior to Springfield, 
he spent his entire career in Miami-Dade County, Florida's 
public school system and worked most recently as District 
Director for Math and Science.
    Dr. Gary Ritter is Associate Professor of Education and 
Public Policy and Associate Director of the Interdisciplinary 
Public Policy Director Program at the University of Arkansas. 
He is also the Director of the Office of Education Policy at 
the university.
    And Congresswoman Clarke, is she here? She wanted to make a 
comment about the Chancellor. Did you want to say something 
about Chancellor Klein?
    Ms. Clarke. Yes, I do.
    Thank you very much, Mr. Chairman, and good morning to our 
distinguished panelists and my colleagues. I wanted to thank 
Chancellor Klein for taking the time out of his very busy 
schedule to join the committee here in Washington today.
    As many of you may be aware, the reauthorization of No 
Child Left Behind Act will have a tremendous impact on our 
home, New York City. The New York City school system that you 
oversee, Chancellor Klein, has over 1,400 schools with over 1 
million students. It is the largest school system in the United 
States, with 136,000 employees and an operating budget of $15 
billion. The New York City school system, of which I am a proud 
graduate, is larger than the school system of at least eight 
States.
    Chancellor Klein has played a key role in many of the 
city's recent education successes, but there is still a long 
way to go. So it is my hope that we can work together as 
educators and legislators, as public servants, driving to help 
America's children to develop a balanced approach that improves 
teacher quality, and also recognizes that the institutional 
knowledge of our best public school teachers are a key resource 
in improving overall quality.
    As we focus on teacher recruitment initiatives and 
incentives, we also understand the vital importance of those 
excellent teachers in schools across America who are already 
providing a high-quality educational experience to our 
children.
    Again, Chancellor Klein, thank you for coming today. It is 
my pleasure to introduce you to this body and the committee 
looks forward to what I anticipate will be a thoughtful, yet 
lively conversation.
    Thank you very much, Mr. Chair.
    Thank you, Chancellor.
    Chairman Miller. Thank you.
    Mr. Podesta, we will begin with you. Welcome to the 
committee and thank you so much for your time.

  STATEMENT OF JOHN D. PODESTA, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, CENTER FOR AMERICAN PROGRESS

    Mr. Podesta. Thank you, Mr. Chairman, and members of the 
committee. I am outgunned by this outstanding group of 
professional educators, but at least there is one other lawyer 
sitting here with me, so I will try to hold my own.
    Let me offer just a bit of context, and then I want to 
offer three specific recommendations for improving teacher and 
principal quality in our schools.
    To start, I think it critical to recognize that the 
deficiencies in our public education system pose long-term 
threats to the well-being of our people and our economy. The 
U.S. suffers from twin achievement gaps. There are large 
disparities in educational attainment and readiness within our 
country, particularly between low-income and racial and ethnic 
minorities and others; and at the same time, American students 
as a whole are falling behind their counterparts in other 
developed nations.
    I can go through a lot of statistics, but the committee 
knows them well. Our Nation just can no longer tolerate the 
status quo of undereducated children and declining economic 
competitiveness in the world.
    Second, nothing matters, I think, more in improving the 
educational opportunities of our students than finding and 
retaining highly qualified teachers and principals. A 2006 
report by Dan Goldhaber for the Center for American Progress 
found that a very good teacher, as opposed to a very bad one, 
can make as much as a full year's difference in learning growth 
for students. Furthermore, the effective increases in teacher 
quality swamps the impact of other educational investments, 
such as reductions in class size.
    Unfortunately, I think we are not doing enough to recruit 
and retain the best teachers available; and I would note that 
shortage of qualified effective teachers also has a 
disproportionate impact on low-income and minority students. 
They are about twice as likely to be assigned inexperienced 
students in our country today.
    Congress, I think, has a real window of opportunity to 
address the challenge of teacher quality with the unprecedented 
number of teachers who are expected to retire and the 
recruitment challenge that comes with that. According to the 
National Commission on Teaching in America's Future, 2 million 
teachers will leave their jobs within the next decade. The 
country has a huge recruitment challenge. So it is imperative, 
I think, that we experiment with innovative initiatives that 
will increase the supply of quality teachers and principals.
    The TEACH Act, introduced by the chairman and Senator 
Kennedy on the Senate side, I think would do just that. It puts 
Federal money and commitment behind the programs designed to 
experiment with better ways of identifying, preparing and 
compensating teachers and principals.
    Developing a better teacher workforce will require three 
key steps: improving the quality and use of data and decision-
making, creating more competitive compensation structures for 
teachers, and relying more on teachers as resources for 
innovation and identifying and correcting problems.
    I have a bit of time. Let me speak briefly about each of 
these areas. And I direct you to my written testimony for a 
more detailed analysis.
    With respect to better data, I would say that without 
reliable information we simply cannot evaluate results or 
properly assess school performance. Better data is also useful 
for measuring the effectiveness of preparation programs for 
teachers and principals, developing more sophisticated career 
advancement systems, more equitably deploying the teacher 
workforce.
    States and local districts are experimenting with this 
across the country. I would point you to Chattanooga, 
Tennessee, for example, which uses value-added data to identify 
highly effective teachers and then provides them with economic 
incentives to teach in the highest-needs schools.
    With respect to competitive compensation, we need to 
acknowledge that job structure and financial rewards are key 
motivators for employees in any profession. Accounting for 
educational attainment, teachers are drastically underpaid 
compared to those of similar backgrounds in other professions. 
We cannot expect the best unless we are willing to pay for the 
best. States and districts need to reform pay and performance 
structures to improve starting salaries to attract talented 
mid-careerists and young people committed to a career in 
education.
    Similarly, if a teacher or principal is taking on more 
challenging subjects, teaching in tougher schools or delivering 
positive results, we should create rewards for them, as the 
TEACH Act would do. And as we make starting salaries more 
competitive and increase incentives for retention, we should 
keep in mind that we need to respond to poor performance by 
fairly and effectively removing ineffective educators.
    Finally, with respect to teachers as go-to resources, the 
President and the Congress need to act on the premise that 
teachers and principals are public education's most valuable 
assets. Policymakers should seek direct input from teachers on 
issues such as quality of development programs, school 
conditions and administrative reports.
    We recently at the center had Governor O'Malley, who is 
planning to build on his successful initiatives with CitiStat 
in Baltimore, to track student performance and to carry out 
surveys among teachers every 2 years to identify problems, to 
evaluate effectiveness of educational initiatives, to track 
progress and results and to effectively and efficiently direct 
resources based on need.
    We should consider implementing a similar program, I think, 
at the national level.
    With that, I am out of time, so let me turn it over to 
Joel.
    Chairman Miller. Thank you.
    [The statement of Mr. Podesta follows:]

 Prepared Statement of John D. Podesta, President and Chief Executive 
                 Officer, Center for American Progress

    Chairman Miller and members of the Committee, thank you for 
inviting me to testify today. I am John Podesta, President and Chief 
Executive Officer of the Center for American Progress. I am also a 
Visiting Professor of Law at the Georgetown University Law Center.
    I appreciate the opportunity to be with you today to discuss the 
growing problem of recruitment and retention of highly effective 
teachers and principals in our nation's schools. As the Committee 
considers the reauthorization of the No Child Left Behind Act, it is 
important to consider ways to strengthen our education system--
especially how to attract, train, equitably distribute, and retain the 
most effective teachers and principals, the very problems that the 
Teacher Excellence for All Children Act addresses.
    This is Teacher Appreciation Week, and we should stop and consider 
how important effective teachers are to our education system. We 
appropriately spend a lot of time discussing what is wrong with the 
American education system, but it is also important to remember that 
across our country legions of dedicated teachers are doing nothing 
short of performing miracles in our schools. Teachers are the backbone 
of high-quality public education and strengthening the teacher 
workforce can lay the foundation for fruitful investments in other 
areas of public education. Research demonstrates that the single most 
important factor determining how much students learn is the quality of 
their teachers. Teacher salaries and benefits are by far the largest 
education expenditure, but they are also the most critical resource for 
student learning. A very good teacher as opposed to a very bad one can 
make as much as one full year's difference in the achievement growth of 
students.\1\ Studies also show that high-quality leadership directly 
affects school performance, as well as improves the working environment 
for teachers. Unfortunately, education leaders and public policymakers 
often fail to treat teachers and principals as our most valuable 
resources, and our current policies are not effectively addressing 
their needs.
    Not only are we failing to attract new teachers to the field; we 
are also failing to retain them. One-third of new teachers leave within 
the first three years of teaching, and half are gone by the fifth.\2\ 
In high-poverty schools with poor working conditions, rates of overall 
teacher attrition are disastrously high. Between 2000 and 2001, one out 
of five teachers in the nation's high-poverty schools either left to 
teach in another school or dropped out of teaching altogether.\3\
    Shortages of highly effective teachers have a disproportionate 
effect on low-income and minority students; they are about twice as 
likely to be assigned to inexperienced teachers\4\ who on average make 
far smaller annual learning gains than more experienced teachers.\5\ As 
a result, low-income, African American, and Latino children 
consistently get less than their fair share of good teachers.
    The impact of a lack of quality teachers is felt daily by our 
nation's students. Due to shortages of highly effective teachers, 
shortages of teachers in certain subject areas, and ineffective 
administrative practices in many schools, large numbers of secondary 
teachers are assigned to teach classes outside of their areas of 
preparation. For example, 37 percent of students in grades 7-12 are 
taught by a teacher who lacks a college major and state certification 
in the subject being taught.\6\ Rates of ``out-of-field teaching'' are 
especially high in middle schools, high-poverty schools, and shortage 
areas such as mathematics. Chancellor Joel Klein will speak more to 
this problem, but the bottom line is that the lack of retention and the 
distribution of qualified teachers are highly inequitable.
    The current situation of teacher quality and effectiveness is 
deplorable, but the problem is not insurmountable. We have a window of 
opportunity to effect change in our public school system with the 
unprecedented number of teachers who will soon reach retirement age. 
According to the National Commission on Teaching and America's Future, 
2 million teachers will leave their jobs within the next decade. 
Replacing so many teachers is a daunting task, but it also presents us 
with an opportunity to overhaul the current system. With such a large 
number of teachers leaving in the next decade, efforts to attract new 
candidates must be renewed. Simply put, it is imperative that we 
experiment with innovative initiatives that will increase the supply of 
quality teachers and principals.
    The TEACH Act proposal introduced by Chairman Miller and Senator 
Kennedy would put money behind programs designed to experiment with new 
ways of preparing and compensating teachers as well as principals. This 
legislation would help address the problem of teacher and principal 
quality by taking several of the necessary steps to equip each 
classroom with a highly qualified teacher and each school with a 
properly trained principal. We should implement its recommendations and 
also seize the opportunity for change by moving forward with bold new 
ideas to address the challenge of employing an effective teacher 
workforce in our schools. The three ideas I would like to discuss with 
you today are: collecting and using data for decision-making, offering 
more competitive compensation for our teachers and principals, and 
using our teacher workforce as a go-to resource.
    We need to increase the amount and improve the quality of 
information we gather about
    America's teacher workforce and at the same time encourage the use 
of such data for greater accountability and smarter decision-making. 
The Center for American Progress and the U.S. Chamber of Commerce 
recently worked together to examine state-by-state educational 
effectiveness. One of the major findings in our joint report titled 
``Leaders and Laggards: A State-by-State Report Card on Educational 
Effectiveness'' was that America's K-12 schools are failing their 
students and putting America's future economic competitiveness at risk. 
In completing this report, however, we also found that state education 
systems suffer from a severe lack of meaningful data on performance.\7\
    Without reliable information, we simply cannot evaluate results or 
properly assess school performance, so the lack of meaningful, reliable 
data on our nation's schools is alarming. Improved data with respect to 
teacher and principal performance can be used to improve instruction 
and to help rectify inequities in student opportunities for learning. 
Better data can also help measure the effectiveness of preparation 
programs for teachers and principals, lead to the development of more 
sophisticated career advancement systems, and more effective and 
equitable deployment of our teacher workforce. Furthermore, data can 
help build the case for larger investments in professional development 
programs for both teachers and principals.
    Data systems being pioneered in a few states offer an important new 
opportunity to produce information about the performance of individual 
classroom teachers and school principals measured in terms of how much 
progress students and schools are making academically.
    To offer some examples: Chattanooga, Tennessee uses value-added 
data to identify highly effective teachers and then provides them with 
economic incentives to teach in the highest-need schools.\8\ Meanwhile, 
in Maryland, Gov. Martin O'Malley is encouraging school districts to 
implement his data-tracking system, CitiStat, to collect and track 
information on student performance. When student and teacher data are 
linked, these data collection programs can be used to identify 
teachers' weaknesses so professional development can be provided in 
those areas, and to identify teachers' strengths so they can be used as 
a resource for other teachers in need of mentoring in those areas.
    Informational gaps on America's teacher workforce must be 
identified and systematically addressed. Otherwise, problems and 
underperformance may be missed and allowed to persist. The federal 
government is uniquely positioned to lead in this data-gathering 
revolution and should adopt measures that encourage adequate data 
collection. Additional expenditures may be required to fill in 
information gaps, but this should be regarded as an investment that 
will pay off in the long run.\9\
    In order to attract and retain highly effective teachers and 
principals, we also need to make targeted investments to incentivize 
change in our public education system. We need to begin by 
acknowledging that job structure and financial rewards are important 
motivators for employees no matter what their profession. Currently, 
too little attention is paid to creating the financial incentives 
necessary to recruit and retain an effective teacher workforce. We need 
to change that by offering competitive compensation that recognizes and 
rewards different roles, responsibilities, and results.
    In the ``Leaders and Laggards'' report, the U.S. Chamber of 
Commerce and the Center for American Progress agreed that states and 
districts need to reform pay and performance structures to improve 
starting salaries. Offering competitive salaries and up-front tuition 
assistance can help attract talented mid-careerists and young people 
committed to a career in education.
    Our teacher workforce should also receive greater compensation for 
positive results and a willingness to take on more responsibilities. If 
a teacher or a principal is taking on more challenging subjects, 
teaching in tougher schools, or delivering positive results, we should 
create rewards for them.
    In the classroom, teachers often find too few opportunities to 
engage in ongoing professional development that is closely aligned with 
what they teach. That is why we need new avenues of advancement that 
offer expert teachers the opportunity to pursue a variety of positions 
throughout their careers without having to leave classroom teaching 
altogether. These efforts can be particularly helpful in high-poverty 
schools where new teachers often need additional support and 
experienced teachers need incentives to stay. Commensurate with the 
responsibilities of mentor teaching, master teaching, and any other 
advanced categories that are created, there should be significant 
increases in compensation as well.
    Compensation systems that recognize the value of our teacher 
workforce coupled with career advancement systems that more effectively 
reward good performance, draw effective educators to high-need schools, 
and respond to poor performance, including fairly and effectively 
removing ineffective educators, will make larger investments in teacher 
and principal salaries more politically viable and maximize the returns 
on such investments. To effectively determine advancements, expanded 
compensation for teachers and principals should be coupled with a 
meaningful evaluation system for them. This would serve a two-fold 
purpose as it would help determine pay based on performance, while at 
the same time add hard data to help measure education performance and 
effectiveness.
    The president and the Congress need to act on the premise that 
teachers and principals are public education's most valuable assets. We 
need to start treating them as our most valuable resource and include 
them in the decision-making process. To do so, we first need to seek 
direct input from them on issues such the quality of development 
programs, school conditions, administrative support, and other 
issues.\10\ Moreover, they must be consulted as compensation systems 
are redesigned.
    In Maryland, Gov. Martin O'Malley plans to carry out a survey among 
school teachers every two years called the Teacher Working Conditions 
Survey to quickly identify and address areas pertaining to the 
``quality of school leadership, administrative support, professional 
development, and facility conditions.'' \11\ The survey information 
will be used to identify problem areas, evaluate the effectiveness of 
education initiatives, track progress and results, and efficiently 
direct resources based on need.\12\ As our most valuable resources 
within the school system, it is imperative that teachers and principals 
get a say in what happens within the classroom. Therefore, we should 
consider implementing similar surveys in schools nation-wide.
    We have an opportunity to implement highly transformative measures. 
With so many teachers leaving the classroom in the next decade, there 
is an increased sense of urgency to recruit the next generation of 
teachers and principals and to experiment with more innovative 
programs. Our nation's future depends on our efforts to find 
alternatives to the current system and to attract and retain highly 
effective teachers and principals.
    The TEACH Act's several programs can help improve recruitment, 
preparation, distribution, and retention of a highly effective teacher 
workforce. I strongly encourage the Committee to move this bill forward 
and also to consider the other issues I discussed with you today.
    Thank you, Mr. Chairman and members of the Committee for inviting 
me today. I'd be happy to take any questions you may have.
                                endnotes
    \1\ Dan Goldhaber. Teacher Pay Reforms: ThePolitical Implications 
of Recent Research (December 2006), Center for American Progress, at 1.
    \2\ Richard M. Ingersoll, Why Do High-Poverty Schools Have 
Difficulty Staffing their Classrooms with Qualified Teachers? Center 
for American Progress and the Institute for America's Future (2004), 
available at http://www.americanprogress.org/kf/ingersoll-final.pdf 
(last viewed May 7, 2007).
    \3\ Richard M. Ingersoll, Is There Really a Teacher Shortage?, 
Center for the Study of Teaching and Policy, University of Washington 
(2003), at 15; Richard M. Ingersoll, Why Do High Poverty Schools Have 
Difficulty Staffing Their Classrooms with High Quality Teachers?, 
Center for American Progress (2004) available at http://
www.americanprogress.org/kf/ingersoll-final.pdf (last viewed May 7, 
2007).
    \4\ National Center for Education Statistics, Monitoring School 
Quality: An Indicators Report, December 2000, at 13-14.
    \5\ Eric A. Hanushek & Steven G. Rivkin, How to Improve the Supply 
of High-Quality Teachers, Brookings Papers on Education Policy: 2004, 
at 16.
    \6\ Education Week, Quality Counts 2003, Editorial Projects in 
Education, Jan. 9, 2003, available at http://counts.edweek.org/
sreports/qc03/templates/article.cfm?slug=17divide.h22 (last viewed May 
6, 2007).
    \7\ Center for American Progress and the U.S. Chamber of Commerce, 
Leaders and Laggards: A State-by-State Report Card on Educational 
Effectiveness, at 7 (February 2007), available at http://
www.uschamber.com/icw/reportcard/major--findings.htm (last viewed May 
7, 2007).
    \8\ Kevin Cary, The Real Value of Teachers, The Education Trust, 
Winter 2004. available at http://www2.edtrust.org/NR/rdonlyres/
5704CBA6-CE12-46D0-A852-D2E2B4638885/0/Spring04.pdf (last viewed May 7, 
2007).
    \9\ Teresita Perez and Reece Rushing, The CitiStat Model: How Data-
Driven Government Can Increase Efficiency & Effectiveness (April 2007) 
at 10, available at http://www.americanprogress.org/issues/2007/04/pdf/
citistat--report.pdf (last viewed May 7, 2007).
    \10\ O'Malley and Brown, ``New Ideas to Improve Teacher Working 
Conditions,'' 2006, available at http://omalley.3cdn.net/
9debebb3ca354efd54--31m6b9q13.pdf (last viewed May 7, 2007).
    \11\ O'Malley and Brown, ``New Ideas to Improve Teacher Working 
Conditions,'' 2006, available at http://omalley.3cdn.net/
9debebb3ca354efd54--31m6b9q13.pdf (last viewed May 7, 2007).
    \12\ Teresita Perez and Reece Rushing, The CitiStat Model: How 
Data-Driven Government Can Increase Efficiency & Effectiveness (April 
2007) at 9, available at http://www.americanprogress.org/issues/2007/
04/pdf/citistat--report.pdf (last viewed May 7, 2007).
                                 ______
                                 
    Chairman Miller. Mr. Klein.

     STATEMENT OF JOEL I. KLEIN, CHANCELLOR, NEW YORK CITY 
                    DEPARTMENT OF EDUCATION

    Mr. Klein. Thank you, Mr. Chairman, Mr. McKeon, members of 
the committee. I appreciate the opportunity to be here.
    Ms. Clarke, thank you for your kind words and your 
distinguished service to our city.
    You know, Mr. Chairman, I told John when I sat down--I 
said, this reminds me of the Clinton White House. He always got 
to speak before I did. But there is one major difference. This 
is the first time I have ever agreed with everything he said, 
actually, so it is good to see you have matured so well, John.
    Mr. Chairman, you said it at the outset, and I think this 
is a serious matter, we all know the recent report out of the 
Aspen Commission, which pointed out that teacher quality is the 
single most important ingredient in a child's education. And 
tragically, in America today, teacher quality is unevenly 
distributed in our schools. Students with the greatest needs 
tend to have access to the least qualified and least effective 
teachers; and if we don't address that issue head on, we are 
not going to succeed in transforming education in America.
    Let me give you some examples in my city. People talk 
about, for example, high turnover of teachers. In some schools 
we have a perpetual turnover of teachers. In other schools, we 
have absolute stability. In some schools, the average teacher 
salary will be $20,000 more on average than in another school. 
In some schools, if I get a vacancy, 200, 300, 400 people apply 
to teach there. In other schools, every year I am running 
through 20, 30, 40 new teachers.
    And as long as we continue with the current structures and 
the current incentives, we are going to continue to get the 
current results.
    What I am excited about is the TEACH Act that you and 
Senator Kennedy have put forward. And I think we ought to take 
it to the highest positive levels.
    I will give you three examples from New York City. Working 
with our union, we have negotiated a $10,000 pay differential 
for what we call lead teachers. They go in a pair to high-needs 
schools. I designate the teacher, I designate the schools--over 
200 now working in New York City. They build capacity, they 
attract other talent, they begin to create the desired kind of 
positive conditions.
    The second thing we did is, we gave a $15,000 signing bonus 
to math, science teachers who commit to go for 3 years to a 
high-needs school. As a result of that, in 2 months we got over 
100 new teachers to come to New York from other school 
districts in order to go to high-needs schools. We are now 
working with NYU and CUNY. We have put together a lot of 
scholarship money for kids in math and science to train and 
then again commit to go to high-needs schools.
    And I think it is absolutely essential, as John and others 
have said, that we put in place meaningful pay-for-performance 
programs in high-needs schools. If we don't do that, we are not 
going to be able to generate the incentives we need to make 
sure we get the talent.
    Let me give you, to me, the proudest example, and see if I 
can convince Dr. Sanford to come to New York with this.
    We just negotiated a contract with our administrators 
union.
    Chairman Miller. He is a free agent.
    Mr. Klein. Wherever I go, I am always looking for great 
principals. Those are the people who change schools. Under our 
new principals contract--and this was a big breakthrough for 
everybody, a principal in New York basically can make as much 
as $150,000 and then another $50,000, $25,000 to go to a high-
needs school for 3 years to do turnaround work, and another 
$25,000 on a pay-for-performance basis.
    Chairman Miller. You're getting his attention.
    Mr. Klein. I know. Plus I have a little discretionary money 
we can throw in too.
    But that is the kind of results you want to reward.
    As a result of these programs in New York, what we are 
doing for the first time is really beginning to create the 
conditions which will attract talent, reward talent and keep 
talent in high-needs schools.
    NCLB can mandate that we get a highly qualified teacher in 
each classroom, but if the law of supply and demand doesn't 
allow that, then the mandate is going to be an unfulfilled 
mandate. And if the Federal Government wants to change the 
facts on the ground in urban education, I would suggest you put 
significant amounts of dollars in meaningful incentives to 
attract talent.
    And let me assure you this is not a zero-sum game. In my 
high-performing schools, I will continue to have high-quality 
teachers. But the fact of the matter is, if you pay people the 
same and they have a choice between working with kids who come 
to school with all the privileges and working with kids who 
come to school with all the challenges, most people, most 
people are going to choose to work with the kids with all the 
privileges. And that is why we have this enormous inequity in 
the distribution of the most vital resource in urban education, 
and that is teachers and principals.
    So I hope in this reauthorization, Mr. Chairman, that your 
leadership, the leadership of Mr. McKeon and the entire 
Congress gets behind a meaningful incentive-driven, pay-for-
performance set of programs so that we can finally give the 
kids, 53 years after Brown, an equal educational opportunity. 
Thank you.
    Chairman Miller. Thank you very much.
    [The statement of Mr. Klein follows:]

    Prepared Statement of Joel I. Klein, Chancellor, New York City 
                        Department of Education

    Good morning. Thank you Chairman Miller and Congressman McKeon for 
inviting me to testify today. Also thank you to Congresswoman Yvette 
Clarke for all her help in representing New York City.
    This morning, I will discuss some of the innovative ways we're 
promoting teacher excellence in New York City. But first, I'd like to 
reiterate a point I made when I testified before this committee last 
summer.
    The law that we're discussing today, No Child Left Behind, might 
not be perfect, but it is very valuable. It forces us to focus on 
student performance and recognizes that the achievement gap--the gap 
that separates our African-American and Latino students from their 
white peers--is the chief problem in American schooling. This law puts 
muscle behind the attempt to close that gap. It requires us to report 
student performance in grades three through eight by race and poverty 
status. We can no longer mask the deficiencies of some students with 
outsized gains by others.
    Now, NCLB can be improved and I have proposed ways to do that. But 
to criticize the heart of No Child Left Behind is to refuse to take 
responsibility for student performance and especially for the 
achievement gap--the most serious civil rights, social, and economic 
crisis facing America today. We should learn from our experiences and 
make a good thing better, but we should not consider diluting or 
destroying a law that forces us to confront our problems head on. We 
must not yield to the critics of NCLB because, I believe, their 
complaints are missing the law's broader significance.
    Now, to the topic at hand.
    We know how important good teachers are. Research shows that an 
average student lucky enough to have three teachers in a row in the top 
25 percent of all our teachers will improve, rising from the 50th to 
the 60th percentile. But a student with three teachers in a row in the 
bottom 25 percent will fall from the 50th to the 40th percentile. The 
difference between those two outcomes is enormous, especially when you 
consider 13 years of education.
    It's clear that one of the best ways to raise student performance 
is to increase the number of effective teachers and reduce the number 
of ineffective teachers. Thankfully, the large majority of teachers are 
hard-working, competent, and committed. Our challenge is to make sure 
that all students are taught by successful teachers.
    One way we're meeting that challenge under Mayor Bloomberg's 
leadership in New York City is by recruiting and retaining more 
excellent teachers, especially in hard-to-staff subjects and high-needs 
schools.
    We used to lose great teachers simply because we couldn't pay them 
competitively. So we've raised starting teacher salaries by 43% since 
2002, bringing teacher salaries much closer to salaries in nearby high-
income districts.
    We've created two new programs specifically to address our shortage 
of math and science teachers--a problem facing cities nationwide. The 
Housing Incentive Program gives bonuses of up to $15,000 to experienced 
shortage-area teachers who commit to spending three years in one of our 
high-needs schools. This incentive has already brought about 100 
teachers to New York City.
    The second program, the Partnership for Teacher Excellence, is a 
new approach to teacher preparation that trains math and science 
teachers by giving them on-the-ground experience in our schools. These 
students receive tuition assistance at the City University of New York 
or New York University in exchange for a commitment to teach in a high-
needs school. The first graduates of this program will start teaching 
in our classrooms this fall.
    We also created the Lead Teacher program last year to reward 
excellent teachers and encourage them to remain in our schools to help 
their peers. Lead Teachers earn an additional $10,000 a year to mentor 
and coach other teachers while also teaching students. They work in the 
schools that need their experience the most--those that are struggling 
to meet their academic goals. About 200 Lead Teachers are working in 
our highest-need schools this year.
    I'd like to commend Chairman Miller for proposing the TEACH ACT, 
which would provide incentive pay to teachers in high need areas. This 
would complement existing New York City efforts to attract top-quality 
teachers to our high-needs schools.
    I would urge Congress go further and provide pay for performance--
especially for teachers in struggling schools--based on state or city 
value-added accountability systems approved by the Secretary of 
Education. We must reward teachers who make great progress with our 
struggling students. Not every challenge is the same in life; that's 
also true in education and Congress should recognize it as such.
    We recently created this type of incentive for our principals, 
through negotiations with the Council for School Supervisors and 
Administrators. The new contract permits the Chancellor to create 
``Executive Principal'' positions, allowing the Department of Education 
to raise by $25,000 the salaries of high-performing principals who 
voluntarily agree to lead high-needs schools for at least three years. 
It also allows the Chancellor to pay principals performance-based 
bonuses of up to $25,000. Similar incentives for our teachers would go 
a long way toward attracting and retaining top-quality teachers in our 
highest needs schools.
    We're already seeing impressive results from these initiatives and 
our other recruitment efforts. We are receiving about five applications 
for every teacher we hire, meaning that our schools are more selective 
than ever before.
    I've spoken so far about how we've improved the quality of the new 
teachers we hire. We're also taking an important step to improve the 
quality of the teachers we've already hired. We intend to make tenure a 
well-deserved honor, not a routine right. Today tenure is nearly 
automatic. About 99% of teachers who serve for three years in our 
system receive tenure as a matter of course. This is the default 
position. We want as many teachers as possible to become tenured, but 
we want them to earn it on the merits. This is so important because 
once a teacher has tenure, he or she basically enjoys lifetime job 
security.
    Under our new tenure proposal, principals will receive a new set of 
supports and tools to ensure that this incredibly important decision is 
made in a rigorous, thoughtful, and fact-based manner. For example, 
this spring, we launched something called the ``Tenure Notification 
System,'' which notifies principals when their teachers' probationary 
periods are nearing a close.
    Not everyone is going to be a good teacher, and it's up to 
principals to carefully assess each candidate and determine whether he 
or she deserves the substantial job protection afforded by tenure. We 
want to ensure that all of our children have great teachers; we cannot 
afford to let ineffective teachers remain in our system. This new 
Tenure Notification System will help principals consider whether 
teachers who are eligible for tenure deserve it.
    Under our new tenure review system, we also intend to take teacher 
impact on student performance into account. Using student outcomes as a 
measure of teacher quality is controversial in some quarters, but if we 
are really going to change things, we need to acknowledge candidly that 
results matter: research shows that past teaching success is the single 
best predictor of future success. It's not right to hold students 
accountable for high achievement without also holding adults 
accountable for their own performance.
    We are working with the United Federation of Teachers to create a 
new peer intervention program for struggling teachers. Where this 
remediation fails, we will help principals remove the lowest 
performers.
    And we are giving our educators new tools to help them improve the 
work they do every day by measuring and analyzing how well students are 
learning.
    We are providing all schools with periodic assessments, which are 
diagnostic tools aligned with curriculum that teachers will use over 
the course of the year to learn about their students' strengths and 
weaknesses. This will help educators adjust instruction to each 
student's individual needs in time to make an immediate difference. To 
help make all of this new information available in a timely way, we are 
launching a powerful new data and knowledge management system called 
the Achievement Reporting and Innovation System (ARIS). ARIS will put 
critical information--about results on periodic assessments, end of 
year standardized exams, and other results--at the fingertips of 
principals, teachers, and parents.
    Unfortunately, by focusing exclusively on credentials in defining a 
``highly qualified'' teacher, NCLB abandons teacher quality at the 
classroom door. We need to ensure that we hire qualified teachers, but 
we also need to ask whether those teachers are actually helping 
students learn.
    When I testified before this committee last year, I told you that 
in an age of technology, educators no longer have to guess what a 
student's problem is and experiment until they find the right solution. 
Well, schools no longer have to guess about teacher quality, either. It 
is something we can and should measure. I hope the next version of NCLB 
will motivate schools to do this, just as we're doing it in New York 
City.
    Thank you. I welcome your questions.
                                 ______
                                 
    Chairman Miller. Dr. Sanford.

 STATEMENT OF DR. JARVIS SANFORD, PRINCIPAL, DODGE RENAISSANCE 
                   ACADEMY, CHICAGO, ILLINOIS

    Mr. Sanford. Mr. Chairman and members of the committee, 
thank you for this opportunity to testify before you today.
    Mr. Davis, thank you for those kind words and for the work 
that you do in Chicago.
    Research supports what common sense tells us, the two most 
important variables affecting student learning are the quality 
of the teachers and the quality of the school leader. And this 
means that the most urgent challenge in an effort to improve 
student achievement across the country is a problem of human 
capital. Both of the two presenters before me were keenly aware 
of that and testified as such.
    And how do we develop the teachers and how do we develop 
the leaders who will make sure this is possible? One, teacher 
recruitment. On teacher recruitment two things are clear. 
First, the traditional approaches on teacher training are not 
providing either the quantity or quality of teachers and 
principals we will need in order to transform American 
education.
    And second, we know that there are programs around the 
country that are recruiting and training principals who are 
having a profound impact on student achievement. And I would 
like to spend my time here helping to share with you exactly 
the results at Dodge Renaissance Academy, where I am the 
principal.
    Dodge is over 95 percent low income. However, I am proud, 
even more so, to share the statistic that we were able to 
achieve the highest gains in the State of Illinois on the 
Illinois Standards Achievement Test. Dodge scores skyrocketed 
from 26 percent of students at or above national norms to 62 
percent in 2006, a 36 percent gain in just 1 year. And when 
individuals ask how we accomplished this, I say that it is all 
because of good teachers and good leadership; and I attribute 
much of that success, really, to the Academy of Urban School 
Leadership and New Leaders for New Schools.
    The Academy of Urban School Leadership has been changing, 
really, the reality of underperforming and underserved schools 
in Chicago for the past 6 years, and is one of only three not-
for-profit urban teacher residency programs in our country. 
AUSL's teacher preparation program is a model that is modeled 
after the medical profession's requirement of a clinical 
residency.
    The program requires that a teacher candidate spend a full 
school year's apprenticeship with a mentor teacher in one of 
the urban teaching academies like Dodge. During that year 
residents earn a master's degree and State certification. But 
here is the key. Theory and practice are woven together as 
course workers specifically design to equip the residents in 
order to teach in low-performing schools.
    AUSL also provides continuing professional development in 
an effort to help its graduates through instructional 
workshops, networking opportunities and coaching. And their 
field coaches are strategically aligned and provide graduates 
with intensive support during the first 2 years in the 
classroom.
    I particularly appreciate the value of this type of 
training models. And it is because I, too, was trained in a 
residency model program as part of my principal program with 
New Leaders for New Schools. I was honored in an effort to be 
selected from over 250 applicants as one of 14 New Leaders in 
order to join my cohort in Chicago.
    As a part of the New Leaders training model, all fellows 
really engage in highly rigorous coursework that focuses on 
instructional and organizational leadership and then spend a 
year in a full-time, paid residency with an outstanding mentor 
principal in an urban public school.
    I think New Leaders, both for new schools and AUSL, have 
three implications for the reauthorization of No Child Left 
Behind; and the first and most important is that we should 
continue to support growing teacher and principal training 
programs that are successful, because we know that developing 
outstanding teachers and principals is the only way to reach 
our goal that no child gets left behind.
    And the second issue is that we should hold the adults 
accountable not only for the results, but also hold them 
accountable just as we do our students. And this means we 
should track the success of teachers and principals as they go 
out into the world and connect these results back into the 
teacher and principal training programs that prepared them. And 
this will help us to determine which programs are really 
turning out great teachers and which are not preparing our 
teachers for urban schools.
    Third, we will recruit and develop these outstanding 
teachers and principals we need in order to make sure we get 
them to the schools that need them the most. We must provide, 
as Mr. Klein just indicated, incentives for our best teachers 
and principals, who work in the hardest-to-staff schools that 
are struggling the most.
    In addition, I think teacher and principal training 
programs are an important lesson that low-performing schools 
should not and will not continue in the future.
    I welcome any and all of you to visit Dodge, and to visit 
the Academy of Urban School Leadership and to visit New Leaders 
for New Schools, to experience the models in action. And I 
believe you will have an incredible opportunity to really 
support these programs that are achieving outstanding results 
and truly guarantee that no child is left behind. Thank you.
    Chairman Miller. Thank you.
    [The statement of Dr. Sanford follows:]

Prepared Statement of Dr. Jarvis Sanford, Principal, Dodge Renaissance 
                                Academy

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to testify before you today concerning the vital importance 
of the reauthorization of the Elementary and Secondary Education Act, 
perhaps better known as the No Child Left Behind Act.
Background
    As context for my testimony today, a brief overview of my 
credentials is warranted. My education background is a Bachelor of 
Science degree from Morehouse in Atlanta; an MBA and a Doctor of 
Education degree, both from Northern Illinois University; and a 
graduate of the premiere principal training program, New Leaders for 
New Schools in Chicago. I am completing my third year as Principal of 
the Dodge Renaissance Academy, an elementary school on the west side of 
Chicago; my student population, about 450 students, is above ninety-
five percent low-income.
Overview
    High-performing public schools are an integral component of the 
core stability that is fundamental to a strong democratic, civil, and 
prosperous society. We must elevate the achievement of the worst-
performing schools to be able to realize the full potential of our 
children and our country. We cannot have a healthy, vibrant America 
while so many of our children are truly left behind with no real 
options or tools to develop anything good for their future.
    It is imperative that we recognize that the children in our low-
income, urban public schools give us a reality that requires specific 
and rigorous preparation to reach and then teach them to achieve. The 
life issues, the community realities, the confusion of the world 
outside of each of these schools follow these students when they walk 
through our doors. All the harshness of their world winds its way into 
the classrooms.
Teacher and Principal Quality: What's Working
    Research supports what common sense tells us: the two most 
important variables affecting student learning are the quality of the 
teacher and the quality of the school leader. This means the most 
urgent challenge to improving student achievement across the country is 
a problem of human capital: how do we develop the teachers that we 
have, how do we attract the nations best and brightest to become 
teachers and school leaders, and how do we retain these outstanding 
teachers and principals once we have them?
    On teacher recruitment two things are clear: first, the traditional 
approaches to teacher training are not providing the quantity or 
quality of teachers and principals we will need to transform American 
education; second, we know that there are programs around the country 
that are recruiting and training high quality teachers and principals 
that are having a profound impact on student achievement. I would like 
to spend my time today talking about two of those programs, about how 
they have made possible our achievement results at Dodge, about how 
Dodge benefited from the tough love of a true turnaround, and about 
what implications these programs might have for the reauthorization of 
NCLB.
    As I mentioned a minute ago, my school, Dodge, is over ninety-five 
percent low-income. However I am proud to share an even more important 
statistic from Dodge: This year we achieved the highest gains in the 
State of Illinois on the Illinois Standards Achievement Test. Dodge's 
scores skyrocketed from 26% of students at-or-above national norms in 
2005 to 62% in 2006, a 36% gain in just one year.
    When people ask us how we accomplished this I say that it is all 
about good teachers and good leadership, and I attribute much of that 
success to the Academy of Urban School Leadership, the organization 
that trains and supports our teachers, and to New Leaders for New 
Schools, the organization that recruited, trained and supported me as a 
principal.
Academy of Urban School Leadership (AUSL)
    AUSL has been changing the reality of underperforming and 
underserved schools in Chicago for the past six years and is one of 
only three not-for-profit Urban Teacher Residency programs in our 
country. AUSL's teacher preparation program is modeled after the 
medical profession's requirement of a clinical residency. The program 
requires that a teacher candidate spend a full school year's 
apprenticeship with a mentor teacher in one of their urban teaching 
academies like Dodge. During that year, the Residents also earn their 
Master's degree and state certification. Theory and practice are 
continually woven together as coursework is specifically designed to 
equip the Residents to teach in low-performing urban schools.
    AUSL provides continuing professional development to its graduates 
through instructional workshops, networking opportunities, and 
coaching. Their Field Coaches provide graduates with intensive support 
during the first two years in the classroom, and three additional years 
of on-call support. AUSL currently has 153 graduates teaching in 
Chicago and boasts a ninety-five percent retention rate compared to a 
district wide average of barely 50 percent.
New Leaders for New Schools (NLNS)
    I particularly appreciate the value of this type of training model 
because I too was trained in a residency based model as part of my 
principal training program with New Leaders for New Schools. I was 
honored to be selected from over 250 applicants as one of 14 New 
Leaders to join my cohort in Chicago. As part of the New Leaders 
training model, all fellows engage in highly rigorous coursework that 
focuses on instructional and organizational leadership, and then spend 
a year in a full time paid residency with an outstanding mentor 
principal in an urban public school.
    This combination of rigorous coursework, on the ground experience 
working alongside outstanding principals, the built in support of a 
cohort of fellow principals plus an organization that provides ongoing 
coaching and mentoring have been critical to my own professional growth 
and the success of my school. In a time when it is difficult to earn a 
job as a principal, in Chicago we now have parents, community members 
and kids pleading to get a New Leaders principal for their school 
because they have seen the results that New Leaders principals have 
generated across the city. New Leaders is currently partnering with 9 
cities around the country and New Leaders principals are changing the 
educational opportunities of more than 200,000 of America's children 
every day.
    We know there are other innovative teacher and principal training 
programs throughout the country that are having incredible successes 
attracting the best and the brightest into education. Teach For America 
alone has placed more than 15,000 teachers in the most underserved 
classrooms in the country and consistently draws applications from more 
than 10% of the graduating classes of Ivy League colleges. These 
programs and others prove that it is possible to attract the best 
people to be educators, and that if we train them well and support them 
well they can produce the dramatic kind of results that we have seen at 
Dodge.
Teacher and Principal Quality: Implications For Reauthorization
    I think New Leaders for New Schools and AUSL have three 
implications for the reauthorization of NCLB, the first and most 
important is that we should continue to support growing teacher and 
principal training programs that are successful because we know that 
developing outstanding teachers and principals is the only way to reach 
our goal that no child gets left behind.
    The second is that we should hold the adults accountable for 
results the way that we are holding students accountable for results. 
This means we should track the success of teachers and principals as 
they go out into the world and connect these results back to the 
teacher and principal training programs that prepared them. This will 
help us determine which programs are really turning out great teachers 
and leaders, and which ones are just diploma mills that do not prepare 
teachers for the real work of instruction. Programs that have high 
levels of success training effective educators should receive more 
funding to expand their practices, while education schools or training 
programs that achieve little or no results should be held accountable 
the way our worst performing schools are held accountable-they should 
lose the ability to certify teachers or they should lose federal 
funding.
    Third, when we recruit and develop these outstanding teachers and 
principals we need to make sure we get them to the schools that need 
them most. We must provide incentives for our best teachers and 
principals to work in the hardest to staff schools that struggle the 
most. To keep and attract these educators we will need to build diverse 
and challenging career paths for teachers and school leaders that will 
allow them to expand and share their skills with others as they become 
masters of their craft. This means allowing teachers to grow into 
positions as master teachers or staff developers where they can lead 
apprentice teachers in developing their skills.
Restructuring Failed Schools
    In addition to teacher and principal training and recruitment, I 
think there is one other important lesson from our success at Dodge: 
our lowest performing schools require our most serious interventions. 
In addition to the superior teacher-preparation model, AUSL also 
focuses on transforming chronically failing schools into schools of 
excellence by closing schools that fail to meet NCLB guidelines and 
creating NCLB Turnaround Schools. Students leave in June and return two 
months later in September to a school of all new teachers, a new 
principal, a new curriculum, and improved facilities. Dodge was the 
beneficiary of just such a turnaround. We were able to capitalize on 
this drastic change to dramatically change the culture, expectations 
and results at Dodge and we believe that our success demonstrates that 
schools with dramatic needs require dramatic interventions. We should 
expect more from low performing schools and if they don't succeed we 
should shut them down and open new schools rather than tinkering around 
the edges with superficial changes: too many districts allow their 
lowest performing schools to just rearrange the deck chairs on the 
Titanic rather than demand that they build a whole new ship.
    It is critical to minimize the ``wiggle room'' that enables 
districts to embrace delays, or to proceed with an incremental change 
when whole-school change is warranted: chronically underperforming 
schools should be closed and restarted in order to ensure success for 
the children we are failing to serve right now.
    Too many underperforming and underserved urban schools.
    Too many lives undeveloped.
    Too many fascinating, important futures unexplored.
    I welcome any and all of you to visit Dodge, to visit the Academy 
of Urban School Leadership, to visit New Leaders for New Schools and to 
experience the models in action. I believe that you have an incredible 
opportunity to support these programs that are achieving outstanding 
results and truly guarantee that No Child gets Left Behind.
    Thank you very much for your time and action.
                                 ______
                                 
    Chairman Miller. Ms. McLean.

 STATEMENT OF VALDINE McLEAN, SCIENCE TEACHER, PERSHING COUNTY 
                   HIGH SCHOOL, LOVELOCK, NV

    Ms. McLean. Thank you, Mr. Chairman and Congressman Heller, 
for your introduction.
    I have taught for 18 years in both inner city and rural 
schools. I currently teach physics, chemistry and biology to 
students in grades 10 through 12 at Pershing County High School 
in Lovelock, Nevada. I am National Board Certified and have a 
Presidential Award for Excellence in Math and Science Teaching. 
Currently, I am President of the Pershing County Classroom 
Teachers Association. I am honored to offer my insights on how 
performance pay can boost quality in the teaching profession.
    As a member of the Virtual Teachers Leaders Network, I am 
part of a team of 17 other accomplished teachers from across 
the Nation who authored the recent report, Paying Teachers for 
Performance: Designing a System That Students Deserve. My 
TeacherSolutions colleagues are also award winners. We are 
NBCTs, Milken winners, national, State and district teachers of 
the year and Carnegie Fellows. We wrote this report because, 
all too often, accomplished teachers are left out of the 
debates about our profession and the students in communities we 
serve.
    Performance pay is the first of many teaching issues that 
we hope we can tackle through our collective voices at Teacher 
Leaders Network and with our TeacherSolutions module. We worked 
in the spring of 2006 through the use of technology. We had 
meetings over Illuminate, an Internet program in which we could 
listen and talk with national experts and read the research on 
performance- and merit-based plans in which some are in 
existence around the country and others are comprehensive 
ideas.
    Through our work in promoting performance pay for teachers 
three critical points surfaced:
    One, make sure the base pay is right and competitive. 
Teachers should be able to work in the communities and live in 
those communities;
    Two, do not place a cap on participation so all teachers 
have a chance to grow and lead; and
    Three, involve teachers in designing whatever system you 
create.
    Our report does not offer a prescriptive formula, but a 
comprehensive framework that proposes to pay teachers more when 
they help students more over time, using credible classroom 
data;
    Work in small teams to improve student achievement;
    Gain relevant knowledge, like what is needed to serve a 
growing number of second language learners;
    Teach in high-priority schools, subject and assignments;
    Demonstrate their expertise, for example, when they earn 
National Board Certification; and
    Serve as mentor coaches and teacher educators for after-
school programs.
    Our own investigation into performance pay issues have led 
to us to conclude that we need to measure teacher effectiveness 
in multiple ways. Why? Because there are many influences on 
student learning.
    Identifying effective teachers requires evaluating their 
teacher practices, assessing their performance and examining 
the different ways they get academic results for students. Only 
about one in three students can have a value-added test score 
ascribed to them. Many of the tests are not very good, 
especially in terms of measuring 21st century learning.
    And large test companies routinely have to invalidate 
scores because of technical errors. They do not measure much of 
what I teach, like when I offer daily laboratory exercises for 
my students from coaching them to extract DNA, to investigating 
water quality of a 200-mile stretch of the Humboldt River.
    We need to focus on rewards on teachers spreading their 
expertise to others, not creating unhealthy competition among 
colleagues. Because understanding that science is not always 
easily accessible to my diverse students, I frequently develop 
cooperative projects with my colleagues in art, shop, English 
and computer science. Together with my colleagues, I have 
developed into the teacher that I need to be.
    We need to reward teachers who earn National Board 
Certification. The process helped me learn to be the teacher I 
need to be. And now I mentor colleagues in my district to help 
them to be successful, too, in achieving their certification.
    As the first teacher in my school to use computers and 
technology in the classroom, I discovered a powerful tool to 
help reach my English language learners and special needs 
students. I then, in turn, gave workshops to my colleagues in 
the entire school district to pass on my new knowledge and 
skills to help other educators be more effective.
    How performance pay plans can boost the quality in 
teaching:
    Aspiring teachers rarely go into teaching for money. 
However, once hired, they quickly see who does what and for how 
much. There is a great disparity in pay. Experience does not 
equate with quality and, likewise, the pay. The talented 
teachers shouldn't have to wait 25 years to earn a reasonable 
salary that a talented engineer might earn in the private 
sector in 8 years.
    Not much skill, if any at all, is required to have students 
do book work in class. It is like managing cattle. However, it 
takes great skill and effort to lead a pumpkin catapult contest 
every fall involving more than half the student body, as well 
as parents, business people and others from throughout the 
community and the region. This hands-on project nurtures skills 
and cooperation, teamwork and friendly competition, the 21st 
century skills we need, as well as providing motivation for 
seniors to take a challenging science elective instead of free 
period or study hall. This type of plan, a good plan that 
rewards people with skill can keep effective people as teachers 
in the classroom.
    In order to lead and earn more money, teachers are forced 
to become administrators where their teaching expertise is 
often not used. Can't we encourage our best to stay in teaching 
by offering them chances to work with teacher education 
students, mentor novices, train colleagues while still teaching 
children part time?
    Our best surgeons perform an operation one day and prepare 
future doctors the next. Why can't our pay systems do the same 
for teachers? A country needs world-class learners with the 
global skills necessary to take this great nation into the 22nd 
century.
    I highly encourage you to read our full report. We do not 
have all the answers, but we do have teacher solutions from 
some of the Nation's most accomplished teachers, and I am just 
one of many. Thank you.
    Chairman Miller. Thank you very much.
    [The statement of Ms. McLean follows:]

 Prepared Statement of Valdine McLean, Chemistry, Physics, and Biology 
           Teacher, Pershing County High School, Lovelock, NV

Boosting Quality in the Teaching Profession through Performance Pay 
        Plans
    Thank you Mr. Chairman. My name is Valdine McLean and I have taught 
for 18 years--in both inner-city and rural schools. I currently teach 
physics, chemistry, and biology to students in grades 10--12 at 
Pershing County High School in Lovelock, Nevada. I am a National Board 
Certified Teacher and have earned a Presidential Award for Excellence 
in Math and Science Teaching. Currently I am the President of Pershing 
County Classroom Teachers Association. I am honored to offer my 
insights on why and how performance pay can boost quality in the 
teaching profession.
    As member of the virtual Teacher Leaders Network I am part of team 
of 17 other accomplished teachers from across the nation who authored 
the recent report, Paying Teachers for Performance: Designing a System 
That Students Deserve. My TeacherSolutions colleagues are also award 
winners--NBCTs, Milken winners, national, state, and district teachers 
of the year, and Carnegie Fellows. We wrote this report because all too 
often accomplished teachers are left out of the debates about our 
profession and the students and communities we serve. Policymakers hear 
from administrators, business leaders, researchers, policy analysts, 
and top-level union officials.
    Performance pay is the first of many teaching issues that we hope 
we can tackle through our collective voices at Teacher Leaders Network 
and with our TeacherSolutions module. We worked in the Spring of 2006 
through the use of technology. We had meetings over Illuminate, (an 
Internet program in which we could listen and talk with national 
experts and read the research of performance and merit based plans in 
which some are in existence around the country and others that are 
comprehensive ideas.)
    Through our work in promoting performance pay for teachers, three 
critical points surfaced:
    1. Make sure the base pay is right and competitive;
    2. Do not place a cap on participation--so all teachers have a 
chance to grow and lead; and
    3. Involve teachers in designing whatever system you create.
    Our report does not offer a prescriptive formula, but a 
comprehensive framework that proposes to pay teachers more when they:
    1. Help students learn more over time, using credible classroom 
data;
    2. Work in small teams to improve student achievement;
    3. Gain relevant knowledge like what is needed to serve growing 
numbers of second language learners;
    4. Teach in high priority schools, subjects, and assignments
    5. Demonstrate their expertise--e.g., when they earn National Board 
Certification; and
    6. Serve as mentors, coaches, and teacher educators--and lead much 
needed after-school and parent education programs.
    Our own investigation into performance pay issues has led us to 
conclude that we need to measure teacher effectiveness in multiple 
ways.
    Why? Because there are many influences on student learning, 
identifying effective teachers requires evaluating their teaching 
practices, assessing their performance, and examining the different 
ways they get academic results for their students. Only about 1 in 3 
teachers can have a valued-added test score ascribed to them. And many 
of the tests are not very good (especially in terms of measuring 21st 
century learning)--and large test companies routinely have to 
invalidate scores because of technical errors. They do not measure much 
of what I teach--like when I offer daily laboratory experiences for my 
students, from coaching them how to extract DNA, to investigating the 
water quality of a 200 mile stretch of the Humboldt River.
    We need to focus rewards on teachers spreading their expertise to 
others, not creating unhealthy competition among colleagues.
    <bullet> Because understanding that science is not always easily 
accessible to my diverse students, I frequently develop cooperative 
projects with colleagues in art, shop, English, and computer science. 
Together with my colleagues, I've developed into the teacher I need to 
be.
    <bullet> We need to reward teachers who earn National Board 
Certification. The process helped me learn to be the teacher I need to 
be, and now I mentor colleagues in my district to help them be 
successful too in achieving their certification.
    <bullet> As the first teacher in my school to use computers and 
technology in the classroom, I discovered a powerful tool to helped me 
reach English language learners and special needs students. I then in 
turn, gave workshops to my colleagues in the entire school district to 
pass on my new knowledge and skills to help other educators be 
effective.
How Performance Pay Plans can Boost the Quality in Teaching
    Aspiring teachers rarely go into teaching for the money, however, 
once hired, they quickly see who does what for how much. There is great 
disparity in pay. Experience does not equate with quality, and likewise 
the pay. The talented teacher shouldn't have to wait 25 years to earn a 
reasonable salary that a talented engineer might earn in the private 
sector in eight years. If any company stifled its employees in such a 
fashion, it would go out of business.
    Not much skill if any at all is required to have students do 
bookwork in class, it's like managing cattle. However, it takes a great 
skill and effort to lead a ``pumpkin catapult contest'' every fall 
involving more than half of the student body, as well as parents, 
businesspeople, and others from throughout the community and the 
region. This hands-on project nurtures skills in cooperation, teamwork, 
and friendly competition, as well as providing motivation for seniors 
to take a challenging science elective instead of a ``free period or 
study hall''. A plan that rewards those with skill, can keep effective 
people as teachers in the classroom.
    In order to lead and earn more money, teachers are forced to become 
administrators where their teaching expertise is often not used. Can't 
we encourage our best to stay in teaching by offering them chances to 
work with teacher education students, mentor novices, train colleagues 
while still teaching children part of the time? Our best surgeons 
perform an operation one day and prepare future doctors the next. Why 
can't our pay systems do the same for teachers?
    Our country needs world class learners with the global skills 
necessary to take this great nation into the 22nd century. I highly 
encourage you to read our full report. We do not have all the answers--
but we do have ``TeacherSolutions'' from some of the nation's most 
accomplished teachers.
                                 ______
                                 
    Chairman Miller. Dr. Dale.

 STATEMENT OF DR. JACK D. DALE, SUPERINTENDENT, FAIRFAX COUNTY 
                PUBLIC SCHOOLS, FALLS CHURCH, VA

    Mr. Dale. I want to thank you, Chairman Miller, for the 
opportunity to come testify and, with Joel Klein, to recruit. 
And I am hoping at the end of the testimony here I will have 
two contracts.
    I do want to commend you for this series of hearings that 
you are holding on No Child Left Behind, because I do believe 
that they are the most important, at least in my over-30-year 
career in education.
    Recruitment and retention of the brightest minds in our 
Nation to become teachers who are our next generation of 
leaders and scientists and educators and entrepreneurs is our 
greatest challenge in the context of strengthening our 
democracy, growing our Nation and being an able competitor in 
the global economy. And truly, the little red school house and 
those we teach must be our national priority.
    And so it is both an honor and a privilege to attend this 
hearing this morning to share with you the concept of teacher 
leadership that I started when I was a Superintendent in 
Maryland, and I am now implementing in Fairfax.
    Across our Nation teacher workforce solutions tend to be on 
the margins. We pay additional stipends, we pay additional per 
diem rates of pay, workshop rates of pay, curriculum rates of 
pay and the list goes on. And when I was negotiating in the 
State of Washington in labor contracts I did some of those, so 
I know that they are there.
    But we work on the margins simply because we have not 
created a compelling vision of a compensation system built on 
teachers as the leaders in our schools. Even the No Child Left 
Behind approach on teacher quality takes a narrow view by 
focusing almost exclusively on credentials and other paper 
qualifications and not on the art and success of teaching.
    Our systems will never change unless we create a focused 
effort to do so. So I believe we must stop working on the edges 
of this issue and restructure the teacher and work compensation 
system that is part of our Nation.
    Today, I wish to share the new system we are creating in 
Fairfax County. At the core of our redesign we recognize that 
many adults, not just single-career people, but many adults 
aspire to have multiple careers inside and outside of 
education, and maybe even some of the members of the committee 
as I hear. We recognize that people enter the profession to 
work with kids. Typically, teachers do not aspire to become 
administrators, yet they want to have a voice in the decisions 
that impact their classrooms, their working conditions and the 
education of today's youth.
    We expect teachers to teach, perform leadership functions, 
participate in school improvement decisions, participate in 
grade level and content area analysis of successful practices, 
coach, mentor, monitor progress, involve parents in the 
classroom and school activities. The list of these expectations 
and pressures and demands is lengthy, and are all issued under 
the same belief and passion of leaving no child behind.
    Within the redesigned work compensation system in the 
future we must recognize, I think, five realities:
    First is, teaching is a full-time job, it is a full-time 
profession. It can no longer be viewed under the ``hourly'' 
employment paradigm of so many hours per day or even so many 
days per year. It is full-time.
    Teachers no longer ``just teach.'' they perform a multitude 
of duties beyond their interaction with kids in the classroom.
    There are also multiple careers within the teaching 
profession, none of which requires the title of 
``administrator'' or ``principal.''
    Educators must be competitively compensated--not some 
teachers, but all teachers.
    We must look within a school system's current resources to 
make most of these changes, and that is a challenge. And only 
additional resources, I think, can come about through creative 
innovations and, potentially, through congressional or State 
legislative action.
    We must recognize the importance of teachers as key leaders 
and decision-makers in their schools. The new rules I propose 
are based on 12-month contracts instead of the current 10-or-
so-month contract. The proposed teacher roles are in addition 
to the normal 180 days that they meet with students and include 
the following different types of roles.
    One is what I would call a School Improvement Teacher 
Leader. This includes working with the school leadership and 
the principal and assistant principal in shared leadership 
responsibilities in analyzing school performance, program 
changes, staff development needs, et cetera.
    A second role is what we would call Feeder or Cluster 
Improvement Teacher Leader that focuses on the connections and 
collaborations in schools that are in the K-12 hierarchy of 
grades that our students progress through. Particularly in this 
area, we focus on content alignment and performance 
expectations.
    The third area is Instructional Improvement Teacher Leader. 
It includes instructional innovation, curricular mapping, 
developing strong teams of teacher leaders or teaching capacity 
within the classroom, and each of them refining their 
instructional skills.
    A fourth area is what I would call New Teacher Trainer/
Mentor. This is dealing with our new teachers that prior to the 
start of school need extensive training, and during the first 
several years of teaching, need lots of support in mentoring 
and coaching.
    A fifth area is not uncommon, so I call it Extended Student 
Learning. It focuses on tutoring and nurturing students who are 
performing below grade level or who need even some preteaching 
of the content before they start the school year. Such work 
could be done after school, during school breaks or any time, 
as necessary, to have the kids be successful.
    The sixth area is Student Transition Leadership. It 
includes analysis and coordination of support services for kids 
as they go through the grade level. We currently devote a great 
deal of money to these functions, but rarely on a piecemeal 
basis. And rarely do we strategically group them in the manner 
I have described to comprehensively compensate teachers.
    And I will invite any questions at the end.
    Chairman Miller. Thank you very much. I appreciate that.
    [The statement of Dr. Dale follows:]

Prepared Statement of Dr. Jack D. Dale, Superintendent, Fairfax County 
                      Public Schools, Fairfax, VA

    Across the nation our teacher workforce solutions tend to be on the 
margins. We negotiate additional stipends, per diem rates of pay, 
workshop rates of pay, curriculum rates of pay, and other methods of 
adding bits of time and compensation. Some states and policy makers are 
now revisiting merit pay, or performance pay, each of which remains on 
the margin. We work on the margins simply because we have not created a 
compelling vision of a new teacher compensation system, a system based 
on the real, day-to-day, month-to-month and annual work requirements of 
our nation's teachers.
    We must stop working on the edges of this issue and restructure the 
teacher work/compensation system. Our current systems will never change 
unless we recognize the teaching profession has changed drastically. We 
must create a new paradigm of teaching and the resources must follow 
that paradigm.
    Our redesign must also recognize that many adults now wish to have 
multiple careers inside and outside of education. We must recognize 
that people enter the profession to work with children. Teachers 
typically do not aspire to become administrators, yet they do seek an 
active voice in the decisions impacting their classrooms and their 
working conditions.
    First, let's look at the current job expectations. We now ask 
teachers to perform a multitude of duties outside the classroom. 
Schools now require a leadership structure that includes people inside 
and outside the schoolhouse. We expect teachers to teach, perform 
leadership functions, participate in school improvement decisions, 
monitor progress, and involve parents in classroom activities. The list 
of expectations, pressures and demands is lengthy, and all are issued 
in the name of either ``leaving no child behind'', or in creating world 
class school systems. It is time to redesign the work/compensation 
structure of our teaching workforce.
    The work/compensation system of the future must recognize five 
current realities:
    1. Teaching is a full-time profession and can no longer be viewed 
under an ``hourly'' employment paradigm of so many hours per day and so 
many days per year.
    2. Teachers no longer ``just teach.'' They must perform a multitude 
of duties in and out of the classroom to be successful.
    3. There are multiple careers within the teaching profession, none 
of which need include the title of ``administrator.''
    4. Education must be attractive to large numbers of potential 
teachers--fresh from college as well as career changers.
    5. We must look within a school system's current resource pool 
(over time) to make changes. Significant additional resources are not 
universally available.
    Finally, to recognize the multiple set of professional 
expectations, professional roles and professional salaries, we must 
recognize that the specific work year (and day) will vary within 
schools and across school systems. Just as we now recognize that no one 
instructional approach works for all children, we must recognize that 
no one ``job description'' encompasses the set of duties for all 
teachers, nor does one work calendar address the variety of necessary 
roles and functions in any school. We must rethink current roles and 
responsibilities in education and design a system that will work in the 
``high stakes, high standards for all students'' environment.
The New Teacher Workforce Model
    The proposed teacher work/compensation model is based on teachers 
opting and being selected into one of many role options. The options 
include not only the current set of responsibilities--the Traditional 
Role--but also, an additional set of role options that will form the 
core of the redesigned school system. The role options are designed 
around the core functions of any school. All schools must provide 
leadership to the entire school community. This function has moved 
beyond the confines of the principal's office and typically includes a 
leadership team comprised of teachers and community members as well as 
the principal. In addition to school leadership, there must be 
coordination between school levels--elementary, middle and high 
schools. Both of these leadership functions must occur outside the 180-
day school year and are best addressed before the school year starts.
    Training and mentoring of new staff is another necessary leadership 
function, especially with the highly qualified staff requirements. This 
function begins before the school year starts but must also be ongoing 
throughout the year. The work calendar for this function is different 
than the calendar for the other school and feeder leadership functions.
    The new teacher leadership functions are all in addition to the 
normal 180-day teaching duties. Each recognizes the importance of 
teachers as key leaders and decision makers for their schools. Because 
the time demands are different, each will require a different work 
calendar, but all new roles are based on 12-month contracts instead of 
the current 10-month contract. The proposed teacher roles are in 
addition to their normal 180 days with students and include the 
following:
    <bullet> School Improvement Teacher Leader--includes school 
leadership responsibilities, shared with the principal including 
analysis of school performance, program changes and staff development 
needs.
    <bullet> Feeder/Cluster Improvement Teacher Leader--focuses on 
connections and collaboration with schools within a K-12 cluster that 
students would attend during their school years, particularly content 
alignment and performance expectations.
    <bullet> Instructional Improvement Teacher Leader--includes 
instructional innovation, curriculum mapping, developing strong teams 
of teachers and refining instructional skills.
    <bullet> New Teacher Trainer/Mentor--focuses on training new 
teachers prior to the start of school and mentoring new staff during 
the first several school years.
    <bullet> Extended Student Learning--focuses on tutoring and 
nurturing students performing below grade level, or who need some pre-
teaching of content. Such work would be done after school, during 
school breaks, as needed to leave no child behind.
    <bullet> Student Transition Leadership--includes analysis and 
coordination of support services for children needing social/transition 
skills, it would also include system guidance as students craft 
learning plans.
    <bullet> Traditional Role--180 school days plus the typical 
additional 5 to 15 contracted days; this includes ``normal'' duties 
that are essentially the same as current teaching duties.
    Many of these functions are already being addressed in many 
schools. We currently devote a great deal of money to many of these 
functions, but we do so on a ``piecemeal'' basis. Rarely do we group 
them in a manner that creates a comprehensive teacher work and 
compensation system. We must create such a system if we wish to become 
more intentional about ``leaving no child behind''--if we expect and 
allow professionals to engage in all the necessary roles and 
responsibilities for sustaining high-performing schools, if we 
recognize that distributed, aligned leadership is a must in our ever-
changing society, and, if we hope to compensate professional teachers 
for the full-time set of duties that are now part of the profession.
    The new model assumes a portion of the staff will be willing to 
assume additional responsibilities for which they will receive a 12-
month contract, representing additional compensation. This also assumes 
there is enough staff to create a 12:1 ratio for such assistance would 
address the area of greatest need--extended student learning. Flexible 
scheduling of the added time is necessary to meet the needs of the 
students needing help. This means that not all teachers will be working 
the same hours--a paradigm shift for management.
    Other roles--school and cluster leadership--will likewise require 
different work calendars. These staff members would presumably do much 
of their work prior to the start of each school year as their focus 
must be planning for and leading the entire school or set of schools in 
a cluster. Mentoring the new staff would probably be scheduled before 
the school year, as well as during the school year. Again, this would 
have to be flexible based on the needs of the new staff.
    This is a very different approach from many new compensation models 
that focus on adding stipends/per diem for added knowledge, skills or 
responsibilities. The choice of model belongs to each jurisdiction. 
This model does make a significant departure from many old models, as 
well as those being explored in many places in our nation.
Fairfax County Public Schools: Good to Great Opportunities for Teacher 
        Leaders
    Fairfax County Public Schools (FCPS) recently issued a unique grant 
initiative for school-based staff to create a cadre of teacher leaders 
and advance the professionalism of teaching. The purpose of this pilot 
initiative is to provide schools with flexibility and funding for 
extended-year teacher contracts so that schools may create solutions to 
increase student achievement and ensure students reach their highest 
potential. It is designed to improve school-based instructional 
activities, thereby raising student achievement. Specific goals of the 
initiative include:
    <bullet> Increased numbers of students achieving NCLB standards as 
well as School Board adopted goals covering Academic Achievement, 
Essential Life Skills and Responsible Citizenship.
    <bullet> Support for innovative and exemplary approaches to develop 
and utilize teachers as leaders in meeting the instructional needs of 
students.
    <bullet> Support for the tenets of Professional Learning 
Communities.
    <bullet> Support to strengthen the link between Professional 
Learning Communities and improved student achievement, life skills, and 
citizenship.
    <bullet> Improvement of the efficiency, cost, and time of teacher 
training and use at the school and/or pyramid level.
    Sixty-two schools representing a wide range of elementary, middle, 
and high schools responded to the Teacher Leadership Request For 
Proposal (RFP). All schools and centers had the opportunity to apply 
for the grant. Schools responding to the RFP were distributed across 
all clusters with Cluster III submitting slightly more proposals (21% 
of all proposals) than other clusters (7% to 15% of all proposals). The 
largest percentage of proposals came from elementary schools: 68% of 
the proposals were from elementary schools, 13% were from middle 
schools, 16% were from high schools, and 3% were from secondary 
schools. From the proposals, twenty-two schools were selected as 
grantees or Teacher Leadership initiative sites.
    Schools presented individualized pilot projects with extended-year 
teacher contracts to meet the unique needs of their staff and student 
population. Nearly all schools (91%) proposed initiating a curriculum 
development project. These projects included general curriculum 
development projects (64%) and specific curriculum development projects 
such as integrating arts and technology into the curriculum (1%), 
remediation programs for at-risk or struggling students (18%), 
enrichment programs for advanced learners (14%), and summer school 
programs (18%). Nearly half of the schools (45%) proposed school-based 
staff development activities as a component of the Teacher Leadership 
initiative. Schools also proposed activities targeted to the needs of 
their individual school communities, including the review and use of 
data to inform instruction and staff development (23%), development of 
common assessments across grade levels (18%), involvement of the 
community in the school (18%), resource development (9%), and support 
to increase enrollment in advanced level courses (9%).
    Through the RFP process, FCPS gained invaluable insight into the 
ideas and plans generated by schools. The following sections provide a 
brief overview of the challenges and issues that surfaced through the 
two year development of the Teacher Leadership initiative.
Challenges in Revamping the Teaching Profession--the Paradigm Shift
    Change always brings challenges. The most significant challenge was 
to fully understand the philosophical change that underlies the 
structural issues. While teaching has traditionally been viewed as a 
profession, the reality is that teacher work days and work year are 
really not viewed from a professional perspective. Neither is teacher 
compensation viewed from a professional perspective. Decades of 
discourse on teaching, the evolution of collective bargaining, and the 
ongoing policy debate in districts across the nation have lead us all 
to a paradigm of teacher work and compensation that is very piecemeal 
in its approach. We regularly talk about the teacher work day, the 
number of days in the work year, the daily rate of pay, the additional 
``piecemeal pay'' for additional duties, etc. All of these are examples 
of how well ingrained the paradigm of a ``piecemeal'' work and 
compensation system is within education. This is true in union and non-
union environments. In all cases, conversations about teacher work 
invariably deal with numbers of work days, work hours and rates of pay 
for particular sets of duties.
    The first challenge is to completely re-think the teaching 
profession. Is it possible to view the teaching profession as a set of 
duties and responsibilities that are fully compensated for with one 
salary? If it is possible to conceive of such a set of professional 
responsibilities for which a given compensation is appropriate, what 
are all the natural changes in the school system? Let us explore a few 
of the key issues that any school system must address if/when the new 
paradigm is embraced. For the sake of organization clarity, let us 
examine these issues within the traditional organizational structure 
found in any school system.
Human Resources/Personnel
    The major challenge for HR is determining how to create, support 
and monitor the new contract for those teachers moving to full-time 
employment status. While most school systems do have teaching contracts 
of varying lengths, many have simply used additional ``per diem'' 
contracts to add additional days of work to selected teachers. Annual 
extensions of the basic contract could be used in this circumstance, 
but that methodology does not have the impact on the revamping the 
teaching profession being proposed here. There are substantive benefits 
for changing the work and compensation structure that go well beyond 
``tweaks'' on the edges. The most significant is the permanent change 
in the profession that is contemplated in this proposal. Nevertheless, 
even this proposed permanent change in teacher work and compensation 
results in a host of issues within HR/Personnel. The issues that must 
be addressed include:
    1. Time and attendance record keeping--how to determine days 
worked, days off, sick leave accrual, vacation or ``non-work'' days, 
eligibility for workman's compensation.
    2. Continuing contract rights--for ``normal'' teacher contract or 
for the full-time contract.
    3. Flexible length days during year vs. required time each day.
    4. Teachers with different contracts within the same building.
    5. Employment decisions for those not choosing full-time positions.
    6. Decisions on contract length in subsequent years--management 
decisions as well as employee decisions.
Budget Planning
    There are two major issues for the budget office. One is to 
determine the ``savings'' if we no longer utilize stipends, per diem 
pay, or any other compensation strategies for the work that is now 
subsumed in the full-time contract. Additionally, many school districts 
currently pay for teachers attending workshops during non-school days 
as well as paying for substitutes when teachers are released to attend 
training during the school day. Depending on how these are scheduled--
potentially during the extended contract time--there is a potential for 
substantial savings.
    The second issue is determining the gross cost for the longer 
contract. Multiple methodologies are possible. One can simply calculate 
average salaries for regular and full-time contracts, and multiply that 
difference by the number of expected full-time contracts. One can also 
determine the actual pay difference on a person by person basis after 
the staff selection has occurred. So, in summary, the budget issues 
include:
    1. Calculating potential savings from: stipends, per diem, reduced 
substitute demand, and other compensation that would not be necessary.
    2. Added cost for full-time contracts.
    3. Added employer costs--retirement, social security, benefits 
(life insurance).
    4. Change in overhead costs to administer full-time contract vs. 
regular contract plus ``added pay for added duties.''
    5. Developing a multi-year budget for phase-in period.
Unions and Employee Groups
    There are major issues to address when you are altering wages and 
hours, not to mention working conditions. Depending upon retained 
management rights in a union environment, a district may have the 
latitude to create longer employment contracts for teachers and have 
those contracts specified for a different set of teaching duties--
teacher leadership duties. Even in ``right to work'' environments, 
there are a host of management policies that probably define the 
flexibility of districts to create full-time contracts. At the very 
least, there are clearly a set of past practices that create the 
current norms or employment culture within a district. Changing the 
teacher contract in any environment is challenging, simply because it 
is a change.
    Prior to any logistical changes to HR and Budget, there must be 
extensive conversations with key stakeholders--School Board, 
principals, teachers, parents, employees who are not teachers, etc. The 
notion that the teaching profession has profoundly changed over the 
past decade(s) resonates with all of these groups. Teachers will 
especially agree that their jobs have changed drastically and will 
begin to help determine the pros and cons of making changes to a full-
time contract. Besides the obvious discussions with stakeholders, some 
of the issues for unions include:
    1. Right/expectation to negotiate pay, length of contract, etc.
    2. The splitting of members into those with full-time contracts vs. 
those with regular contracts.
    3. Adding time (number of days) vs. a long standing desire to 
reduce the time demands on teachers--limit length of work day, limit 
meetings, increase planning time during the school day, etc.
    4. Union leadership, Board of Directors and member's view of 
additional compensation for additional time--is there alignment?
    5. Where multiple associations exist, there is the issue of how the 
other association are positioning themselves--competition for 
membership.
    6. Process for selecting those with full-time contracts.
Principals and the Schools
    The most important element in this new paradigm is school. The 
whole purpose is to ensure schools have significant time to address the 
needs of the students and the community. As noted in the stated goals 
of this initiative, it is to provide significant additional time for 
teachers to address student achievement needs and to do so in the 
environment of a professional learning community. To that end, 
significant planning must be done at the school level. That planning 
must be done with the school leadership team and in alignment with the 
goals of the school and school district. Since this is such a 
significant increase in teacher time, it is not unusual for such 
planning to take an entire year. As a school creates a plan to utilize 
full-time teaching positions, the issues to address include:
    1. A purposeful school improvement plan must exist. Such a plan 
must specify the expectations, duties and functions that are needed in 
the school.
    2. The plan can (and perhaps should) be multi-year to allow 
significant culture changes, necessary modifications to school plan, 
resource acquisition.
    3. Clear job descriptions must be developed for each type of full-
time position needed to support the school plan.
    4. A master calendar must reflect the common working days for the 
appropriate teams of full-time teachers. This calendar must encompass 
scheduling the appropriate time for the teachers to fulfill the jobs 
expectations specified in the school plan.
    5. Some duties may include time after the ``regular'' day (for 
example, student tutoring or enrichment) in lieu of added days.
    6. The process for selecting staff to fill each of the full-time 
jobs.
    7. In concert with HR, the clear identification of which of the 
current supplemental payments would now be subsumed into the full-time 
contract. Some of these will be required--no longer will stipends be 
given to team leaders, department chairs, etc.
    8. A clear delineation of duties for full-time teachers vs. regular 
contract teachers must be articulated and adhered to during the 
implementation phase.
    9. While some of the additional time will be used for ``prep time'' 
the major added time should be devoted to working with other adults on 
the school initiatives.
    10. Not every school has the culture that is compatible with this 
change.
District and Community
    There is usually a positive response from parents when we 
acknowledge the significant changes in the demand on teachers. School 
Board members likewise understand the significant challenges teachers 
face in the classroom, in preparation for the classroom and in time 
demands for a variety of other issues. In fact, there is usually a 
strong push from unions and teacher spokespersons to the School Board 
to reduce time demands. This paradigm shift has the potential to help 
the school board respond to the time issues by significantly increasing 
compensation while recognizing the added duties that would go with the 
added salary. And, in many cases, teachers are already performing some 
of the added duties and this allows school boards and the community to 
give recognition for that work. Some of the public policy issues 
include:
    1. Added compensation (and time) for (potentially) only one group 
of employees. This can be viewed positively--supporting teachers--or 
negatively by other employees.
    2. Are there related time and compensation issues with other 
employee groups?
    3. Supports a school-based leadership paradigm.
    4. Provides an opportunity to mesh summer curriculum work and other 
extended time needs with full-time contracts.
    5. Significantly increases teacher pay and gives district greater 
competitive advantage for recruitment and retention. Full-time contract 
is also potentially more attractive to career changers.
Summary
    As a leading innovator of education practices and reform, Fairfax 
County Public Schools is moving to advance the professionalism of 
teachers and the education field. The Teacher Leadership initiative 
provides FCPS Leadership Team members a unique opportunity to cultivate 
talent from within the school division, create philosophical shifts 
that ensure only effective programs and practices are implemented to 
meet the needs of a changing student population, and share evidence of 
successful practices with the national education community.
                                 ______
                                 
    Chairman Miller. Ms. Bibeau.

STATEMENT OF JOAN BIBEAU, TEACHER, EAGLEVIEW ELEMENTARY SCHOOL, 
                    GRAND RAPIDS, MINNESOTA

    Ms. Bibeau. Chairman Miller, Mr. McKeon and members of the 
committee, I am very pleased to have this opportunity to 
testify before the committee today.
    I offer my experience as a veteran classroom teacher and as 
a member of Education Minnesota, an affiliate of both the AFT 
and NEA. I am a teacher of 34 years and an enrolled member of 
the White Earth Band of Ojibwe. I was awarded the Minnesota 
Indian Education Association Teacher of the Year Award in 2006.
    I have often been asked how did I succeed in becoming a 
teacher and making it my profession. The answer is that there 
were two major influences. One was my parents and the other is 
my recruitment into the Northern Plains Indian Teacher Corps.
    Let me share the views of many of my colleagues and myself 
about NCLB. We often feel as though the rules were made without 
regard to the actual needs of our students and the realities of 
our work as teachers. If I had one suggestion for the committee 
it would be this. Improve the law so that it recognizes the 
actual world we teach in, and then provide educators with the 
tools and resources we know that are essential to help our 
students succeed.
    Allow me to provide a snapshot of the environment where I 
live and teach. My home is in rural northern Minnesota in 
Itasca County with a population of 44,000. Our county 
encompasses three small, remote communities on the Leech Lake 
Indian Reservation.
    I teach preschool and kindergarten at Eagleview Elementary. 
The student population is 64 percent American Indian and has a 
60 percent graduation rate. We are a Title I school with a 
poverty rate of 82 percent.
    The challenge for NCLB and educators is to support and 
educate all children, especially those who are struggling 
academically. We certainly need the best teachers we can find 
for our student population in northern Minnesota, but I don't 
see the evidence that NCLB is particularly helpful in this 
regard.
    In Minnesota, nearly all teachers already meet the Federal 
requirements to be considered highly qualified when they enter 
the profession because of Minnesota's high standards for 
licensure. Funding is a significant challenge in my district. 
We hire good teachers, but we can't afford to keep them. Our 
student enrollment is declining as in many Minnesota districts. 
As a result, many of our teachers, including me, have been laid 
off multiple times for budgetary reasons.
    The solution to improving high teacher quality is not to 
make the highly qualified requirements stricter or to make 
teachers jump through more hoops to prove their qualifications. 
What is really needed to ensure high quality teaching is the 
presence of professional supports that will allow us to keep 
the good teachers we have. States and schools should provide 
all teachers with professional pay, school-based professional 
development and adequate working conditions in order to attract 
and retain qualified teaches, especially in hard-to-staff 
schools.
    Legislation such as Chairman Miller's TEACH Act and the 
Teacher Center Act recognize the importance of these issues and 
create partnerships with local school districts to meet these 
challenges.
    In closing, I want to highlight the importance of improving 
teacher and learning conditions in schools as a strategy for 
recruiting and retaining excellent teachers. A recent study by 
the California State University found that teaching and 
learning environments was even more significant than salary in 
the teacher's decision on whether to stay or leave the 
profession.
    I encourage the committee to look at the issue of teacher 
quality through the eyes of experienced, highly qualified 
teachers like myself and ask us what actually works in the 
classroom and what we need to be great teachers who can produce 
great results for all our students. We are more than happy to 
assist you.
    Thank you again for inviting me to testify today.
    Chairman Miller. Thank you.
    [The statement of Ms. Bibeau follows:]

         Prepared Statement of Joan Bibeau, Education Minnesota

    Chairman Miller: I'm very pleased to have this opportunity to 
testify before the Committee. I bring to you today my experience not 
only as a veteran classroom teacher, but also as a member of Education 
Minnesota, an affiliate of both the American Federation of Teachers 
(AFT) and the National Education Association (NEA).
    To get to Washington, D.C. from my home in northern Minnesota this 
week meant a one-hour drive to Hibbing, then a 7 a.m. flight to 
Minneapolis and another flight to D.C. Our county has not had airline 
service for two years. It took the better part of a day to get here. 
But I was willing to make this journey because I believe it is very 
important for members of Congress to hear from practicing teachers as 
you consider the reauthorization of the No Child Left Behind Act 
(NCLB), the current version of the Elementary and Secondary Education 
Act.
    First I want to tell you something about myself. I am a teacher of 
34 years and an enrolled member of the White Earth Band of Ojibwe. I've 
been asked: ``How did you succeed in becoming a teacher?'' The answer 
is that there were two major influences--my parents and my recruitment 
into the Northern Plains Indian Teacher Corps. I have earned Minnesota 
teaching licensure in Early Childhood, Early Childhood Family 
Education, Early Childhood Special Education, Kindergarten, and first 
through sixth grade. I earned my Masters Degree in Elementary Education 
in 1984 from the University of North Dakota. I was awarded the 
Minnesota Indian Education Association Teacher of the Year Award in 
2006.
    Here is my view of NCLB, and the view of many other teachers: It 
often seems as though the rules were made without regard to the actual 
needs of our students and the realities of our work as teachers. If I 
had one suggestion for the Committee, it would be this: Improve the law 
so that it recognizes the actual world we teach in and then provide 
educators with the tools and resources we know are essential to helping 
our students succeed.
    Let me share with you some of the realities that will help describe 
where I live and teach. My home is in rural northern Minnesota in 
Itasca County, with a population of 44,000. Our county encompasses 
three small remote communities on the Leech Lake Indian Reservation. I 
teach preschool and kindergarten at Eagleview Elementary on the Leech 
Lake Reservation. This community is 64 percent American Indian and has 
a 60 percent graduation rate. The median household income is $11,875 
and half of our population is living below the poverty line. We are a 
Title I school, with 82 percent of our students receiving free or 
reduced price lunch. Many of our families do not have reliable 
transportation, telephone service, or adequate housing. They need to 
travel great distances for health care, employment (unemployment is 
30.9 percent), and access to stores.
    The challenge for NCLB and educators is to support and educate ALL 
children, especially those who are struggling academically. We 
certainly need the best teachers we can find for our student population 
in northern Minnesota. But I don't see the evidence that NCLB is 
particularly helpful in this regard.
    In Minnesota, nearly all teachers already meet the federal 
requirements to be considered ``highly qualified'' when they enter the 
profession because the state Board of Teaching has established high 
standards for teacher preparation and licensure.
    My district's biggest challenge is funding. We hire good teachers, 
and we can't afford to keep them because our student enrollment is 
declining, as it is in many northern Minnesota districts. As a result, 
many of our teachers--including me--have been laid off multiple times 
for budgetary reasons. Most of our new teachers start out in part-time 
positions or as substitute teachers, waiting for a full-time opening.
    Three districts in my region have had major budget deficits and 
have had to dramatically cut staff and educational opportunities. We 
now have large class sizes and are continuing to cut critical services 
for students at all levels.
    Appropriate licensure is also a problem under these conditions. To 
meet students' educational needs with the staff we have, some teachers 
are provisionally licensed to teach outside their current instructional 
area--especially in areas of unique student needs--while they complete 
the necessary coursework. For this reason, it is essential that NCLB 
retain the current highly qualified teacher definition and the 
flexibility to allow rural teachers like me to demonstrate, via the 
HOUSSE provisions, subject matter competence in the multiple subjects 
we are required to teach.
    The solution is not to make the ``highly qualified'' requirements 
stricter or to make teachers jump through more hoops to prove their 
qualifications. What's really needed to ensure high-quality teaching is 
funding that allows us to keep the good teachers we have. States and 
communities should provide all teachers with professional pay and 
adequate working conditions in order to attract and retain qualified 
individuals in the teaching profession. Also, the federal government 
should provide incentives to attract and retain teachers in hard-to-
staff schools and subjects, as you have proposed with the TEACH Act, 
Chairman. Miller.
    In the area of professional development, we need more resources in 
programs that we know work to help teachers do their jobs, including 
mentoring and induction, systemic school-based professional 
development, and incorporating research-based programs and curricular 
supports for teachers and paraprofessionals. For example, my local 
union has included in our contract with the school district a mentoring 
program to support and retain new teachers. Each new teacher has a 
mentor, is able to observe an experienced teacher, and receives two 
additional workshop days. Programs like these have been shown to reduce 
teacher turnover and improve student outcomes and I encourage you to 
think about these kinds of initiatives as you make improvements to 
NCLB.
    Additionally, Minnesota requires all school districts to set aside 
2 percent of their revenue for professional development that is 
determined by teacher-led committees at the district and school site 
level. My state-level union, Education Minnesota, has a statewide 
training program to educate our members about this law and help them 
advocate for quality professional development. However, many of our 
school districts are facing budget crises, and all too often, some or 
all of this professional development money is used elsewhere. For 
example, our district teachers sacrificed the 2 percent set aside for 
staff development to the general budget this year.
    The federal government could contribute greatly to improving 
teacher quality if it would support bills such as the Teacher Center 
Act, introduced last year by Chairman Miller to fund first-rate 
professional development programs.
    In the higher education arena, Education Minnesota is beginning a 
collaborative effort with the state Department of Education, colleges 
and universities, and other professional groups to support professional 
learning for teachers at all stages of their careers. We held an 
Induction Institute in St. Paul this past week to train teams of local 
educators to set up high-quality induction programs in their district. 
It would be wonderful if the federal and state governments would make 
this kind of professional development partnership a funding priority.
    Improving all of these other programs won't matter unless we also 
improve teaching and learning conditions in schools. This includes 
providing smaller class sizes, ensuring that schools are safe and 
orderly, and maintaining adequate facilities and materials to reduce 
teacher turnover and make it possible for teachers to do their best 
work.
    A recent study by California State University's Center for Teacher 
Quality found that the teaching and learning environment was even more 
significant than salary in teachers' decisions on whether to stay in 
the profession or leave. The study pointed to such things as adequate 
time for planning and professional development, reliable assistance 
from the district office, the opportunity to collaborate with 
colleagues and have a meaningful role in school decision-making, and 
adequate facilities and equipment. These factors also apply to our 
schools in Minnesota. (The CSU's Center for Teacher Quality study can 
be accessed at: http://www.calstate.edu/teacherquality/documents/
possible--dream.pdf.)
    The federal government can help remedy these problems by supporting 
programs and policies that support teachers as they work to ensure that 
all students meet high academic standards. These include:
    <bullet> Financial Incentives: The federal government should fund 
programs that provide financial incentives for qualified individuals to 
enter the teaching profession, and for collaboration among school 
districts, teacher unions, and institutions of higher education for the 
development of programs that would facilitate the recruitment and 
retention of a qualified diverse group of teacher candidates.
    <bullet> Mentoring and Induction: All newly hired teachers should 
receive quality induction and mentoring services from trained veteran 
teachers to ensure a successful experience in the first years and 
decrease the turnover of new teachers. Incentive grants to districts to 
develop peer assistance programs that focus on the improvement of staff 
knowledge and skills should be available to help struggling teachers 
improve professional practice, retain promising teachers, and build 
professional knowledge to improve student success.
    Chairman Miller's TEACH Act recognizes the importance of giving 
teachers across the nation access to high-level, ongoing, high-quality 
professional development programs that are designed and delivered by 
expert practicing teachers, as well as to mentoring with modeling, 
demonstration, weekly coaching, training, and stipends for mentors. 
Congress should incorporate these ideas into ESEA reauthorization.
    <bullet> Professional Development: Teachers must be intimately 
involved in every phase of their ongoing training, with high-quality 
professional development programs focusing on pedagogy and helping 
teachers develop the deep understanding of how students learn. The 
information needs to be timely, research-based, and relevant--
information that one can use immediately upon returning to the 
classroom. These programs should be developed in a collaborative 
fashion between school districts' leaders and the local teachers to 
ensure that teachers--and other educators--receive professional 
development that is directly linked to their and their students' needs 
and tied to the school's and district's curriculum and instructional 
needs and strategies.
    Chairman Miller's Teacher Centers Act would give all teachers 
opportunities for ongoing, high quality intensive professional 
development that is available at the school site.
    <bullet> Teacher Leaders: Teachers who earn advanced certification 
by passing the demanding performance-based assessments of the National 
Board for Professional Teaching Standards, who agree to teach in hard-
to-staff schools, and who take on additional roles such as mentoring, 
peer support, and other professional development activities should be 
paid for their leadership roles.
    The federal government should continue to provide support for the 
National Board for Professional Teaching Standards to assist more 
teachers to obtain National Board Certification. In addition, the 
federal government could provide financial incentives for board-
certified teachers to go to and stay in hard-to-staff schools.
    <bullet> Collaboration: NCLB should include a grant program to 
states willing to encourage skills- and knowledge-based staffing 
arrangements in schools. This program should encourage collaboration 
between the school administration and the local organization 
representing teachers and other educators, as well as increased 
collaboration among teachers and between teachers and other education 
staff, to promote innovation in the way teachers' and support 
professionals' roles and responsibilities are defined.
    <bullet> Teaching and Learning Conditions: The TEACH Act 
acknowledges the importance of teacher working and student learning 
conditions by calling for a number of useful assurances such as 
improved working conditions, reduced class size, incentives for 
attracting a critical mass of qualified teachers, and school repair, 
renovation, and modernization.
    The federal government also should require states to develop a 
``learning environment index'' for all schools, and require districts 
and states to address the problem areas identified for schools not 
making adequate yearly progress (AYP). Many of the schools not making 
AYP do not have adequate facilities, safe conditions, teacher retention 
incentives, or the necessary financial and professional supports. The 
learning environment index should identify and measure teaching and 
learning conditions in each school.
    Furthermore, Title II (the Teacher Quality State Grant program) 
should be amended to include an independent, targeted class size 
reduction program. It also should be amended to allow districts to work 
with local teacher unions to survey principals, teachers, and other 
school staff about their working conditions. Such surveys can be 
powerful tools to obtain information that can identify improvements 
needed in schools throughout the district to help spur student 
achievement. North Carolina has been a leader in using teacher working 
condition surveys. Other states that have utilized this tool include 
Arizona, Kansas, Nevada, Ohio, and Mississippi. Additional information 
on teacher working conditions surveys can be obtained from the Center 
on Teacher Quality at: http://www.teachingquality.org/twc/
whereweare.htm
    <bullet> Compensation: To attract, retain, and support the highest 
quality teachers, paraprofessionals, and other school employees, 
schools must have a healthy environment, supportive climate, and 
working conditions that support success and provide professional 
compensation and benefits. All educators--including both teachers and 
paraprofessionals--require an adequate compensation system with 
competitive base pay and benefits for all.
    Teachers also should be provided with opportunities to improve 
their salary through the performance of additional responsibilities. 
Many teachers possess a high degree of teaching knowledge and skills. 
They know and do what is required to make sure all students reach high 
academic standards. Now we need to make sure that these and other 
accomplished teachers are utilized as teacher leaders who support 
effective practices in their schools, communities, and states. To 
attract and retain qualified teachers in hard-to-staff schools, we need 
to provide teachers an array of financial incentives by giving them 
different professional opportunities.
    Furthermore, the federal government should reward states that set a 
reasonable minimum starting salary for teachers and a living wage for 
support professionals working in school districts that accept federal 
funds. For example, the nation and the states could demonstrate their 
commitment to educators by ensuring that no teacher in America makes 
less than $40,000 and no public school worker makes less than $25,000 
or a living wage.
    To sum up, I encourage the Committee to look at teacher quality not 
just in the policy arena--and not just in terms of rules and 
requirements--but also through the eyes of experienced, highly 
qualified teachers. Ask us what should be done and then listen to what 
we say about what actually works in the classroom. Also, we urge you to 
hear our ideas about what we need to be great teachers who can help our 
students achieve at high levels. We are more than happy to assist you.
    Thank you again for inviting me to testify today.
                                 ______
                                 
    Chairman Miller. Dr. Ritter.

 STATEMENT OF DR. GARY W. RITTER, ASSOCIATE PROFESSOR, ENDOWED 
      CHAIR IN EDUCATION POLICY, UNIVERSITY OF ARKANSAS, 
                        FAYETTEVILLE, AR

    Mr. Ritter. Thank you, Chairman Miller, Mr. McKeon and 
members of the committee.
    My testimony here will focus on how to use teacher 
compensation as a policy lever to encourage the most qualified 
teachers to enter classrooms across the country and work to 
improve achievement of all students, especially that of needy 
students. There are a variety of ways that school leaders might 
attempt to do this. I will focus on performance pay which might 
be awarded to teachers who are particularly effective at the 
ultimate objective of our schools. Nurturing student learning 
and performance pay is particularly important, I would argue, 
in drawing teachers into the field.
    Despite the conventional wisdom, starting salaries today 
for teachers are quite competitive and growing even more so. 
The key compensation problem many argue is that we underpay 
effective teachers as they move throughout their career, and 
this is the reason that many of them leave.
    So what is performance pay and what do we know about the 
impact of performance pay on teacher quality and on student 
performance? And you have heard a lot about that this morning. 
Essentially performance pay plans pay some fraction of a 
teacher's salary on objective measures of student achievement; 
and a well-crafted plan that connects teacher pay to student 
performance could positively impact classrooms across the 
country in two ways.
    In the short term, teachers currently in the classroom may 
be motivated to work more effectively, try more innovative ways 
on enhancing student learning due to the very direct connection 
between performance rewards and student learning. In the longer 
term, the impact of performance pay may be even greater by 
affecting the overall composition of the teaching force.
    If performance pay were implemented in a widespread manner, 
talented individuals motivated by high achievement recognition 
might be more likely to consider teaching as a viable career 
option. Instead, in the current context of the single salary 
schedule, the teaching profession may well be attractive to 
individuals who are not comfortable with evaluation of their 
teaching effectiveness. Of course, this is not the case with 
most or all teachers, but it may be attractive to those types 
and we do not want this to be the case.
    Indeed, colleges of education are currently unable to 
attract the most talented students. The evidence shows that the 
SAT and ACT scores of undergraduate education majors are 
typically lower than the scores of their peers in other fields. 
Thus, it is important that we implement innovative strategies 
to draw our brightest young people into this field as many have 
said on this panel earlier today. It is quite possible that one 
of the barriers that is keeping talented individuals out of the 
field is the fact that there is little recognition, monetary or 
otherwise, for effective job performance.
    So is there any empirical support for the potential 
effectiveness of performance pay plans implemented in actual 
schools across the country? And, yes, there is. Three recent 
studies highlight this evidence. First--and most of this is 
highlighted in the written testimony in front of you--Michael 
J. Podgursky and Matthew Springer reviewed eight teacher 
performance pay programs implemented throughout the United 
States since the 1990s. Six of these showed a positive 
correlation between incentives and student performance.
    Second, David Figlio and Lawrence Kenny published a 
comprehensive study in 2006 on the effects of teacher 
incentives on student performance throughout the Nation. Figlio 
and Kenny conclude that students in schools where teachers are 
offered individual financial rewards for effective teaching 
have students who perform better on standardized tests and 
learn more.
    Finally, along with several colleagues at the University of 
Arkansas, I recently conducted a study of a teacher performance 
pay plan implemented in several schools in the Little Rock 
school district. We found that students in the performance-pay 
schools showed an improvement of nearly 7 percentile points as 
compared to their peers in similar schools. Moreover, teachers 
in a performance-pay plan, counter to the conventional wisdom, 
reported no loss in teacher collaboration, reported that they 
were more satisfied with their salaries than were comparison 
teachers, and that their work environment had, in fact, become 
more positive over the past year rather than deteriorated.
    So how should performance-pay plans be constructed if we 
were to attempt them? Well, one of the rare places of consensus 
in educational research is that good teaching matters. And 
indeed, some teachers consistently induce greater student 
learning gains than do their peers. Clearly, these are the 
teachers that school leaders should want to reward, retain and 
attract. Accordingly, performance-pay plans should be focused 
on student achievement so that these effective teachers are 
recognized. In this way, our system will encourage teachers to 
engage in behaviors that lead to greater student learning and 
we will discourage teachers whose efforts do not lead to 
improved student learning.
    Perhaps the easiest and most objective way to fairly 
measure student learning is student performance on well-
designed achievement tests that are fairly aligned to the 
schools' States' learning standards. All of this presumes that 
we have assessments that we are comfortable with and are well 
aligned and are well designed.
    The Teacher Incentive Fund program, the Federal effort 
which supports efforts locally to develop and implement 
performance-based teacher and principal compensation systems in 
high-needs schools provides guidelines within which these 
systems are to be constructed. And this seems an appropriate 
vehicle for Federal policymakers to encourage performance pay 
for teachers and thus induce improvements in teacher quality 
and student achievement.
    Finally, if performance pay is effective, why hasn't it 
been implemented more widely in the past? Instead of the 
performance-pay schedule we operate under generally, the single 
salary schedule which pays teachers mostly on the basis of 
seniority and degree, and this operates within the vast 
majority of school districts around the Nation.
    This salary schedule offers no incentive to work toward 
enhanced student performance. A teacher in her 10th year with a 
master's degree who is extraordinarily effective in engaging 
students and nurturing student learning receives a salary that 
is identical to that of her peer with the same level of 
education and experience who no longer works hard to energize 
students and is simply there for the paycheck. This is simply 
not equitable.
    However, it is not surprising that this uniform salary 
schedule remains intact in most districts. Teacher groups are 
powerful and leaders of these groups intend to represent all 
teachers. Such groups are not likely to encourage a salary 
structure that highlights some teachers over others, and this 
limits the ability of administrators to use salary as a 
strategy to encourage better teaching. As a result, the single-
salary schedule which is used generally in the name of equity 
for teachers may in fact lead to less equity and less effective 
teaching for our students. And this is clearly inequitable as 
the students who are most likely to suffer from ineffective 
teaching are those attending and studying in our most 
disadvantaged schools.
    Thank you.
    [The statement of Mr. Ritter follows:]

  Prepared Statement of Gary W. Ritter, Associate Professor, Endowed 
 Chair in Education Policy, Department of Education Reform, College of 
        Education and Health Professions, University of Arkansas

    My testimony here will focus on how to use teacher compensation as 
a policy tool, or lever, to encourage the most qualified teachers to 
enter classrooms across the country and work to improve student 
achievement of all students, and particularly of needy students. There 
are a variety of ways that school leaders might use teacher 
compensation policy as part of a strategy to increase teacher quality 
in targeted areas. Additional compensation could be offered to teachers 
able to teach hard-to-staff subjects such as middle school and 
secondary mathematics, secondary science, or special education. Extra 
pay might also be offered to teachers willing to serve in economically 
disadvantaged areas or otherwise hard-to-staff geographic regions. 
Finally, performance pay might be awarded to teachers who are 
particularly effective at the ultimate objective of our schools: 
nurturing student learning and student achievement. The sections that 
follow will focus on the potential of performance pay for enhancing 
teacher quality and thus increasing student performance.
    What is the Impact of Performance Pay on Teacher Quality and 
Student Achievement?
    Essentially, performance pay plans refer to teacher compensation 
strategies that base a portion of a teacher's total compensation on 
some evaluation of the teacher's performance, which is generally 
based--at least in part--on objective measures of student achievement. 
A well-crafted plan that connects teacher compensation to student 
performance could positively influence classrooms across the United 
States in two ways.
    In the short term, teachers currently in the classroom may be 
motivated to focus their work more effectively on enhancing student 
learning due to the performance rewards directly connected to student 
achievement. In the longer term, the impact of a performance pay plan 
may be even greater by affecting the overall composition of the 
teaching force. The type of salary schedule currently employed in most 
schools across the country relies on no connection between pay and 
performance; thus, the teaching profession today may well be attractive 
to individuals who are not comfortable with any evaluation of their 
teaching effectiveness. Alternatively, if performance pay were 
implemented in a widespread manner, talented individuals motivated by 
high achievement and recognition might be more likely to consider 
teaching as a viable career option.
    Unfortunately, there is evidence that a change in the composition 
of the teaching corps is needed because colleges of education are 
currently unable to attract the most talented students. Data from the 
National Center for Education Statistics and numerous other sources 
show that the SAT and ACT scores of undergraduate education majors are 
typically lower than the scores of their peers in other fields. Thus, 
it is important that we implement innovative strategies to draw our 
brightest young people into this field. It is quite possible that one 
of the barriers keeping some talented individuals out of the field is 
the fact that there is currently little recognition, monetary or 
otherwise, for effective job performance.
    Thus, there is a reasonable theoretical justification for the 
concept of performance pay and empirical evidence that our current 
system of pay does not appear attractive to the most talented college 
students. But, is there any empirical support for the potential 
effectiveness of performance pay plans implemented in actual schools? 
As a matter of fact, yes. Three recent studies highlight this evidence.
    First, in their examination of the literature on teacher incentive 
programs, ``Teacher Performance Pay: A Review,'' Michael J. Podgursky 
and Matthew G. Springer\1\ note that the current literature on teacher 
incentive plans is slender and typically focused on short-run 
motivational effects. This small, but growing body of work is quite 
diverse in its methodologies, target populations, and types of 
programs. In their review of the evaluations of eight teacher 
performance pay programs implemented throughout the United States since 
the 1990s, Podgursky and Springer find that six programs revealed a 
positive correlation between incentives and student performance. 
Overall, the authors argue that recent research on incentive pay has 
consistently found positive effects, but much more robust research must 
be undertaken in order to proscribe how programs should best be 
designed. That is, how large should bonuses be, and how should programs 
mix individual with group incentives?
---------------------------------------------------------------------------
    \1\ October 24, 2006, working paper submitted to the National 
Center on Performance Incentives, http://www.performanceincentives.org/
ncpi--publications/PodgurskyandSpringer-TeacherPerformancePay.pdf
---------------------------------------------------------------------------
    Second, David N. Figlio and Lawrence Kenny\2\ published a 
comprehensive study in 2006 on the effects of teacher incentives on 
student performance throughout the United States. The authors used data 
from the National Education Longitudinal Survey supplemented with data 
from their own survey conducted in 2000 exploring the use of 
performance incentives. Figlio and Kenny conclude that students in 
schools that offer teachers individual financial rewards for effective 
teaching perform better on standardized tests. While the authors do not 
view performance pay as a ``silver bullet'' for improving student 
performance, they see incentives as one way to attract more highly-
skilled applicants into the teaching profession.
---------------------------------------------------------------------------
    \2\ David N. Figlio and Lawrence Kenny, NBER Working Paper Series, 
``Individual Teacher Incentives and Student Performance,'' National 
Bureau of Economic Research, Working Paper 12627, http://www.nber.org/
papers/w12627
---------------------------------------------------------------------------
    Finally, along with several colleagues at the University of 
Arkansas, I recently conducted a study of a teacher performance bonus 
program implemented at several schools in the Little Rock School 
District. Based on data reported by the District as well as data 
collected from the surveys of teachers, we find that students in the 
performance pay schools in 2005-06 showed an improvement of nearly 7 
percentile points as compared to their peers in comparison schools. 
Moreover, teachers in the performance pay program reported no loss in 
teacher collaboration, that they were more satisfied with their 
salaries than comparison teachers, and that their work environment 
became more positive than the environment in comparison schools.
How Should Performance Pay Plans be Constructed?
    One of the rare places of consensus in educational research is that 
good teaching matters. However, there is less agreement on the 
characteristics of excellent teachers. That is, the research is not 
clear on the extent, if any, to which teacher certification leads to 
greater student performance. Similarly, while much of the research 
points to the conclusion that brand new teachers do get better after a 
couple of years of teaching experience, there is debate over how long 
these ``experience premiums'' persist. Further, although many teachers 
across the country work to earn post-graduate degrees--and get paid 
higher salaries for these degrees--there is not much evidence to 
suggest that these additional degrees contribute to enhanced student 
learning.
    In short, it's difficult to identify a good teacher based on 
credentials, but some teachers consistently induce greater student 
learning gains than do their peers. Clearly, these are the teachers 
that school leaders should want to reward and retain. Therefore, 
performance pay plans should be constructed in such a way that these 
effective teachers are recognized. In this way, with the focus on 
student achievement, we will encourage teachers to engage in behaviors 
that lead to higher student achievement and we will discourage teachers 
whose efforts do not lead to improved student performance.
    Since effective teaching and student learning are the fundamental 
goals of teachers, a performance pay plan should primarily be focused 
on student achievement. One way to fairly and objectively measure 
student learning is student performance on well-designed achievement 
tests that are aligned to the school's (or state's) learning standards. 
Consequently, it follows that teacher performance in performance pay 
plans be measured by student achievement on well-designed and well-
aligned assessments.
If Performance Pay is Effective, How Can Federal Policymakers Encourage 
        It?
    Many researchers and analysts advocate strongly that teacher pay be 
connected, at least to some extent, to student performance. However, 
there is no single best method to achieve this goal. Even among 
existing performance pay plans, there exists a great deal of variety 
with respect to the details of the plans. While some plans focus on 
individual teacher performance and individual rewards, others rely on 
school-wide performance and school-wide rewards. While some plans base 
teacher performance ratings on student achievement on national norm-
referenced exams, other plans rely on the results of state-developed, 
criterion-referenced assessments. While some plans base rewards on one 
year of academic improvements, others rely on academic results over 
multiple years.
    Indeed, there is no optimal plan, but there are general guidelines 
that should be followed for a plan to have a chance to succeed. In this 
situation, the proper federal role may be to encourage, via grant-
funding options, states and localities to develop their own performance 
pay plans based on local preferences and assessments. In fact, we can 
also be quite sure that any performance pay plan that is not supported 
by a majority of educators within a school is likely to face serious 
obstacles and will not be optimally effective.
    Thus, the Teacher Incentive Fund program, which supports efforts to 
develop and implement performance-based teacher and principal 
compensation systems in high-need schools, and provides guidelines 
within which these systems must be constructed, seems an appropriate 
vehicle for federal policymakers to encourage improvements in teacher 
quality and student achievement.
If Performance Pay is Effective, Why has it Not Been Implemented More 
        Widely?
    The single salary schedule (or lock-step schedule), which pays 
teachers solely on the basis of seniority and educational attainment 
(degree level), operates within the vast majority of school districts 
around the nation. Thus, most school leaders are not choosing to use 
teacher compensation as a policy lever to encourage good teaching. In 
fact, there are no incentives in the current salary schedule for 
teachers to work toward enhanced student performance. A teacher in her 
10th year with a Masters Degree who is extraordinarily effective at 
engaging students and nurturing student learning receives a salary that 
is identical to that of her peer with the same level of education and 
experience who no longer works hard to energize students and is simply 
there for the paycheck.
    However, it is no surprise that this uniform salary schedule 
remains intact in most districts--teacher groups are powerful and 
leaders of these groups intend to represent all teachers (not 
students). Thus, teacher group leaders are not likely to encourage a 
salary structure that highlights some teachers over others. This is 
understandable, however, it limits the ability of administrators to use 
salary as a strategy to encourage better teaching. In the end, if this 
single-salary schedule limits the ability of school leaders to enhance 
teacher quality--and many have made this claim vehemently and 
effectively--then the single salary schedule used in the name of equity 
for teachers may in fact lead to less effective teaching for our 
students. This is clearly inequitable as the students most likely to 
suffer from ineffective teaching are those attending school in our most 
disadvantaged schools.
                                 ______
                                 
    Chairman Miller. Dr. Burke.

 STATEMENT OF DR. JOSEPH P. BURKE, SUPERINTENDENT OF SCHOOLS, 
          SPRINGFIELD PUBLIC SCHOOLS, SPRINGFIELD, MA

    Mr. Burke. Thank you for this opportunity, Mr. Chairman, 
Mr. McKeon andmembers of the committee. I appreciate the 
opportunity to be here.
    No Child Left Behind is landmark legislation, no doubt. It 
has sparked impassioned debate about the depth and breadth of 
its mandate, the range of the impact of testing and 
accountability and the punitive effects on district schools and 
staffs in many of the States.
    The passions of the debate were predictable. NCLB 
definitely challenged the public will to educate all of our 
children to levels of proficiency once obtained by more 
privileged student populations. The insistence that students of 
all colors and ethnic groups, all income levels and all 
language groups must be educated to a uniform set of academic 
standards is laudable.
    Embedded in the goals and intended outcomes of NCLB is a 
principle dearly held by my colleagues in Springfield. The 
principle is, there is no excellence without equity. We cannot 
consider the education system in America to be excellent unless 
we are attaining equitable outcomes for all children--poor 
children, children of color and children whose first language 
is not English. NCLB represents a systemic commitment to 
accomplish this.
    I would like to express my thanks to Congressman Miller for 
the TEACH Act and to Congressman Price for the Teacher 
Incentive Fund. The TIF provides unique opportunities for 
school districts to reward excellence in teaching based on 
actual results in student achievement. The stability and 
continuity of this program are critical to advancing the 
efforts to improve teacher effectiveness.
    The teacher quality provisions currently in NCLB focus on 
knowledge and credentials. However, there are no explicit 
provisions regarding results with students. This seems to be a 
glaring omission when the emphasis of NCLB accountability 
provisions are on results and student achievement. Since 
student achievement is the primary driver of AYP and the 
overarching goal of public policy, shouldn't teacher quality be 
connected to student achievement results in a sensible and 
responsible manner?
    The Teacher Incentive Fund creates the opportunity for 
highly motivated and courageous school reformers to change 
tightly held traditions in education. In fact, the TIF could 
serve as a catalyst for reforms in Springfield and in other 
school districts. Working in collaboration with our local 
teachers union, we have created ways to measure teacher 
performance based on a teacher's ability to improve student 
achievement. We recently incorporated a way to recognize 
teacher effectiveness in our new contract by adding two new 
positions, an Instructional Leadership Specialist and a Teacher 
Leader, that have student achievement results as a required 
criterion for appointment. Teachers who are selected for 
appointment to these positions must have demonstrated more than 
a year's growth in student achievement on a value-added 
measure.
    Additional criteria include demonstration of best 
practices, exemplary performance on teacher behaviors and 
excellent attendance. However, the inclusion of student results 
for these highest paid teaching positions recognize that 
teacher quality has to include and be connected to student 
learning. It alters the equation in favor of student outcomes.
    Our long-term goal is to appoint highly successful teachers 
to these positions and empower teachers to lead a 
transformation in the acceleration of student learning. 
Building high-powered teams of leaders, redeployed to serve 
schools with the greatest needs, is intended to produce the 
kind of learning necessary for our students to succeed in the 
21st century.
    This Springfield model intentionally rewards qualitative 
results with students. Our goal is to attract and retain the 
highest quality teachers and provide them with interesting, 
exciting and challenging career paths for which they will be 
amply compensated. Additionally, the district and the union 
have agreed to differential compensation for critical shortage 
teachers certified in math, science, special education and 
English language learning.
    Having successfully negotiated those items, we recently 
concluded a far-reaching agreement with the teachers union on 
the new Commonwealth pilot schools. In this agreement, pilot 
school faculties are freed up from most labor contract 
provisions and local district requirements in lieu of 
commitments to obtain substantial achievement improvements.
    Teacher quality in urban districts takes on particularly 
significant and urgent dimensions in high minority and high 
probability schools provisionally located in urban districts of 
larger numbers of novice teachers and lower percentages of 
fully credentialed teachers than schools in other communities. 
The work of Sanders demonstrates that quality teachers have the 
greatest impact on low achievement and high probability 
achievement.
    Springfield is aggressively pursuing an approach where the 
definition of highly qualified includes demonstrated results 
with students. Our ability to place highly effective teachers 
in schools with the most needy students may give our thousands 
of low-income students a fighting chance to reach the high 
level of achievement that they need and that they deserve.
    Thank you.
    [The prepared statement of Dr. Burke follows:]

 Prepared Statement of Dr. Joseph P. Burke, Superintendent of Schools, 
                            Springfield, MA

    No Child Left Behind is landmark legislation in the history of 
public education. It has sparked impassioned debate about the depth and 
breadth of its mandate, the range of the impact of testing and 
accountability, and the punitive effects on districts, schools and 
staffs in many of the states. The passions of the debate were 
predictable. NCLB has inexorably and definitively challenged the public 
will to educate ALL of our children to levels of proficiency once 
obtained by more privileged sub-sections of our student population. The 
unique insistence that students of all colors and ethnic groups, all 
income levels, and all language groups must be educated to a uniform 
set of academic standards is laudable and historic. It is my belief 
that embedded in the goals and intended outcomes of NCLB is a principle 
dearly held by me and my colleagues in Springfield, Massachusetts. The 
principle is ``There is no Excellence without Equity.'' We cannot 
consider the education system in America to be excellent unless we are 
attaining equitable outcomes for all children--poor children, children 
of color, children whose first language is not English.
    NCLB represents a systemic commitment to rally the political will 
to educate ALL children to high standards. However, we are not yet 
there--neither in experiencing the public will for the success of all 
children, nor in experiencing the tangible results of significant 
closing of the achievement gap. It will take more time. But it will 
also take more focused effort, more transformational work at the state, 
district and school level, and more targeted resources aimed at 
improving the quality of teaching and the conditions in which teachers 
work. NCLB must be reauthorized--and soon.
    At the outset of my comments on the teacher quality issues of NCLB, 
I want to express both my thanks and gratitude to Congressman Price for 
his thoughtful legislation on the Teacher Incentive Fund. The program 
provides unique opportunities for school districts to reward excellence 
in teaching based on actual results in student achievement.
    The teacher quality provisions of NCLB currently focus on knowledge 
and credentials. Knowledge of content is implied in the highly 
qualified provisions, and the expectations of licensing credentials is 
evident. However, there are no explicit provisions regarding results 
with students. This seems to be a glaring omission when so much of the 
emphasis of NCLB accountability provisions are on results in student 
achievement. As student achievement is the primary driver of AYP and 
the overarching goal of public policy, shouldn't teacher quality (and 
by extension, administrator quality) be connected to student 
achievement results in a sensible and responsible manner? I believe it 
should.
    There is broad acknowledgement in the education profession that the 
quality of instruction has huge impact on the amount of student 
learning. Indeed, this has been at the center of agreements to steadily 
raise the professional compensation of teachers connected to our 
growing knowledge about the complexity of the teaching-learning process 
and its challenges. Recently, the U.S. Department of Education 
recognized the significance of teacher quality and its connection to 
student results through the Teacher Incentive Fund grants. This major 
grant program holds great promise for examining the teacher quality 
issue from the meaningful perspective of student results, and deserves 
careful attention and support.
    Springfield Public Schools recently incorporated into its new 
contract with the teachers' union two new positions for which teachers 
must apply that have student achievement results as a required criteria 
for appointment. Teachers who are selected for appointment to these 
positions must have demonstrated more than a year's growth in student 
achievement on a value-added measure. Additional criteria include 
demonstration of best practices, exemplary performance on generic 
teaching behaviors, and excellent attendance. However, the inclusion of 
student results for these highest paid teaching positions recognizes 
that the highest quality of teaching is directly connected to student 
learning. It alters the equation in favor of student outcomes. It is 
our hope in Springfield to be successful applicants for a TIF award 
that would enhance our capacity to implement our model of rewarding and 
incentivising teachers for results in student learning. Our long-term 
goal is to appoint highly successful teachers to these new positions, 
and empower teachers to lead a powerful transformation in the way 
student learning is accelerated in Springfield. Building high-powered 
teams of teachers, redeployed to serve our schools with the greatest 
needs, is intended to produce ever-increasing numbers of students 
reaching proficiency and mastering the knowledge and skills necessary 
for success in the new ``creative economy'' of the 21st century.
    The Springfield model intentionally rewards qualitative results 
with students and a high quality of technical work in utilizing best 
practices. A significant goal is to attract and retain the highest 
quality teachers and provide them with interesting, exciting and 
challenging career paths for which they will be amply compensated. 
Additionally, the district and the union have agreed to differential 
compensation for designated ``critical shortage'' teachers certified in 
mathematics, science, special education, and English language learning 
(ELL).
    High minority/high poverty schools, principally located in urban 
districts like Springfield, have larger numbers of novice teachers and 
lower percentages of fully credentialed teachers than schools with 
higher income student populations. (How and Why Do Teacher Credentials 
Matter for Student Achievement by Clotfelter, Ladd and Vigdor--March 
2007)
    <bullet> In a recent report from the Education Trust (Teaching 
Inequality: How poor and minority students are shortchanged on Teacher 
Quality by Peske and Haycock--June 2006) it was reported that in 
Wisconsin, as mirrored in the national data collected, minority 
students/students in poverty are disproportionately assigned to novice 
teachers. In the highest minority schools 1 in 4 teachers compared to 1 
in 10 in low-minority schools had fewer than three years of teaching 
experience.
    <bullet> In a recent research brief (Tennessee's Most Effective 
Teachers: Are they assigned to the schools that need them the most?--
March 2007) from the Tennessee Department of Education, they found that 
across schools in TN:
    - High--poverty schools and high-minority schools have a larger 
percentage of beginning teachers than low-poverty schools and low-
minority schools, and
    - High-poverty schools and high-minority schools have a smaller 
percentage of teachers with master's degrees than low-poverty schools 
and low-minority schools.
    ``The variation in teachers' impact on children is probably 
clearest in the research of the statisticians and economists who are 
studying the relationship between individual teachers and the growth 
students achieve in their classrooms during the school year. This 
approach is called ``value-added'' measurement. William L. Sanders, who 
founded the Value-Added Research and Assessment Center at the 
University of Tennessee, Knoxville, found that, on average, low-
achieving students gained about 14 points each year on the Tennessee 
state test when taught by the least effective teachers, but more than 
53 points when taught by the most effective teachers. Teachers made a 
difference for middle- and high-achieving students as well''
    ``* * * we need to move to a more direct measure of teacher 
quality. What really matters is teachers' effectiveness at growing 
students' knowledge. With annual assessments, it is possible to 
determine how much students have grown during their year in an 
individual teacher's classroom. By controlling for external variables, 
we can isolate the individual teachers' contribution, or value-added. 
This method looks at what was taught in a classroom, but doesn't 
disadvantage teachers who take the toughest assignments.''
    Springfield is aggressively pursuing an approach that recognizes 
the fullest definition of highly qualified to include demonstrated 
results with students. We are hopeful of TIF support for this work, but 
have planned budgets to implement without such support in a slower 
fashion. Our ability to place highly effective teachers in schools with 
students who have the greatest needs may give our thousands of low 
income students a fighting chance to reach the high levels of 
achievement that they need--and that they deserve.
    The overall context for the reauthorization of NCLB should be 
nothing less than a sacred social contract between the public education 
institutions of this nation and the communities they serve. We must 
mutually elevate the aspirations for what our youngest citizens must 
have in their schooling and must acquire as outcomes. The precipitous 
and persistent drop-off in the status of U.S. students compared to 
their international peers on PISA and TIMSS is appalling, unacceptable 
and fear-provoking to all of us who care about our nation's capacity to 
compete in a global economy. While many other nations are deadly 
serious about their education outcomes advancing their position in the 
global economy, we quibble over local control versus national 
standards, and that testing and accountability systems place too much 
pressure on students. A rededication to placing U.S. education number 1 
in the world is critical to our economic and political future as a 
world leader. Our children deserve no less--our citizens must have 
public policy that places excellence and equity as centerpieces of 
education outcomes.
                                 ______
                                 
    Chairman Miller.  Thank you very much.
    I am going to pass at this time and recognize two members, 
beginning with Mr. Tierney and Mr. Hare, and then we will go 
back to the regular order.
    Mr. Tierney. Thank you all for your testimony.
    I particularly want to focus on evaluation of teacher 
performance. While I think it is a concept that everybody would 
agree with is important, I think that how it is done is 
somewhat critical, but Ms. McLean, you touched on the idea 
about not just focusing on test results of students and the 
impact that might have. I think we have had considerable 
difficulty in just testing the students, but if a teacher is 
going to be evaluated on how a class performs, what happens to 
the effect that cohorts are different from year to year and the 
teacher has or may not have the tools that are necessary, given 
what environment he or she is teaching in. What are--how do we 
account or adjust for all of those factor when we are trying to 
evaluate the achievement increases in a student population in a 
given year, how do we factor that in?
    Ms. McLean, if you would comment first, then Mr. Podesta 
perhaps.
    Ms. McLean. For me, how you are counted in, I don't know. 
That is a good question. It is a multiple measure.
    The Nebraska model that they have, the teachers do the 
classroom assessments and it is statistic-wise and it is valid, 
and they are trained at the State level and they have no 
problem with that.
    When you are using standardized tests, like nationally, AP 
level teachers, their kids are going to do great because that 
is where they are at. The resource kids, the ESL second 
language, their kids aren't. When you look at growth model 
tests, the AP level kids are not going to make that teacher 
look good because they are already performing at their max. Not 
much growth. But the low-level kids, if you have an effective 
teacher, they are going to make that teacher look great because 
when you are at the bottom, you have a long way to go.
    So you have to use rubrics in measuring teaching 
performance, their ability to use all kinds of different 
methods and tools to reach their kids. You have to look at 
where their kids are going. Some of it is very complex, too.
    How I know I am effective is really actually 3 or 4 years 
after they leave the system and they are reported back to me by 
their parents or their success in college or they will come 
back, you know, one girl will go away, and she was going to go 
be a model and she goes, guess what I am doing? I am a wildlife 
biologist studying owls because of you.
    So some of those things, you know, the true effectiveness 
sometimes you don't know.
    Mr. Tierney. I guess that is the problem.
    Mr. Podesta, if you would answer the same question, but 
when I looked at the Aspen information, they want to talk about 
pitting teachers against teachers. They want to take the top 75 
percent and move them along and that another 25 percent and 
drop them off. That is disturbing to me that you pit them 
against each other as opposed to pit them against a standard. 
Who could perform well, could perform well?
    Mr. Podesta. Let me make four brief points.
    First, as I mentioned in my testimony and in my opening 
statement, first of all, you need some data and you need better 
data systems in order to know who is actually--how these 
students are performing and track that over time.
    I think in terms of evaluation, they have to be fair and 
transparent. So that both the teachers understand that the 
evaluation system, the principals understand the evaluation 
system, and there is a level of fairness built in.
    How do you achieve that with this complex number of 
factors? I think that teacher input, as I mentioned at the back 
end of my statement, is really critical, and I think the 
systems that have worked the best around the country, if you 
look at the experiments, have used the input of teachers and 
their representatives in building systems that are fair, are 
transparent and measure real stuff.
    And then with respect to the kind of 75-25, that seems a 
little bit arbitrary to me, and I think that the question is 
that you want a system in which the low performers, the 
consistent underperformers either get the professional 
development they need or they get out of teaching.
    So there needs to be, again, fairness in that system, but I 
think we have to focus on taking the people who don't perform 
getting them out and rewarding the people who do perform and 
giving the people the professional development tools that they 
need to make sure that they are achieving the kind of results 
that we expect.
    Mr. Tierney. So Mr. Klein, when we take out of this, when 
we put more emphasis on peer review and evaluation than we 
would on trying to look at the student's achievement as 
measured by some sort of standardized test.
    Mr. Kline. Not what I would take out of it. I think a 
review mechanism, whether it is peer or supervisory review is 
important, but I think whatever imperfections there are in a 
test, and there are, the test can be used as a benchmark 
against which you can see real differences. I study this all 
the time, Mr. Tierney, and I will look at two teachers, and I 
will look at those--where their kids came in in the fourth 
grade and where they left.
    Now, if there is a point or two points difference, I agree 
that is immaterial. But when there is 12 and 14 points 
difference on these tests, that is the power of teaching.
    And the same thing can apply to AP teachers. You look at 
the scores of the kids who are in AP, you look at what they did 
in prior years, and you can develop growth models. We are doing 
this in New York City.
    So in the end, you want a mixture of factors, but the key 
factor has got to be--because it is a key factor in NCLB--the 
key factor has got to be an effective measurement of student 
performance on standardized tests. I will be the first to admit 
we need to do a better job on standardized tests.
    In my city, when a kid gets a level one, it is not because 
of the test, it is because the kid can't read and, we have got 
to put an end to that, and we have got to be honest about it.
    Chairman Miller.  Thank you.
    Mr. Heller.
    Mr. Heller. Thank you, Mr. Chairman.
    I want to thank all of the panels for being here today. I 
certainly appreciate your input.
    Ms. McLean, you said something about a full report on the 
performance pay. Where can I get a copy of that? Or if you can 
have a copy of that sent to my office, I would appreciate it.
    I had and have had spirited discussions with your chairman 
of your Pershing County School Board over No Child Left Behind. 
I am not sure where those discussions will go, but I am sure we 
will have more of them.
    You said in your testimony that aspiring teachers rarely go 
into the teaching for the money. However, once hired, they 
quickly see who does what and for how much.
    Is that what is driving performance pay?
    Ms. McLean. I think so. A little bit. Just personally, I 
know what I do and I know a couple colleagues that show up for 
the 9-to-5 part of the job, and they are making 15,000 more 
than I am a year, because of their experience. And some days 
when you get really frustrated, it is like why am I busting my 
head. It is way easier to pull out a book for the kids than to 
pull out the labs, mix the chemicals, and come in an hour or so 
earlier than the rest of my colleagues because mine is a hands-
on type of delivery.
    That is driving it. I mean, there is an equity there.
    I think another thing is you have a choice in college. You 
got to make ends meet. The housing market is incredible around 
the country. Teachers are being left out of the middle class, 
are not being able to buy their home, not being able to have 
the American dream. Teachers have to live in other communities 
and commute to work in other places. You know, I am talking 
west coast like San Francisco, Oakland, those colleagues there. 
They can't afford to live where they work. They have to commute 
hours in.
    I worked in Tracy public schools in California, and that 
was my drive back to Nevada. I was born in Nevada. But my 
husband and I were ready to have a family and we would have to 
commute an hour and a half to get into a $100,000 home because 
the $100,000 homes in Tracy were the ones with the bars on the 
windows where most challenging students live, and that was the 
drive for us to move to Nevada where we could afford property 
and income and teach in a community that was a lot safer.
    So I think just the sheer economics of the teaching 
profession--I don't know if I would have chosen to go in it 
nowadays because you hear all of the negative media. I wish I 
had time to do ed-op pieces for the Reno Gazette Journal 
because I see a lot of editorials that come in that people are 
really ignorant and unaware of what it takes to be a teacher. 
And I have to turn away from that and throw away the papers so 
I can focus on doing a good job for the kids that I have.
    Mr. Heller. The concern that I have is for, of course, 
rural Nevada and rural America and getting high quality 
teachers into some of the more remote areas. Does performance 
pay, in your estimation, help support getting those teachers 
in?
    Ms. McLean. I think so. My husband and I gained great 
income when we went to Pershing County from California with the 
insurance rates and their--the salary, the base salary was 
about the same. But the insurance rates were very low. The cost 
of living is a lot lower so we could afford to buy a home 
there.
    We have--we used to have one of the highest pay scales in 
Nevada. We are about third now in the State. But we have to 
drive 90 miles for clothing. We do have one food store there. 
You know, we are subject to the 2-week day-old bread and very 
high prices so we have to travel for our goods and 
entertainment. So yeah, you need the pay them more.
    And my colleagues in Washoe and Clark County, science 
teachers there, they teach chemistry all day. Or they teach 
physics all day or biology. I teach all three subjects. So I 
wear multiple hats. I have to be multiple certified, and it 
takes a lot of time.
    So you have to reward people who have to put more into the 
profession. And I think merit pay is a way to help compensate 
that. I think merit pay or performance pay, too, will attract 
the people who are already in, and if new teachers coming in 
can see that they have a chance to make some really decent 
incomes to move ahead and to sustain, be into teaching and it 
becomes attractive to them.
    And when I received all of the awards in 2001, the first 
thing I got pressure from the outside: You need to go be an 
administrator. No one is telling Michael Jordan when he got his 
MVP, you need to go be a coach. Anybody knows you got to play 
in the game as long as you can until your body can't work. 
Teaching is the same way.
    I love teaching. I have had so many offers to go work for 
private companies. I can't imagine being without those kids day 
in and day out, that is who I am. So why make me go be somebody 
else that I am not trying to be?
    I think there needs to be a system--like here I am very 
involved with Teacher Solutions Network. I am very involved 
with leading the teachers in my State with standard writing, 
and why can't I be compensated that way and still be in the 
classroom instead of this drive to push me out?
    Chairman Miller.  Thank you.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    Good morning, and thank you all for testifying.
    Mr. Podesta, it is nice to see you this morning. I had an 
opportunity to meet with your brother in my office a couple of 
days ago, and he was lobbying hard for your alma matter Knox 
College, home of Stephen Colbert, as I well know.
    I appreciate your testimony talking about recruitment. And 
retention of teachers. My daughter, you know, sometimes you 
can't see the forest for the trees. She was a music teacher and 
she had 105 kids in band. And she would come over to our house 
and literally fall asleep sitting at the table. She said, I 
don't know how much longer I can do this, dad. This is not what 
I thought it was going to be.
    And with student loans and she wasn't exactly, as you said, 
she wasn't the highest paid person on the planet. And 
unfortunately she left. And I think part of that was, and I 
have talked to a lot of educators and they talked about teacher 
mentoring, and I heard Dr. Stanford and Dr. Dale talk about it, 
I would like to know from your perspective, or from anybody 
here on the panel, I was told that we lose tremendous amounts 
of teachers in the first and second year. But when they get a 
mentoring program--one of the school districts in my district 
said that it goes from like 35 percent down to 5 percent 
because the teachers actually had somebody that is with them.
    I would just like to--maybe your thoughts or anybody on the 
panels thoughts on it--and from legislatively, what can we do, 
from your perspective, to be able to not just recruit good 
teachers, but for people like my daughter who wants to go back 
and will go back and teach now because she misses it. She is 
like you. She doesn't know what to do with herself now that she 
is not teaching music.
    So what can we do legislatively to not just recruit 
teachers but to keep them, and this mentoring program, while I 
know it is expensive, while it seems we are going to lose a lot 
of teachers, we can invest in keeping them.
    Mr. Podesta. Thank you, Mr. Hare. And since my college is 
mentioned, I should say my high school, Dr. Sanford sends his 
students there.
    Mr. Hare. You are taken care of this morning.
    Mr. Podesta. I think that is why I mentioned the TEACH Act 
as going at all of this through a kind of system-wide approach. 
I think that is what is so powerful about it. It starts with 
the way we educate young people and demanding accountability 
from schools that are producing people who are available to 
teach. It creates some funds to create innovation in terms of 
mentoring people at the beginning of their careers. We are 
losing a tremendous number of teachers out of the first 3 or 5 
years of teaching. It has the pay-for-performance elements that 
have been talked about up and down the panel. It has some very 
strong tax benefits for teachers who are willing to go into 
hard to place, both discipline, and hard to place, you know, 
teaching schools and districts.
    So it seems to me you got to do a little bit of all of that 
if you want to get the best kind of performance for our kids.
    So I think that you have heard a variety of different 
perspectives from the input side through the performance side 
to, you know, to how you kind of mentor people along the way. 
How you create a mentor of teachers.
    I think, quite frankly, it is kind of all in that act, and 
I really recommend it to the committee, and I hope that it 
becomes part of the re-authorization of No Child Left Behind.
    Mr. Hare. Dr. Dale.
    Mr. Dale. I think we have to look, as he mentioned, from 
both sides on the recruitment side, the training side and the 
colleges.
    One of the things that perhaps legislatively could be 
looked at is the support for what I would call the--we put 
together what we call professional development schools, but it 
is basically the support of internships, if you will, for 
people during their last year or 2 years of college where they 
are actually in the schools working with our teachers, but they 
are learning the art and craft of teaching. But there are 
tremendous tuition bills that go with that and all of the other 
expenses as you are going through that training process. So I 
think that is one area.
    The other is, as you mentioned, having the mentoring, 
coaching programs at the onset of teaching. We found similar 
statistics that you were citing with our program where we have 
tremendously reduced drop-out rates, if you will, from teachers 
during their first few years. That didn't have adequate support 
and coaching. Our research about why people leave the 
profession during the first 5 years is--the biggest reason is 
the culture and the climate that is in the school and the 
feeling of support, they will stay or lack of support they will 
leave. And so how to help with that is the most critical.
    Ms. McLean. At Tracy public schools, there is a teacher 
induction program that I went through, and that was--it was a 
3-year program, and it was very, very helpful for me; but one 
of the things that drove me from Tracy, besides the economic 
issue, was the support, the continued support. As the low 
person in the science department of 13, I was out in the 
portables. I was one of six teachers teaching biology. I had 
one microscope where my colleagues had one for each student in 
their labs. They didn't want to--you know, and it was 
understandable on equipment because that new teacher breaks her 
microscopes taking them out there or bringing them in. They 
can't replace. The budget is very tight not to replace 
equipment.
    So I felt very frustrated in that aspect so much so that I 
went back and got my primary credential for California because 
I thought well, maybe I am at the wrong level. And they 
wouldn't let me do--they didn't want to lose their science 
teachers so they wouldn't let me do their summer school, first 
grade, or anything like that. So that also drove me out of 
California to a place where I was supported.
    When I came to Pershing County High School, I walked in as 
the only science teacher, and that was nuts 14 years ago.
    But one of the things I did, I looked, the textbooks were 
1950s. All of the equipment was disarrayed, and I said you 
know, this is going to be difficult to do any job. They said 
you do a purchase order. So I went for the pie, and I turned in 
an $18,000 purchase order, and they did not blink their eye. I 
had it in 2 weeks.
    So they had the whereabouts and the means to support me to 
do my job. And I think that is a real key point. If you don't 
have the resources to do your job, especially a young 
professional when you are coming in and you are given one ream 
of paper and say that is all you have, the rest of it is out of 
your pocket, it drives you away. And it almost drove me away.
    Mr. Hare. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    As you know, No Child Left Behind basically calls for 
standards and assessments and the State sets the standards and 
assessments. Assessments is usually another word for tests. And 
we hear from many people, I hear from many people, that the 
tests inhibit or impinge on the ability to teach. It doesn't 
give teachers enough artistic flare or whatever it may be. On 
the other hand, I have also been in districts--I am from 
Delaware. And in my State where they have done a wonderful job 
of taking the standards and taking the assessments and looking 
at them carefully and determining how they should teach and 
going from there.
    I would like to ask Ms. McLean and Ms. Bibeau,
    as teachers, your thoughts about the testing component as 
being as any kind of a limitation in terms of teachers' ability 
to teach or an enhancement if you think that way.
    Ms. Bibeau. We just recently completed our spring testing. 
And that does not include my grade level, but I watched the 
teachers in our building and in our district. And the tests ran 
for approximately 3 weeks and they had 1 week of preparation 
prior to that to help the students become familiar with test 
taking and the format. And there was great stress among the 
staff, and it is not tied to performance base. It is just 
preparing students and the length of the--the amount of time it 
takes away from instruction.
    And this week with testing we looked at all of the test 
results, and we looked at the heart of the test results as 
student growth and what does this mean to us as teachers. And 
we--we are fortunate we don't have to reflect on am I, you 
know, is this reflective--we view it is as it reflected need.
    But we are not having that additional pressure, and we are 
making changes, and some of the changes we are seeing in our 
school is a mentoring program, and we are starting a coaching 
program that continues that process so that teachers feel 
supported timely and----
    Chairman Miller. You are going to have to speak into the 
mike. People in the back cannot hear you.
    Ms. Bibeau. And I find that the mentoring program is very 
successful with beginning teachers and the coaching and in-
classroom modeling assist teachers at all levels in the 
professional development process. And myself, a long-term 
teacher, was able to access coaching in classroom modeling to 
learn about the new educational research and found that as a 
very beneficial process to help me improve my classroom 
instruction.
    In my classroom, we don't test. So that wasn't the 
motivation.
    Mr. Castle. Thank you.
    Ms. McLean.
    Ms. McLean. I work on the State level of writing standards 
and test items. I am aware of the Delaware model because I 
worked on the K-12 Science Assessment Achievement Committee 
with the National Research Council. Nevada has tried to do a 
performance base as well. That Delaware system is wonderful. 
You have a performance base so at least in the science area, 
the kids can prove they can do science.
    And we went to Nevada, tried to at least an essay component 
in and a performance component. But the bottom line is those 
things are very costly in rolling out to the classrooms, and 
then grading them, so to speak, evaluating those tests.
    So we scaled back down to multiple choice.
    I think assessments are good if they assess what you want 
to assess. If they are assessing critical thinking skills in 
the science, you know, the whole part about the kids to 
innovate, create, think and observe and evaluate the data, it 
is very hard to get those questions on a multiple choice item. 
So I am not afraid of assessments.
    We did in Nevada, we have this MAPS testing program, which 
is a growth model. We had the kids take all of the science 
tests off the computer the first week of school and they just 
finished a couple weeks ago. And we showed tremendous growth. 
So we know we are doing our job.
    But the thing is that they do need to be aligned as 
standards. Just as testimony to one thing that can happen. We 
have test item writing teams on the State, and I participated 
on those teams, and they are a great thing. They help you 
improve what you do in your own classroom as well. But people 
get a little bug in their ear, and so our State pulled back 
from using the teacher test writing items and came in and had a 
testing company and then that gets scary because they really 
don't take the time, some of them really don't take the time to 
align properly with the standards.
    As case in point, we are just still piloting our science 
exams, our freshman class, the 2010 will have to pass our 
science proficiency to graduate. Prior to that 4 years ago, we 
have been piloting, piloting. My students were not tested, but 
we looked at the test exams because I have been very--a part in 
writing it. This is what a testing company did. We went over 
each item. I said this is not on our standard. This is not on 
our standard. I am a national board certified presidential 
awardee. I can't answer this question. We went through one of A 
through G forms on this test.
    So with the test director, we called the State test 
director, you know, to question the validity of the company and 
how they aligned with our State standards. Well, after that 
conversation, the legislation, now it is again against the 
Nevada revised statutes to anybody to look at the tests except 
for the kids. So we can't even be critical of the process or 
even evaluate the validity of the tests that our kids are 
receiving.
    So I am not afraid of tests if they are good tests, and 
they need to be good tests, and yes, we have to pay for good 
tests.
    Mr. Castle. Dr. Dale, I was going to ask you, with respect 
to when you recruit teachers, do you--first of all, do you have 
a teacher of America-type teachers or other ways of entering 
into the profession and do you focus--to me, the--not just the 
pay, but the benefits which are there which are not in the 
private sector as much anymore, defined pension, health care, 
things of that nature, are these useful tools now in recruiting 
teachers?
    Mr. Dale. When we recruit out on the road, most of the 
first-year teachers will look at the salary. Try to convince 
them that 30 years later you need to be compensated.
    Mr. Castle. It is very hard to get their attention.
    Mr. Dale. And we have probably one of the best programs, 
medical, retirement, dental, that we have ever seen. But when 
you are initially recruiting, it is typically the start of 
salary where am I going to come in and what is the cost of 
living in your school district.
    Chairman Miller. Thank you.
    In her testimony, Ms. Bibeau referred to the California 
State University Center on Teacher Quality noting that a lot of 
concern among teachers was beyond salary, and we have heard 
some of that this morning in terms of whether to stay in the 
profession or leave. The study points out that things such as 
adequate time for planning and professional development and 
reliable assistance from the district office, an opportunity to 
collaborate with colleagues, meaningful role in the school 
decisions, inadequate facilities and equipment.
    One of the things I am quite struck with is from when I 
traveled the country the last 5 years talking to teachers. They 
will say as a result of No Child Left Behind it was the first 
time they were ever asked to participate in a plan for their 
school. They said we always had a plan but we were never asked 
to be part of it. But now, because there is some jeopardy 
attached to No Child Left Behind that they have been part of 
the planning.
    This committee is the Education Labor Committee, and very 
often, when we have this discussion, it is suggested you can't 
do this within current collective bargaining agreements.
    I just wondered if Mr. Klein, Mr. Burke, both of you, have 
suggested you have done this within the--your current 
collective bargaining agreements.
    Mr. Dale, you suggested you had to find a lot of different 
ways to categorize your way around the agreement. I just 
wondered if you might comment on how this can be done, because 
very often, I think there is a concern that somehow this is 
going to be arbitrary and teachers are going to lose some of 
their protections.
    Mr. Klein. We have been able to do it, and, you know, it 
has been, as in all labor negotiations, you give a little, you 
take a little.
    The mayor in New York has increased teacher salaries across 
the board 43 percent. And that has obviously helped us 
facilitate other issues.
    But Chairman Miller, what I think is important is I think 
the Federal Government could help this process is by providing 
the monetary incentives. If there were Federal dollars, then I 
think what would happen, as has often happened, is that the 
collective bargaining process would be facilitated in a way to 
take advantage of those dollars, and indeed, I think there are 
other ways by tying it to Title I for an effective program.
    But if we don't get serious about making sure that dollars 
are driven where the need is, and one of the things that, quite 
frankly, troubles me, we talk about teachers with schools as if 
these were homogenous things, and they are not.
    So you take a city like mine, we have lots of senior 
teachers. But many of the senior teachers who are very 
qualified are in one set of schools and many of the senior 
teachers who, quite frankly, are not qualified--and seniority 
alone does not qualify competence. So when you talk about 
mentoring and everything--so when you have people who are not 
qualified, they are not mentors. The best mentor you are going 
to get is your best teacher in your own school that you can 
watch and observe.
    So to me, where I think the complexity is, the collective 
bargaining agreement view the teacher fundamentally as fungible 
where there is not a kid in America who thinks teachers are 
fungible. That is where I think you could actually, through the 
incentives, you can incent changes in the collective bargaining 
agreement, which would help us build on the things we have 
done. Without them, we are going to continue in negotiations to 
try to continue to put as much as possible into making sure we 
attract high-quality teachers to high-need schools.
    Mr. Burke. I would like to agree with Joel on the need for 
the incentives. We, through our own devices, we can figure out 
how to carry out some dollars to help do that. But if there was 
a structured program such as the ones that have been proposed, 
I think it would be extremely helpful to us.
    We started out in our collective bargaining process having 
a conversation about the fundamental assumption of a teacher is 
a teacher is a teacher.
    So I asked the teachers' union represented across the 
table, well, what do you think about the statement a principal 
is a principal is a principal.
    Oh, no, no, no. The principals are all different. Different 
leadership styles. They have different abilities. They have 
different, you know.
    So I basically got into the conversation about the reality 
that there are different teachers who have different qualities 
and different abilities and can get different results with 
kids.
    And that is just the fundamental reality. Teachers know 
that. You could go into any school and ask a teacher who the 
stars are in terms of getting the work done. And they can tell 
you. They can also tell you the teachers that are not getting 
the job done because they know. They live with it every day.
    And so we got into some of those more fundamental 
conversations.
    At the end of the bargaining process, we had lots of give 
and take, too. We were able to recognize that we needed teacher 
leaders that were going to be credible, that had been getting 
results with their students, that were real, true professionals 
in their craft that everybody recognized we are using the best 
practices. And those teachers had to be compensated 
differently, and in some cases, we had to actually give them 
different work to do, mentoring and coaching other teachers on 
a regular basis.
    And that is essentially what our highest end teachers do. 
They are off the salary schedule. They are in a separate set of 
salary band. They are the highest band teachers paid in our 
district. Their salaries at the top of the salary band bump 
into the early career administrators. That was deliberate. We 
want them to try to keep those people in the classrooms rather 
than they have to make a decision to go into administration for 
compensation.
    Chairman Miller.  Just quickly, if I might.
    Dr. Sanford, how does this work out on campus in terms of 
performance pay and how people--what do they feel about the 
ownership of the idea.
    Mr. Sanford. Currently in Chicago, we have a provision 
where there is performance pay. And our teachers are quite 
pleased with it. It is very competitive. But I think most of 
the teachers recognize that, as he just indicated, those who 
are doing the higher work, we actually see, then, the results.
    Chairman Miller.  We are looking for that in Congress. I 
don't know if we are going to get that.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chair, although I am--I probably 
ought to respond to that comment, I won't.
    I want to thank the chairman for having this hearing. This 
is an extremely important issue.
    I am heartened by the testimony I have heard, and Ms. 
McLean and Ms. Bibeau, I am moved by your stories, and I 
commend you and thank you for staying in the profession.
    I represent the 6th District of Georgia, which is northern 
suburban Atlanta, a wonderful district that doesn't have many 
Title I schools, but it does have some. I am struck by the 
education panels that I hold at home and the commonality of the 
stories that I hear from the teachers, and it runs across the 
whole spectrum. So I thank you very much. You have energized 
me.
    I do think that there is remarkable unanimity among the 
panelists, and I am encouraged by that. We see generalized 
support for a pay-for-performance kind of process. And I think 
that is encouraging. I do think that there are many 
similarities between the Teacher Incentive Fund that, along 
with Mr. McKeon and I and others have introduced, and the TEACH 
Act. So I look forward to working with the chairman and the 
ranking member and moving forward on that legislation.
    I would like to concentrate on two areas, and Dr. Burke and 
Dr. Ritter, if you wouldn't mind commenting.
    I am interested in how you believe are the best ways to 
gauge teacher effectiveness. As a physician, when somebody says 
how do you find a good physician, much of it is hard and fast 
numbers. Much of it is just a gestalt. You just kind of sense 
that is a good doc. And in my sense about the teachers that I 
think back about that affected my life, it was kind of that way 
as well.
    So how would you gauge effective--teacher effectiveness, 
Dr. Burke.
    Mr. Burke. Thank you, Congressman.
    Our model that we are looking at does, in fact, look at a 
gestalt. We have a model that has 70 percent of our decision 
making on effective teacher has to do with the observation, 
classroom performance, professional development work that 
teachers are doing and what kinds of ratings they actually get 
on an effectiveness instrument that looks at about 75 
behaviors, which is an awful lot. But that is the anecdote, the 
evidence of going into classrooms and looking at what teachers 
are doing in the interaction and the dynamics and learning.
    The other 30 percent is value-added results in terms of 
student achievement.
    What are teachers actually accomplishing using a value-
added growth model and that comprises 30 percent of the 
decision making, particularly for these teachers that are going 
into these new positions that we have created?
    And we think that that kind of model is the best way to 
look at it that teach--the act of teaching and the interaction 
with the learners is a very, very dynamic process and has to be 
looked at very carefully as it is happening.
    And then the results need to be calculated into a matrix 
that really gives you a total picture of the effect. And I 
think you can get good data from growth models that can give 
you a real good barometer of teacher effectiveness. You match 
that with the actual instrumentation of looking at the teaching 
and learning in the classroom, and I think you have something 
that is workable.
    Mr. Price. I would love to see that list of the 75 percent.
    Mr. Ritter. Thank you for the question.
    I would agree that mixed model is the way to go, although 
my bias would be to lead toward the majority in student 
achievement growth, although allowing, as we have heard on the 
panel, that these are imperfect measures of the teacher's work. 
But I don't think we should let the perfect be the enemy of the 
good.
    If we don't measure growth in some way, as we have heard 
throughout the panel, there are teachers who see growth in 
their students year after year after year, and we should accept 
that, recognize that and reward that. And I think it is 
important to note there is no one best way to do this. Whether 
you have 55 percent on test score growth or 60 or 40. There is 
no right or wrong way to do this. We just have to think are the 
incentives in the right direction or the wrong direction.
    For example, it was mentioned earlier that some plans have 
a zero-sum game. You know, the top 25 percent of the teachers 
will get it. No one else will get something. Clearly that makes 
sense that that is a bad incentive. We could imagine 
counterproductive competition because if I am that 25th percent 
teacher, the person behind me isn't getting that reward. So 
that doesn't make sense. And we can see why that would lead to 
counterproductive competition. On the other hand, if we created 
such that there is a criterion and we all meet it, whoever 
meets it gets the reward, there is no reason for me to want to 
compete with my colleague. In fact, I would want to work 
together and try and make him or her also achieve the award.
    And we can also think of using school-wide rewards in 
addition to individual awards. That is why I like TIF. 
Different models would work in different places, and we need 
the educator buy-in to make it work.
    Mr. Price. I appreciate your responses. I look forward to 
offering other questions in writing.
    Thank you.
    Chairman Miller.  Thank you.
    I don't know if you mentioned if you have introduced the 
Teacher Incentive Act in this again.
    Mr. Kildee.
    Mr. Price. I mentioned I reported working with you in the 
TEACH Act because I think there are many similarities between 
the two.
    Mr. Kildee. My Congressional district is really a microcosm 
of this country. I have urban, suburban, rural. I have affluent 
and poor. And my school districts, I have many school districts 
in my Congressional district, they run the range also. Some are 
seriously stressed with a concentration of poverty, abject 
poverty, and some scandalously decrepit buildings. They tore a 
jail down under Federal court order in Flint, Michigan, because 
it was unfit for human habitation and that jail was in better 
shape than some of the schools.
    Yet in my same district, I have middle class, upper middle 
class school districts where, God bless them, when they build a 
school it looks like a Hyatt Regency, and they really tax 
themselves to do that because there is no State aid for 
buildings. And I go out and help cut the ribbon.
    But the disparity just in the physical buildings is 
outstanding. And teachers, for the most part, are attracted to 
those middle class or upper middle class districts. Or they 
might start out at one and go to the upper middle class.
    And then the vicious cycle also is that parents, young 
parents who are middle class themselves, as their children 
reach school age, they move out to the middle class area.
    So the City of Flint, for example, is losing population. It 
has gone from a 190,000 down to about 118,000.
    Dr. Sanford, you discussed the need to provide incentives 
for our best teachers to work in our hardest schools. Can you 
expand on the range of obstacles those schools must overcome to 
recruit and retain the teachers?
    Mr. Sanford. Well, as I think as you indicated, one of the 
things that is pervasive in inner city schools is that we have 
young teachers who come to the inner city schools but 
unfortunately, they need additional professional development 
and they need additional time; and one of the things that we 
found is that we must put additional emphasis on working with 
our teachers really to help them over time in gaining the 
skills and the wherewithal to really be effective.
    And so I think it is really incumbent upon us to make sure 
that we address those issues in terms of professional 
development as well.
    Mr. Kildee. Mr. Klein, New York City, you probably have 
schools of various ages, right? Some old and some new. I know 
when I came here 30 years ago to Congress, there were school 
business, school buildings in Flint that were well over 50 
years old then. And they are still being used.
    To what degree is the quality of the workplace for teachers 
a factor?
    You know, even on Capitol Hill here when people are looking 
for a job, very often they wonder are they going to be put over 
in the Ford annex or work in the Rayburn Building. Those are 
considerations.
    Mr. Klein. It certainly matters, and one of the things we 
are doing--we have got a 13 billion capital plan in the city to 
really try to address a lot of those issues.
    But if you look at the variables, in the end, I think the 
thing that matters most is the colleagues in the buildings. If 
you have a great principal, teacher, you know what Joe said 
before about principal is not only a principal. Teachers want 
to be with great principals. If you have got strong colleagues 
that people want to learn from, teachers want to be with strong 
colleagues that they want to learn from. Class size matters. 
All of those things matters.
    If you are in an environment where you are respected, where 
you feel you can learn, where you feel like you are part of a 
team that can transform the lives of kids. That is why I don't 
mean to single him out. We have got many likable--but when you 
have got guys like Dr. Sanford doing the work that he is doing, 
people want to be there. People want to be a part of that. It 
is an enormously exciting thing. Whatever you think about 
testing, we could go on forever about it, but I will tell you 
this: When he got the highest gains in his State, people in his 
school were proud. His parents were proud, his teachers were 
proud, and they wanted to be around him. And you know what? He 
is going to be able to recruit better people because he is 
succeeding.
    Too often in education, we reward the failure and we keep 
pouring more and more money into the failure. We have got to 
reward guys like this, let them grow his school. Let him 
attract more adult talent there. Let more kids from his 
community get the education. And believe me, when you get that 
kind of positive feedback, you can see it is transformation.
    Now that is, in no way, to say he shouldn't have a science 
lab, he shouldn't have a gymnasium. You need all of those 
things as well.
    Mr. Kildee. I visited hundreds of schools in my 30 years 
here, and the one constant you will find when you find an 
outstanding school, one requirement is that they have a very 
good principal. And that is a constant find.
    Mr. Kline. The magic ingredient in education is the 
teacher. But the magic ingredient in creating a great school is 
the principal. And the same kind of things--that is why I am so 
excited in New York now, I literally can pay principals up to 
$200,000 with the incentive pay and the pay-for-performance. 
And that has been a major breakthrough. Because if you get 
people like this, and there are other people from new leaders--
the first initiative we started was a leadership academy. 
Raised $70 million in private money. We have now trained 200 
principals who are in our schools throughout the city.
    Let us think about it this way: The school is the only unit 
that matters. We in politics, we talk school districts and all 
this other stuff. But we as parents know the thing that matters 
is which school our kid goes to and the school is not going to 
be better than the quality of its leadership.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chairman Miller.  Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    All of this talk of incentives makes me wonder about the 
Congress itself, where we all get paid the same regardless of 
what we are doing. Maybe, Mr. Chairman, we need some incentives 
for a few of our Members.
    As a physicist, I have a particular interest in science 
education. And this talk of incentives has reminded me of the 
particular problem. As someone said, it is an imperfect science 
of setting up a merit system and reward-for-pay, but it is not 
an imperfect system to recognize the market outside of the 
school. And that is the big problem you have with good science 
teachers, to a certain extent, also good math teachers. They 
have much higher paying options available to them, if indeed 
they are good in math and science.
    And I find very few schools are willing to meet the market. 
And that is a very precise measure that you can have: To meet 
the market for that person. And I think our science teaching in 
many schools has floundered because of the failure to meet the 
market, and you end up with lower quality teachers as a result.
    That is just one factor.
    My main question is about the math-science partnership 
programs at both the Department of Education and at the 
National Science Foundation. And I am interested how many of 
you have used these programs or have had teachers use them or 
have participated in them? Let me see a show of hands here.
    Very little. So obviously the word is not getting out.
    But I think this is one of the most important things we 
have to do if we are going to improve math, science education, 
much of the problem resides with the teacher, not because--and 
it is not the teachers' fault. I personally have worked with a 
lot of schools to try to improve math, science programs. I 
never criticize the teacher because almost every case that I 
have met and the people I have worked with, the teacher is 
anxious to teach well and especially to teach math and science 
well.
    But they do not feel competent to do it. They do not feel 
they have the training or the knowledge to do it. And I think 
this is a huge opportunity for professional development. That 
is why we have said at the math-science programs in the 
Department of Education and the National Science Foundation, 
primarily research-oriented in the National Science Foundation 
to develop good programs, to measure their value and transfer 
that information to the Department of Education.
    Maybe you will be reluctant to comment on this if you have 
never been involved with the programs, but I would appreciate 
the comments about the concepts.
    Am I on track in saying that the best way to get out the 
problems of math and science teaching is through professional 
development so far as the Federal Government is concerned? 
Where can we have the most impact with that, and I think we can 
through funding professional development for our teachers. Am I 
right or wrong, and if I am right, do you think the math 
partnerships will work?
    Ms. McLean.
    Ms. McLean. Thank you.
    When the Eisenhower funds were available that we--our 
district used for math and science, we had a tremendous 
opportunity for professional development all the time. With 
reauthorization of and the NCLB, those were taken away from us 
because the focus was on reading. So we had to privately do our 
own professional development because everything was focused on 
reading. All resources were taken away from us for science.
    And I think it is a valuable use of resources for 
professional development. Like myself, I teach physics but I 
was a biology graduate. And if I take enough of the other 
sciences, I could pass the test so that they will give me a 
license to teach physics.
    In 2003, I went to graduate school at Montana State, was a 
combination of on-line and on campus, in the summertime, to 
take more physics because even though I was effective, I 
attracted--over 50 percent of the graduating seniors take 
physics with me every year and they are doing well. I knew I 
didn't have the full background to take them where I should be. 
I made the course fun and attractive and we do all kinds of 
things.
    But you are right. I wasn't fully competent. The more like 
with national awards I realize that I really needed to increase 
my knowledge that I could help more students. And biology, even 
though I was undergrad major in biology, it changes so fast 
with our technology, I read Scientific American, and I will get 
a paragraph and it is way over my head on half the stuff. I 
want to go back.
    The problem with the math-science partnerships is they are 
connected to universities. And so rural people like me do not 
have access or opportunities. So these programs are going on 
and we don't even--we are not even aware. They get the 
literature out there. So we are not aware we can partake in it 
or often UNR is an hour and a half drive from my location. And 
we are one of the nearest local rural communities to the 
university. When they are running programs at 3 o'clock, we 
can't take off our work day to go participate in those.
    So it is a great need for us to stay on top of the science 
fields because it is changing very, very fast with technology. 
And we are all left behind on that.
    Mr. Ehlers. Go ahead, Dr. Burke.
    Mr. Burke. Congressman, I agree with what the teacher just 
said about Eisenhower funds. But, you know, the math-science 
partnerships are very much dominated by the colleges and 
universities.
    My experience with the urban systemic program that was 
funded by the National Science Foundation which had college and 
universities involved, but was more driven by the districts was 
that that was much more successful in delivering high quality 
professional development directly to the teachers in the 
schools.
    When I had that responsibility in Miami Dade, we did an 
increase in test scores that I think was at least in part 
attributable to a lot of professional development work with 
teachers. But what was even more significant was that the 
course taking pattern for students and their success rate in 
higher level math and science courses in high school increased 
very dramatically, and I think that was really a very, very 
significant event for us.
    And so I would suggest that really take a look at how those 
programs are structured. I think the professional development 
for math and science teachers is absolutely critical because 
there are not enough in the pipeline anyway. It is just a 
dramatically soft market. And we need to do a lot of work in 
that area, but we need to look at whether the math-science 
partnership right now is really the best delivery model.
    Mr. Ehlers. Thank you for the comments.
    Chairman Miller.  Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And I want to thank all of the witnesses for your 
testimony.
    Dr. Ritter, you are the only, I think, university 
representative here. We are trying to translate quality into 
effectiveness and increase the number and effectiveness of 
teachers, and most of the focus has been after they have gotten 
out of college.
    Are there things we can do to increase the effectiveness of 
the courses by changing the course structure and improving the 
course structure to improve to education of teachers, and can 
we increase the number with techniques like targeted 
scholarships?
    Mr. Ritter. Thank you. I think I will have to be short 
because the evidence isn't strong on this.
    It is hard to tell what types of courses and what types of 
training lead to optimal teacher outcomes. There are a few 
things that we know. It does make sense that folks who have to 
teach secondary math and secondary science do better if they 
are trained in this content area. And so those sorts of things 
matter. Learning the content. So getting a specific content 
training, as compared to getting training in general, teaching 
classroom management, matters much more for upper level than 
for not.
    But also before they even get into the colleges----
    Mr. Scott. What about for lower levels?
    Mr. Ritter. For lower levels, content doesn't seem to 
matter as much. Simply getting trained in an education degree 
is just as good. And the intuition there is that higher levels 
science requires more of the content and when you are teaching 
lower level kids, classroom management, these sorts of things, 
seem to matter more.
    But the evidence is mixed on these questions.
    One thing the evidence isn't mixed on, though, is colleges 
of education do have a hard time attracting top students. And 
part of the reason might be that highly-motivated folks who 
want to be recognized might tend to shy away, or folks who are 
interested in science, as we heard earlier, or math, might tend 
to shy away because they might not be able to receive as 
competitive as salary as they would receive elsewhere.
    There are, of course, folks who will enter the field anyway 
because they are driven to teach and want to teach and will do 
it despite the fact they won't be recognized and rewarded.
    But if we want to open up the pipeline and get even more 
individuals in, I think the whole theme of this panel on 
recognizing and rewarding good teachers will help in addressing 
what is going on in colleges of education.
    Mr. Scott. One of the things that has been mentioned is how 
to assess the teachers. Dr. Dale, you have indicated that 
teaching is an art. Do we have the appropriate measures to 
decide who is an effective teacher and who isn't?
    Mr. Dale. Let me tell you the story that I think is most 
compelling, at least from my perspective, that is our 
partnerships with universities in their last years of 
internship were our teachers, our employees, are working as co 
professors with the professors at the universities designing 
internship quality experiences in the classroom. We find when 
the student exit that, they are on a par with second- and 
third-year teachers universally.
    Mr. Scott. Now in assessing the effectiveness as a teacher, 
do you calculate in there the drop-out rate? We don't want 
teachers pushing kids out and then scoring those who are left 
and see their scores went up.
    Ms. Bibeau. The intent was working with kids and keeping 
them in school.
    Mr. Scott. And Dr. Sanford, if teachers have problems 
teaching certain categories of students, racial, income, 
nationality, and had a consistent differential, that is they 
had problems dealing with kids of a different race or kids of 
low income, is there something that you could do to improve 
that through professional development?
    Mr. Sanford. Well, I think it is not only professional 
development but it is also in the mentoring that we spoke of 
earlier and just ensuring that individuals who go through a 
program have a residency component, and that residency 
component should include them working with a mentor or a master 
teacher who can help them be more effective in the classroom.
    Mr. Scott. You will have desegregated data. If you notice 
the differential in certain teachers, should a principal do 
something about that?
    Mr. Sanford. Most definitely, but the No Child Left Behind 
Act will help them empower them to do more by making it 
feasible to really help and replace those teachers who are 
least effective.
    Mr. Scott. And very quickly, we have heard about the role 
of the principal being so important. How do we get some measure 
of that into the law?
    Mr. Sanford. I think working with smart individuals like 
these over here.
    Mr. Scott. My time is just about up.
    Thank you.
    Chairman Miller. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    This has been very, very interesting to me. I feel almost 
like I am in a time warp. I will trying to pinch myself and see 
how what I am hearing relates to my past experience.
    I was a school board member for a number of years in 
California, in a high school district. But in California, none 
of you are from California so I don't know if California has 
changed since I was on the board, or if we still have some of 
the similar problems, but talking about teacher pay and paying 
different teachers different amounts, you just couldn't do that 
in California. In fact, we couldn't get rid of a teacher that 
is having problems.
    I am wondering how, if teachers aren't functioning, you 
move them out. The protections in California, it just was like 
impossible to do that. Made it very hard to do some of these 
things. I remember when we first tried to have a mentor teacher 
program, there was going to be a $2,000 stipend for a mentoring 
program and the union wouldn't let us do that.
    I am hopeful that California has made some of these 
changes, too, because you have all alluded to it, the fact that 
you have one teacher getting paid the same amount, a teacher 
next door doing a lot less work, a lot less productivity, who 
is getting the same amount or even more because the pay scale, 
the way it worked, was just based on steps and columns, how 
long you had been doing it and your education level. So a 15-
year teacher who maybe was burned out was getting paid more 
than a 5-year teacher who just is so excited and cannot wait to 
get into the classroom each day. I think that unless we break 
that cycle and do a lot of the things that I am hearing here 
today, we are never going to be able to be productive in the 
process.
    I was really happy to hear Mr. Scott asking Dr. Sanford 
about principals, because all of the focus has been on 
teachers, which I think is very, very important, but if you do 
not have a leader on the campus who is doing a job--each of 
those areas is very, very important, and I know that there is 
talk about teachers having to move into administration to make 
more money, you know, where the pay scales are close, because, 
in my experience, the top pay for a teacher after 15 years, 
with a Ph.D., was still lower than the entry-level 
administrator's, so it forced people--if you had to make more 
money to buy the house and provide--money is not the most 
important, but you have to have a certain amount to live, and 
so it would force people to go into administration who maybe 
were some of the better teachers.
    So I do not know if any of you want to respond to any of 
that kind of meandering, but this has been really exciting to 
me.
    Mr. Podesta. Mr. McKeon, I think that we spend a lot of 
time on the pay for performance, which I think there is 
unanimity on; that providing financial incentives to good 
teachers is really critical--and to principals, as Joel so 
eloquently stated.
    I think the other question that we spend a little bit less 
time on is the distribution of those teachers into the hard-to-
staff schools and the hard-to-staff subject areas.
    In response to Mr. Scott's questions, it seems to me that 
we have got accountability now being driven down into the 
school system. We ought to have accountability and the teacher 
preparation system at the college level so that we track what 
is happening and that grant money ends up being looked at with 
respect to those measures of accountability to see that you are 
producing performance.
    I think, on the technical question, going back to some of 
the earlier questions, Dr. Ritter noted that for the people 
going into the profession, the gap is smaller, although in the 
technical majors, it is still pretty significant, but 10 years 
out--and by 2003 when we did a study of this--there is a 
$28,000 gap if you have a technical major going into teaching 
versus going into a different kind of profession. So I think, 
unless you do something directly about that, which the TEACH 
Act does and some of these other ideas--TIF, et cetera--begin 
to provide performance pay, to provide--particularly in these 
hard-to-staff subject areas in schools, we are not going to 
attract good teachers into those places for those majors. So I 
think these direct incentives are really critical.
    Mr. Klein. If I could just add one point, because what I 
think you are putting your finger on is so important. And I 
want to give you a concrete example of this.
    In New York City, we are short highly qualified math and 
science, meaning teachers who are certified in math and 
science. When I am short those teachers, I am not short those 
teachers in my middle class schools. I am short those teachers 
in my high-needs' schools, and it is just a matter of supply 
and demand. There is no way around this. Every university--I 
have talked to Matthew Goldstein, the president of CUNY. He has 
to pay math and science teachers more than he pays English 
teachers. It is not that he wants to; he just has to if he is 
going to draw them, given the realities in the market. And if I 
am going to get enough math and science teachers for my kids in 
high-needs' communities--because if you do not know math and 
science, the kid is not going to learn math and science. You 
cannot stay a day ahead of a kid in math and science. If I am 
going to do that, I have got to say to a teacher ``The normal 
pay scale would be $55,000 for you to teach. I am willing to 
pay you $75,000 or $80,000 if you can prove your worth, and you 
will go to one of my most challenging schools.''
    That is where, I think, Congress could have enormous value, 
Mr. McKeon, because you can supply the kind of incentives that 
will, I think, move collective bargaining agreements in the 
right direction and in a way that I think would actually help 
unions, because there would be, in a sense, a congressional 
incentive to move the thing forward. And I am just going to 
tell you--and I will come back every time you want to have this 
hearing--I am going to be short math and science teachers for 
my kids in high-needs' communities, and that ain't right.
    Mr. McKeon. You cannot be from California because they 
cannot pay them more there, so I do not want that secret to get 
out, but----
    Mr. Klein. How do you tell the parent of a kid whose only 
hope and only future is through education--and Yvette knows 
this in Bed-Stuy in Northern Manhattan and in the South Bronx. 
How do you tell a kid that we just do not have a math and 
science teacher for you? But I cannot get enough at an entry--
and I cannot raise everybody's entry-level salary to $80,000. 
They do not give me enough for that either.
    Chairman Miller. Thank you.
    Mr. McKeon. Thank you, Mr. Chairman.
    Chairman Miller. Just before I recognize Ms. Hirono, let me 
just say that there is also another reason. In looking at the 
Alliance for Excellent Education, they have put as an estimate 
of replacing those teachers who have dropped out of this 
profession at about $2.5 billion a year in districts, and then 
if you take the other shuffling of teachers that takes place, 
they increase that to almost $5 billion a year that is spent on 
this turmoil that is taking place because people are leaving 
the profession, retraining people to come back in the 
profession and moving people around within the profession. 
Whereas, if you can develop this corps of teachers who are 
interested in that school for those students who want to pay 
them and can perform, there is a huge savings for the States 
that they could also put back into professional development and 
pay if we could get out of this revolving door.
    Ms. Hirono.
    Ms. Hirono. Thank you very much, Mr. Chairman.
    As we focus on teacher effectiveness and NCLB, definitely 
pay for performance is on the table, which generally is, I 
think, seen as tying teacher pay to student test scores. And I 
think there are limitations and dangers to that because you 
could set up a situation where the teachers then begin to just 
work with those students who are going to score high.
    I am particularly interested in hearing what Ms. McLean and 
Ms. Bibeau have to say after hearing from Dr. Burke and Dr. 
Ritter about what are the ways that we can best measure 
effectiveness. And Dr. Burke said, well, 70 percent of their 
model looks at classroom performance/observation and 30 percent 
on what, I think, is student performance on tests.
    I would like to hear from the two teachers who are on the 
ground day after day in the classrooms of what you think are 
the appropriate ways that we can measure the effectiveness of a 
teacher.
    Ms. McLean. I thought Dr. Burke's model was interesting, 
but the one thing about the value-added measures is that people 
before me have a great impact on the students. So, if the 
junior high teacher does her job adequately, she builds a 
foundation and a vocabulary. Good teachers know that it takes 
three, four or five experiences on the same topic for you to 
really understand and learn and know it, and so my success also 
depends upon the success of the prior educators that the kids 
have. So maybe those seeds were planted in seventh grade, and 
then I get the reward because I made them flower at the right 
moment.
    So that can be a little bit of a problem with the value-
added measures. We do have to show results, though, and I agree 
that if you do not have testing, if I am not bringing the kids 
along and doing my job, then I should not be paid for that.
    Again, back to my point, though, those tests do need to be 
valid tests. Money needs to go in them to measure what we 
really want the kids to know, not just what is the easiest to 
test, which are a bunch of facts.You know, to me, I think we 
are creating a generation of who wants to be millionaires but 
not a generation of engineers or innovators with the way the 
testing is driving.
    There is a good colleague of mine on the Teachers Listening 
Team, Anthony Cody out in Oakland. He is a middle school 
science teacher--well, he was put into science this year--and 
they are so test-driven in his performance base that he 
confessed; he said, ``Well, I had to do strictly direct 
teaching.'' he did not have any opportunity to do inquiry or 
labs with them to engage the kids.
    So we are here at a balance. Do we want great test scores? 
Because we can give it to them and we can teach directly and 
feed them and bore them inside and out. Then we are never going 
to get our science and math engineers.
    Ms. Bibeau. We have a very good beginning teacher 
evaluation process where teachers are observed in the classroom 
by the administration and by their peers, and there is a rubric 
involved in this, and part of it also includes a self-
reflection and a self-growth piece. The ongoing assessment is 
not as clear at this point in our district--but we look at the 
assessment procedures, at the tests that the students take, and 
do the kind of reflection that Ms. McLean is mentioning that I 
teach the students before they enter the time when they are 
taking the standard tests, but when I see their test scores in 
third grade, I start thinking about those test scores just as 
seriously as the third-grade teacher, because it does not just 
happen in third grade, the effectiveness of the students.
    A staff development process that I was able to be part of 
as an ongoing teacher included self-assessment, peer 
assessment, and an outside assessment that was nonbiased. But I 
had the availability to discuss it with an individual who was 
an expert from a university and reflect on the observations of 
myself in the classroom, and that was very, very, very helpful 
for me to see where I was as a teacher now. And the evaluation 
we were looking at is what was some of the current research in 
teaching, and was I doing it in my classroom.
    I think that a lot of teachers, when I explained that I was 
doing this and that I was volunteering, were, you know, pretty 
nervous. I mean, they thought,you know--and when I talked to 
them, I said this was one of the best things I ever did because 
I cannot see what I saw before that. I did not see that on 
myself. So I do not think we are always afraid of, you know, 
what is the assessment going to be if it is an assessment that 
helps us grow and become better teachers.
    Ms. Hirono. Would it be accurate for me to conclude, while 
the testing of the students has a place in your evaluation, 
that these other evaluative tools are much more important? 
Thank you.
    Chairman Miller. Thank you.
    Mr. Bishop.
    Mr. Bishop of New York. Thank you, Mr. Chairman.
    I have read the rules of our committee, and I realize that, 
until I have been here for 45 minutes, I do not have the right 
to ask a question. So, in lieu of that, can I yield to Mr. 
Ehlers?
    Chairman Miller. The gentleman yields.
    Mr. Ehlers. I thank the gentleman for yielding. Whether the 
rule is that or not, I deeply appreciate it.
    First of all, let me express my utter delight. For the 
first time, I have a panel before me which seems to totally 
agree with me that we have to have differential pay for math 
and science teachers in order to maintain a good workforce, and 
it is very heartening for me. I have been preaching it for 10 
years. I have never had a panel totally agree before.
    The second point. Ms. McLean, you commented about the 
Eisenhower funding, and the math and science partnerships were 
supposed to be the substitute. I have to tell you that for 
several years, I almost single-handedly had to keep the 
Eisenhower funding going because there just was not support for 
it in the Congress anymore. Math and science partnerships were 
supposed to replace them. The bill--as the No Child Left Behind 
and as it left this committee--I thought was excellent, and it 
provided more funding for math and science partnerships than we 
had had for the Eisenhower program. Unfortunately, when it came 
back from the Senate and from conference, it did not have that. 
And we have been trying to get it back up here ever since, and 
I hope in this next iteration of No Child Left Behind, we can 
do it right.
    Let me raise a different question which several of you have 
alluded to. I did not get into the business of trying to 
improve math and science education. I centered on the 
elementary schools because I thought the high schools were, 
really, in fairly reasonable shape, and so I spent all of my 
efforts on the elementary schools. It is a totally different 
area because you do not have teachers trained in a discipline 
so much, and I just wonder about your ideas.
    How can we more effectively train the elementary 
schoolteacher, the average one--not the science specialist, but 
the average elementary schoolteacher--to do a better job of 
teaching science? Because the action starts there. If the kids 
are not excited about science through the first through eighth 
grades, you are not likely to see them selecting your classes, 
other than the required ones in your high school courses. And 
if they do not take the high school courses, they are 
automatically excluded from a very large number of professional 
programs when they get to the university. What comments do you 
have on that?
    Ms. McLean. I work with our elementary teachers. I do 
basically a volunteer program where we go in, and I meet with 
them once a month, and it is volunteer. I will take the 
standard--one standard for the day and bring in real cheap 
equipment that they could buy from home, and we will just start 
talking about the ideas and how to teach and the 
misconceptions. They do not have that. Right now, I am very 
concerned about this for our district because, with the Reading 
First--we are a Reading First school--the instructional time 
has been taken away, so most of our teachers are not even doing 
science. So I am terrified about getting these students in a 
few years and trying to make up that difference that those 
colleagues should have done for the last 5 years.
    The best of our elementary teachers are doing science for 
only half the year and social studies for the other half of the 
year because there is so much emphasis and direct time 
structured for the reading, and we are under one of those 
programs where they have to be scripted. All of the other 
textbooks and resources and literature had to be put in 
closets, and they are not allowed to use them. If they are on a 
science theme, they cannot get out a butterfly--if they are 
reading about butterflies, they cannot get out a butterfly and 
do the whole metamorphosis thing. So I am very concerned, and 
so are the teachers, so they voluntarily work with me after 
school once a month, and we look at how we can integrate it and 
how we can work it in, very simple things.
    I am not sure what to do at the college level with that, if 
they need to be put through the steps of a modified biology 
course and a modified chemistry course to get some more of that 
content, because--and they are very uncertain. One of the 
reasons they do not teach science, the ones who do not, is they 
are so unsure of themselves, and you know, they will ask me a 
question to take it to a deeper level, and I will just model 
for them, and say, ``Well, I do not know, but what are you 
seeing?'' you know, just to get them--to encourage them to play 
with the stuff, to play with their kids. I mean, it is a start, 
and I always find it disheartening when I ask--you know, when I 
am trying to teach about photosynthesis and respiration and 
transpiration, and I say, ``Well, remember when you put celery 
in colored water, and the leaves turned purple?'' they are all 
``What?'' you know, the sophomore kids say, ``Let us do that,'' 
and that is a simple experiment that should be happening.
    So our districts, we are looking at realigning so that we 
can have eight authentic experiments at each level all the way 
up, so at least the kids are coming with common backgrounds. So 
even if they cannot spend the time that they want to when they 
hit junior high and high school, at least we have something to 
build from--we have experiences to build from--and I am not 
sure how to do that in the college setting.
    Mr. McKeon. Thank you for the example you are setting for a 
lot of other teachers. Thank you.
    Chairman Miller. Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I have to add my remarks to those of my colleagues already 
stated. This has been a really very important hearing, and 
certainly the comments that have come from each and every one 
of you will help us to embark upon the types of reform and the 
types of deep inquiry into the redevelopment as we go forth 
with No Child Left Behind.
    It is very clear with respect to the research that good 
teachers do make good students, and students who get several 
effective teachers in a row will soar no matter what their 
family backgrounds are, while students of even two ineffective 
teachers in a row rarely recover from that.
    Under the No Child Left Behind Act, every State and every 
school district must ensure that low-income students have their 
fair share of qualified and experienced teachers. However, the 
reality of it is that classrooms in highly deficient or high 
poverty rate schools and oftentimes largely minority or 
immigrant community schools are far more likely to be taught by 
teachers out of their field of expertise.
    I just wanted to sort of draw on some of my own 
experiences, having come from the New York City School System. 
In my formative years, outside of my parents and perhaps my 
immediate family, my teacher was the most profound adult in my 
life. And today, there are so many socioeconomic factors that 
go into the psyche of teaching in communities that have these 
deficiencies.
    I wanted to raise a couple of questions because we are 
trying to get some tangibles here, but so much of what happens 
in the classroom there is not a measure for. And I wanted to 
ask what we could do in particular around what I would call 
``acquaintance and engagement.''
    For many new teachers, no matter what the incentive, if you 
are unacquainted and you are not engaged in the communities in 
which you are placed to educate children, the disconnect has a 
profound effect on that child's ability to really love 
learning. And I say ``love learning'' because you are 
developing students at the elementary, going into the middle 
school stage, and being a student is very important in the 
exchange between the teacher and the pupil.
    I wanted to get some feedback from whomever on the panel 
about what is being done at that level. You know, we have 
talked about how expensive it is. In New York City, you know, 
for teachers to live there and be engaged in that way is a 
huge, huge challenge. And I have to applaud the chancellor 
because he has been working it out, but for a long time that 
has been a challenge. And even things like parking for teachers 
in our town is a challenge. So as to just some things that can 
ease those burdens, can we have some conversations around that 
and perhaps how we can address those types of engagements in No 
Child Left Behind?
    Everyone nodded. Do not all jump first.
    Chairman Miller. Anyone? Ferris Bueller? Anyone?
    Mr. Ritter. I will react quickly to your initial question, 
Congresswoman Clarke.
    You mentioned that incentives do not affect us, and I would 
suggest that it takes a special person to do both, for example, 
to be able to know--I mean, we all have limited amounts of 
skills, and to be really smart analytically, scientifically, 
and mathematically and then to have the personality that makes 
us want to engage with kids and these sorts of things, that is 
unique, I would imagine, amongst the populace. And you have to 
pay for unique skills. So I would argue that incentives do 
matter.
    As the teachers earlier had mentioned, you know, you might 
feel like coming in and just handing out a worksheet or you 
might feel like really engaging with the students and trying to 
give a lesson that they can get into. And that takes more 
energy, and it is possible that the incentives created by 
differential pay might tilt the balance.You know, one day, I 
come in and I am tired, and I am just not sure if I can give 
that extra effort today. And I think that is part of the goal 
of performance-based pay. It is to encourage us, when we are on 
the border, to give that extra effort and to do this extra 
work. And if the work involves being engaged, and I know that 
if I get engaged and go out into the community and get the 
students engaged in a lesson and then they are more likely to 
learn, performance pay would encourage me to do that as well.
    So I would suggest there is not a total disconnect between 
the incentive-based pay and the issue you describe.
    Ms. McLean. In our report, we do have a piece centered 
around community involvement and after-education programs 
because that does take a tremendous amount of time. And so you 
can pay people for doing that and for going the extra mile. 
With some people, depending on where they are in their career 
and if they are a new mother as well, they are not going to 
have time to do that, so they will not seek out that pay. But 
for someone whose children have gone off to college, you have 
the time to devote to that, and you could be rewarded in that 
kind of aspect. But I cannot speak for New York because I am 
rural, so I am in the community, and I go grocery shopping, and 
I see my parents, and I go to church, you know. So I do not 
know how to solve the city issue.
    Mr. Dale. One of the roles that I outlined in my earlier 
testimony deals with this particular area, and that is making 
connections with kids in the community. And much as Ms. McLean 
was saying, you have to recognize that if you are asking people 
to do that as part of their extended roles from the classroom, 
you pay people for it. Which is why I have tried to move into 
these full-time teaching contracts so that outside of the 
classroom, then, that is one of the roles, is to begin to work 
with the members of the community and whatever it takes to make 
those kinds of, I will say, really strong connections.
    Chairman Miller. Thank you.
    Mrs. Davis.
    Mrs. Davis of California. Thank you very much. Thank you, 
Mr. Chairman.
    I think this hearing has been helpful, partly because we do 
not have bells going off, and we actually can concentrate.
    Chairman Miller. That is one of the advantages of staying 
and working until 1:30 in the morning.
    Mrs. Davis of California. Exactly. Exactly.
    Thank you all for being here.
    One of the, I think, models is that we are always looking 
for best practices, and I got attracted, actually, as a school 
board member and then as a State legislator to the National 
Board Certification Program because I know that when my kid is 
sick or hurts himself or needs surgery, I want to go to a 
board-certified physician, and I want to go to a good teaching 
hospital. So it seems to me that there was sort of a connection 
there between how people think about teachers and how they 
would think about other professions that they seek out in their 
lives.
    So I wonder if you could, without going into a great deal 
of detail, Ms. McLean--there is something about the National 
Board program that attracts a certain kind of teacher, I think. 
It is also teachers who want to be very reflective in their 
teaching, very, very positive, I believe, but it has not really 
spread nationwide in the way that I would have thought perhaps 
it would happen. If you could, address that very briefly.
    Getting back to Chancellor Klein and that environment that 
is respectful of teachers, how do you think we could best 
utilize a program like that? I would also ask whether we need 
to have principal academies that kind of reflect National Board 
principal certification and if that would even make a 
difference. Is that something that we ought to use as a model 
and try and expand and think about?
    There have been some--I do not know. I am not sure exactly 
what the obstacles to that have been, but some people--somehow 
this ``national'' in the title seems to throw people off. Is it 
worth pursuing that or--I do not believe that all teachers who 
are great teachers have to be nationally board-certified. It is 
not a panacea, but it does provide this reflective model that 
seems to make sense, and it also could be a model for getting 
nationally board-certified teachers, who happen to be certified 
in math and science at the best schools, if that became the 
standard that Federal dollars would go towards.
    Could you help me out with that?
    Would any of you like to comment as well?
    Ms. McLean. From National Board certification, what drove 
me to seek it is, I was the president of our State Science 
Teachers Association at that time, and it was just coming on 
the front, and people were forming opinions. I do not like to 
have an opinion without an experience, so I put myself through 
the process so I could speak for or against or whatever.
    Going through that process really transformed me. I learned 
how to be really self-reflective. You have to videotape 
yourself. So you think you are doing these things, and then 
when you start watching the videotape, you realize what else is 
going on. So I was my own personal critic, and I can make those 
types of changes.
    So the process of that certification helped change me, and 
so people can do that process outside of the certification. 
Plus, I worked with--it helped me become stronger with my 
colleagues because they had to be critics and help me. They had 
to help judge me, and I had to have them come in. So our 
district does not have a program where we self-reflect or 
review each other, so we did that on our own, and I think it 
was very valuable.
    Mr. Klein. I think it is an important point.
    I guess, with the principalship I think in particular, I 
would suggest that a place where I think Congress could make a 
difference is with the kind of program like New Leaders for New 
Schools. You are probably familiar with John Schnyer, who used 
to work for Vice President Gore. After he left, he started this 
program, and he is training principals throughout the country. 
It is very hands-on. It is not academic. We have a version of 
it called the ``Leadership Academy'' that we started, and we 
called it ``boot camp for principals.'' again, I think Congress 
could put real seed money in this.
    The only caution I have--and I know John said it and I know 
we have here--is that we have lots of needs in education, but 
we have chronic needs in our high-needs' communities. And if we 
are going to close the achievement gap, we have got to be 
somewhat more selective about these programs. So what I tell 
the people--we provide them 4 months of intensive training and 
then a school year of mentorship with our best principals, and 
they walk in their footsteps. And then the next year, we make 
them a principal. It is a 13-month type of program, and I tell 
them, ``I am willing to pay for this training on the condition 
that you will go to work in one of my high-needs', high-poverty 
schools.'' that is what John has done. Dr. Sanford came out of 
that program.
    John is now doing that in D.C. and in other cities, and it 
is having a very powerful effect, but I think you have got to 
understand that it has got to be nonacademic, very hands-on, 
and get to the question that Ms. Clarke asked before. These 
people have got to get into the community, and they have got to 
understand the challenges. This is an enormously successful 
model which, I would think, we could put a lot more dollars 
against in return for people taking on the tough challenges.
    Mrs. Davis of California. Does anybody else want to 
comment?
    Yes.
    Mr. Dale. Let me just reinforce that one very quickly, 
because part of New York, and then Dr. Burke and I are all part 
of a philanthropic effort to provide and create leadership 
training opportunities. And we found it to be, just like Joel 
has talked about, very effective. It has to be an intentional 
program, though. It was driven by, in this case, philanthropic 
contributions to a variety of school systems that were engaged 
in developing leaders.
    Mrs. Davis of California. Thank you.
    I guess the one thing I would say, Mr. Chairman, really 
quickly is that I do think the comment was made by Mr. McKeon 
that somehow there is a perception that, in fact, teachers do 
not support any kind of performance pay. I do think that, if we 
can find that area where they do--the National Board of 
Certification is supported by teachers in some States, and they 
actually get quite a bonus. And there are some incentives, I 
think even in California now, for those teachers to go into the 
low-performing schools.
    I really appreciate the comments of how it has got to--you 
know, it cannot be just any kind of program that you create. I 
mean, it has to be something that actually does have a link 
with performance, and that can be done. I would think that it 
could be done everywhere if we could get the right incentive at 
the Federal level.
    Thank you.
    Chairman Miller. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you very much, and thank you, Mr. 
Chairman, for calling this very important and interesting 
hearing.
    As a former teacher myself--of course, we were not doing 
200 g's a year at that time. As a matter of fact, my first 
salary was $3,899 a year. It was not a log cabin either. But 
things have certainly changed, that is for sure. I taught for 
about 10 years in both the secondary and middle and elementary 
schools. I also was the president of an elementary school PTA, 
which is a question that I have not heard very much mentioned.
    What about the parent involvement? I mean, I know that is 
separate from teachers' performance, but just in general--and 
perhaps our principal would know. We in the old days had 
standing room only in the auditorium when we had a PTA meeting. 
Things have certainly changed a lot. There are a lot of demands 
on people, especially living in inner cities, and it is tough 
to make it. As I mentioned, in my district, I have, like Mr. 
Kildee, a very diverse district. I have probably the most 
affluent community in the United States in one part--in 
Milburn, south of Short Hills in New Jersey. And in the other 
part, I have Newark. Believe it or not, the school--I spoke at 
their graduation last year--will be 160 years old next year. It 
was built in 1848. A number of the schools were built before 
the 1900s. So we see the disparity. Of course, we have a school 
that is maybe 125 years old, Harriett Tubman in Newark, that is 
putting out students who are excellent. So the age of the 
school does not necessarily always--of course, that is a very 
unique place, Harriett Tubman. That is probably why it has that 
name. It is not a typical school in Newark, but it is a public 
school with public school teachers, a teachers' union and all 
the rest. They are doing a fantastic job.
    So, just quickly, about--oh, and incidentally, I did my 
graduate work at Springfield College. During the summers, I 
drove up there, and so I certainly have an appreciation for 
your fine town.
    Would anyone like to comment on the parent involvement?
    Mr. Sanford. One of the things that I have heard over and 
over throughout the panel this morning and even to your 
question, Ms. Clarke, is it is the high-quality principal 
programs as well as high-quality teacher training programs.
    In all of those programs, one of the things that they 
emphasize is that the parental involvement is key, and it is 
critical. But also, one of the things that I think is really 
important for us to recognize is these programs teach you to do 
that.
    One of the things that Mr. Klein said earlier is that we 
have 13 months where we work side by side with a principal who 
has been doing a fantastic job, and I think that one of the 
things that I learned is that they emphasize over and over 
again that you cannot do it without the parents. So one of the 
things that I teach my teachers is that at the beginning of the 
school year, we spend time going into the community, learning 
the families, learning exactly who they are, and building those 
relationships that really will take us throughout the year.
    Mr. Podesta. Mr. Payne, you mentioned that the buildings 
are more than 100 years old. We also have a school calendar 
that is more than 100 years old.
    I think one of the things that has been successful--Dr. 
Dale mentioned this--in terms of thinking about teachers is, in 
having a full-time, year-round job, the programs that are 
successful at bringing people in have extended the day, and 
they extend the school calendar. The experiments, I think, that 
are very promising in terms of actually bringing the parents 
into the system have really utilized kind of a different model 
of teaching rather than sort of the 9:00 to 3:00, very long 
intersession break in the summer.
    Mr. Burke. I would like to also comment.
    One of the things that we are starting to do in Springfield 
is create a home visitation program. Our teachers' union has 
actually been interested in doing that. There was a big project 
out in Sacramento, California that was evidently very 
successful, and we have several groups locally that have been 
interested in developing a partnership to really make that 
happen. So we are just getting that underway now.
    Connected to the question that Congresswoman Clarke asked 
earlier, you know in our situation there is a disconnect. Sixty 
percent of our teachers do not live in the city, and 80 percent 
of our teachers--78 percent are white--78 percent of our 
students are not white. So you know, there is a community 
disconnect there that has to be bridged, and we are really 
hopeful that this home visitation program, as we get it 
underway and really look at it carefully, might be helpful in 
that regard.
    Mr. Payne. Well, let me thank you all, and I think that 
that is an excellent idea. In the old days, it was just 
something that you did. You know, if a kid was acting up, you 
went by the house and rang the bell at 6 o'clock. You saw the 
parent, had a discussion. The next day, the kid was doing much 
better--he came in limping, but he was better--but you know, 
those days have changed. The rules have changed, you know, but 
I think that those kinds of programs definitely work.
    Thank you, Mr. Chairman.
    Yes, ma'am.
    Ms. Bibeau. I have just started reviewing the mentorship 
plan in our district, but as we get new teachers at my school--
I have never thought of it in the mentor role, but that was a 
very important part, that new teachers in our school would 
start talking about the community, and I often--then at certain 
points, they will drive you around, give you a tour, you know, 
and will start--we will see families out. Where do families go? 
We go to some of those places where they can meet families in a 
neutral place, and then we look at ways like the home visit 
factor. But we look at ways of how do we get into the homes, 
you know, whether it is helping some families, assisting them 
with computer access--because a lot of people would buy a 
computer and would not have the basic background--or bringing a 
book on the child's birthday or, you know, some of those little 
things that a teacher could do to just get into the community 
and meet the families.
    Chairman Miller. Well, thank you very much, and--yes, 
Susan.
    Mrs. Davis of California. Could I just for a second----
    Chairman Miller. You are now on their time. You do whatever 
you want.
    Mrs. Davis of California. Okay. This is part of the 
discussion, because--I mean, it is that cultural kind of 
congruency because a lot of kids grow up, and it is very 
congruent for them to go right on to school; and for other 
children, it is not necessarily in the same context. And so 
sometimes I do not think it is so much as just bringing the 
parents in, but we really do--it is the visits, but it is 
really an attitude about bringing what comes from the home into 
the school and finding ways of making those connections.
    And I think that we can teach people how to do that, and 
some schools do a great job at it; but as for others, I do not 
think they quite get that connection about why it is important 
because of that movement of kids into the school system that 
may not necessarily be as natural as it is for some children.
    So thank you. I appreciate that.
    Chairman Miller. Thank you. Let me say that my watchword 
for education at the moment is ``engagement.'' You clearly have 
engaged the members of this committee, and I thank you for 
doing that. I think you will find that you have been testifying 
at a defining hearing in terms of our reconsideration and 
reauthorization of No Child Left Behind, and I really thank you 
for your expertise, your experience, and all of your 
suggestions. And we look forward to working with you as we get 
down to the hard part here in reauthorization. Thank you again 
for your time before the committee.
    The committee will stand adjourned.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this important hearing on how 
to boost quality in the teaching profession through the reauthorization 
of No Child Left Behind.
    I would like to extend a warm welcome to today's witnesses. I 
appreciate all of you for taking the time to be here and look forward 
to your testimony.
    In honor of Teacher Appreciation Day, which was observed earlier 
this week, I would first like to take this opportunity to thank all of 
the great teachers across the country. Teachers do a remarkably hard 
and important job. The vast majority of them do this job extremely well 
and there good work is overlooked far too frequently.
    There is nothing more important to the education of this nation's 
children than ensuring that they are taught by excellent teachers. 
Research has shown that the single most important factor in determining 
a child's success in school is the quality of his or her teacher.
    The reauthorization of NCLB provides this committee with the 
opportunity to reexamine how effective the law has been in promoting 
teacher quality. I look forward to working with the members of this 
committee to build on the successes that NCLB has had in promoting 
teacher quality and in improving the aspects of NCLB that have not 
helped advance teacher quality.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [Additional submissions by Mr. Miller follow:]
    [The prepared statement of Ms. Darling-Hammond follows:]

   Prepared Statement of Linda Darling-Hammond, Charles E. Ducommun 
           Professor, Stanford University School of Education

    I thank Chairman Miller and the members of the Committee for the 
opportunity to offer testimony on the re-authorization of ESEA, in 
particular the ways in which we measure and encourage school progress 
and improvement. My perspective on these issues is informed by my 
research, my work with states and national organizations on standards 
development, and my work with local schools. I have studied the 
implementation of No Child Left Behind,\1\ as well as testing and 
accountability systems within the United States and abroad.\2\ I have 
also served as past Chair of the New York State Council on Curriculum 
and Assessment and of the Chief State School Officers' INTASC Standards 
Development Committee. I work closely with a number of school districts 
and local schools on education improvement efforts, including several 
new urban high schools that I have helped to launch. Thus, I have 
encountered the issues of school improvement from both a system-wide 
and local school vantage point.
    I am hopeful that this re-authorization can build on the strengths 
and opportunities offered by No Child Left Behind, while addressing 
needs that have emerged during the first years of the law's 
implementation. Among the strengths of the law is its focus on 
improving the academic achievement of all students, which triggers 
attention to school performance and to the needs of students who have 
been underserved, and its insistence that all students are entitled to 
qualified teachers, which has stimulated recruitment efforts in states 
where many disadvantaged students previously lacked this key resource 
for learning.
    The law has succeeded in getting states, districts, and local 
schools to pay attention to achievement. The next important step is to 
ensure that the range of things schools and states pay attention to 
actually helps them improve both the quality of education they offer to 
every student and the quality of the overall schooling enterprise. In 
order to accomplish this, I would ask you to actively encourage states 
to:
    <bullet> Develop accountability systems that use multiple measures 
of learning and other important aspects of school performance in 
evaluating school progress;
    <bullet> Differentiate school improvement strategies for schools 
based on a comprehensive analysis of their instructional quality and 
conditions for learning.
Why Use Multiple Measures?
    There are at least three reasons to gauge student and school 
progress based on multiple measures of learning and school performance:
    <bullet> To direct schools' attention and effort to the range of 
measures that are associated with high-quality education and 
improvement;
    <bullet> To avoid dysfunctional consequences that can encourage 
schools, districts, or states to emphasize one important outcome at the 
expense of another; for example, focusing on a narrow set of skills at 
the expense of others that are equally critical, or boosting test 
scores by excluding students from school; and
    <bullet> To capture an adequate and accurate picture of student 
learning and attainment that both measures and promotes the kinds of 
outcomes we need from schools.
Directing Attention to Measures Associated with School Quality
    One of the central concepts of NCLB's approach is that schools and 
systems will organize their efforts around the measures for which they 
are held accountable. Because attending to any one measure can be both 
partial and problematic, the concept of multiple measures is routinely 
used by policymakers to make critical decisions about such matters as 
employment and economic forecasting (for example, the Dow Jones Index 
or the GNP) and admission to college, where grades, essays, activities, 
and accomplishments are considered along with test scores.
    Successful businesses use a ``dashboard'' set of indicators to 
evaluate their health and progress, aware that no single indicator is 
sufficient to understand or guide their operations. This approach is 
designed to focus attention on those aspects of the business that 
describe elements of the business's current health and future 
prospects, and to provide information that employees can act on in 
areas that make a difference for improvement. So, for example, a 
balanced scorecard is likely to include among its financial indicators 
not only a statement of profits, but also cash flow, dividends, costs 
and accounts receivable, assets, inventory, and so on. Business leaders 
understand that efforts to maximize profits alone could lead to 
behaviors that undermine the long-term health of the enterprise.
    Similarly, a single measure approach in education creates some 
unintended negative consequences and fails to focus schools on doing 
those things that can improve their long-term health and the education 
of their students. Although No Child Left Behind calls for multiple 
measures of student performance, the implementation of the law has not 
promoted the use of such measures for evaluating school progress. As I 
describe in the next section, the focus on single, often narrow, test 
scores in many states has created unintended negative consequences for 
the nature of teaching and learning, for access to education for the 
most vulnerable students, and for the appropriate identification of 
schools that are in need of improvement.
    A multiple measures approach that incorporates the right 
``dashboard'' of indicators would support a shift toward ``holding 
states and localities accountable for making the systemic changes that 
improve student achievement'' as has been urged by the Forum on 
Education and Accountability. This group of 116 education and civil 
rights organizations--which include the National Urban League, NAACP, 
League of United Latin American Citizens, Aspira, Children's Defense 
Fund, National Alliance of Black School Educators, and Council for 
Exceptional Children, as well as the National School Boards 
Association, National Education Association, and American Association 
of School Administrators--has offered a set of proposals for NCLB that 
would focus schools, districts, and states on developing better 
teaching, a stronger curriculum, and supports for school improvement.
Avoiding Dysfunctional Consequences
    Another reason to use a multiple measures approach is to avoid the 
negative consequences that occur when one measure is used to drive 
organizational behavior.
    The current accountability provisions of the Act, which are focused 
almost exclusively on school average scores on annual tests, actually 
create large incentives for schools to keep students out and to hold 
back or push out students who are not doing well. A number of studies 
have found that systems that reward or sanction schools based on 
average student scores create incentives for pushing low-scorers into 
special education so that their scores won't count in school 
reports,\3\ retaining students in grade so that their grade-level 
scores will look better,\4\ excluding low-scoring students from 
admissions,\5\ and encouraging such students to leave schools or drop 
out.\6\
    Studies in New York,\7\ Texas,\8\ and Massachusetts,\9\ among 
others, have showed how schools have raised their test scores while 
``losing'' large numbers of low-scoring students. For example, a recent 
study in a large Texas city found that student dropouts and push outs 
accounted for most of the gains in high school student test scores, 
especially for minority students. The introduction of a high-stakes 
test linked to school ratings in the 10th grade led to sharp increases 
in 9th grade student retention and student dropout and disappearance. 
Of the large share of students held back in the 9th grade, most of them 
African American and Latino, only 12% ever took the 10th grade test 
that drove school rewards. Schools that retained more students at grade 
9 and lost more through dropouts and disappearances boosted their 
accountability ratings the most. Overall, fewer than half of all 
students who started 9th grade graduated within 5 years, even as test 
scores soared.\10\
    Paradoxically, NCLB's requirement for disaggregating data and 
tracking progress for each subgroup of students increases the 
incentives for eliminating those at the bottom of each subgroup, 
especially where schools have little capacity to improve the quality of 
services such students receive. Table 1 shows how this can happen. At 
``King Middle School,'' average scores increased from the 70th to the 
72nd percentile between the 2002 and 2003 school year, and the 
proportion of students in attendance who met the proficiency standard 
(a score of 65) increased from 66% to 80%--the kind of performance that 
a test-based accountability system would reward. Looking at subgroup 
performance, the proportion of Latino students meeting the standard 
increased from 33% to 50%, a steep increase.
    However, not a single student at King improved his or her score 
between 2002 and 2003. In fact, the scores of every single student in 
the school went down over the course of the year. How could these steep 
improvements in the school's average scores and proficiency rates have 
occurred? A close look at Table 1 shows that the major change between 
the two years was that the lowest-scoring student, Raul, disappeared. 
As has occurred in many states with high stakes-testing programs, 
students who do poorly on the tests--special needs students, new 
English language learners, those with poor attendance, health, or 
family problems--are increasingly likely to be excluded by being 
counseled out, transferred, expelled, or by dropping out.

   TABLE 1.--KING MIDDLE SCHOOL: REWARDS OR SANCTIONS? THE RELATIONSHIP BETWEEN TEST SCORE TRENDS AND STUDENT
                                                   POPULATIONS
----------------------------------------------------------------------------------------------------------------
                                                                 2002-03                       2003-04
----------------------------------------------------------------------------------------------------------------
Laura...............................................                          100                            90
James...............................................                           90                            80
Felipe..............................................                           80                            70
Kisha...............................................                           70                            65
Jose................................................                           60                            55
Raul................................................                           20   ............................
                                                                  Ave. Score = 70               Ave. Score = 72
                                                         % meeting standard = 66%      % meeting standard = 80%
----------------------------------------------------------------------------------------------------------------

    This kind of result is not limited to education. When one state 
decided to rank cardiac surgeons based on their mortality rates, a 
follow up investigation found that surgeons' ratings went up as they 
stopped taking on high-risk clients. These patients were referred out 
of state if they were wealthy, or were not served, if they were poor.
    The three national professional organizations of measurement 
experts have called attention to such problems in their joint Standards 
for Educational and Psychological Testing, which note that:
    Beyond any intended policy goals, it is important to consider 
potential unintended effects that may result from large-scale testing 
programs. Concerns have been raised, for instance, about narrowing the 
curriculum to focus only on the objectives tested, restricting the 
range of instructional approaches to correspond to the testing format, 
increasing the number of dropouts among students who do not pass the 
test, and encouraging other instructional or administrative practices 
that may raise test scores without affecting the quality of education. 
It is important for those who mandate tests to consider and monitor 
their consequences and to identify and minimize the potential of 
negative consequences.\11\
    Professional testing standards emphasize that no test is 
sufficiently reliable and valid to be the sole source of important 
decisions about student placements, promotions, or graduation, but that 
such decisions should be made on the basis of several different kinds 
of evidence about student learning and performance in the classroom. 
For example, Standard 13.7 states:
    In educational settings, a decision or characterization that will 
have major impact on a student should not be made on the basis of a 
single test score. Other relevant information should be taken into 
account if it will enhance the overall validity of the decision.\12\
    The Psychological Standards for Testing describe several kinds of 
information that should be considered in making judgments about what a 
student knows and can do, including alternative assessments that 
provide other information about performance and evidence from samples 
of school work and other aspects of the school record, such as grades 
and classroom observations. These are particularly important for 
students for whom traditional assessments are not generally valid, such 
as English language learners and special education students. Similarly, 
when evaluating schools, it is important to include measures of student 
progress through school, coursework and grades, and graduation, as part 
of the record about school accomplishments.
Evaluating Learning Well
    Indicators beyond a single test score are important not only for 
reasons of validity and fairness in making decisions, but also to 
assess important skills that most standardized tests do not measure. 
Current accountability reforms are based on the idea that standards can 
serve as a catalyst for states to be explicit about learning goals, and 
the act of measuring progress toward meeting these standards is an 
important force toward developing high levels of achievement for all 
students. However, an on-demand test taken in a limited period of time 
on a single day cannot measure all that is important for students to 
know and be able to do. A credible accountability system must rest on 
assessments that are balanced and comprehensive with respect to state 
standards. Multiple-choice and short-answer tests that are currently 
used to measure standards in many states do not adequately measure the 
complex thinking, communication, and problem solving skills that are 
represented in national and state content standards.
    Research on high-stakes accountability systems shows that, ``what 
is tested is what is taught,'' and those standards that are not 
represented on the high stakes assessment tend to be given short shrift 
in the curriculum.\13\ Students are less likely to engage in extended 
research, writing, complex problem-solving, and experimentation when 
the accountability system emphasizes short-answer responses to 
formulaic problems. These higher order thinking skills are those very 
skills that often are cited as essential to maintaining America's 
competitive edge and necessary for succeeding on the job, in college, 
and in life. As described by Achieve, a national organization of 
governors, business leaders, and education leaders, the problem with 
measures of traditional on-demand tests is that they cannot measure 
many of the skills that matter most for success in the worlds of work 
and higher education:
    States * * * will need to move beyond large-scale assessments 
because, as critical as they are, they cannot measure everything that 
matters in a young person's education. The ability to make effective 
oral arguments and conduct significant research projects are considered 
essential skills by both employers and postsecondary educators, but 
these skills are very difficult to assess on a paper-and pencil 
test.\14\
    One of the reasons that U.S. students fall further and further 
behind their international counterparts as they go through school is 
because of differences in curriculum and assessment systems. 
International studies have found that the U.S. curriculum focuses more 
on superficial coverage of too many topics, without the kinds of in-
depth study, research, and writing needed to secure deep understanding. 
To focus on understanding, the assessment systems used in most high-
achieving countries around the world emphasize essay questions, 
research projects, scientific experiments, oral exhibitions and 
performances that encourage students to master complex skills as they 
apply them in practice, rather than multiple-choice tests.
    As indicators of the growing distance between what our education 
system emphasizes and what leading countries are accomplishing 
educationally, the U.S. currently ranks 28th of 40 countries in the 
world in math achievement--right above Latvia--and 19th of 40 in 
reading achievement on the international PISA tests that measure 
higher-order thinking skills. And while the top-scoring nations--
including previously low-achievers like Finland and South Korea--now 
graduate more than 95% of their students from high school, the U.S. is 
graduating about 75%, a figure that has been stagnant for a quarter 
century and, according to a recent ETS study, is now declining. The 
U.S. has also dropped from 1st in the world in higher education 
participation to 13th, as other countries invest more resources in 
their children's futures.
    Most high-achieving nations' examination systems include multiple 
samples of student learning at the local level as well as the state or 
national level. Students' scores are a composite of their performance 
on examinations they take in different content areas--featuring 
primarily open-ended items that require written responses and problem 
solutions--plus their work on a set of classroom tasks scored by their 
teachers according to a common set of standards. These tasks require 
them to conduct apply knowledge to a range of tasks that represent what 
they need to be able to do in different fields: find and analyze 
information, solve multi-step real-world problems in mathematics, 
develop computer models, demonstrate practical applications of science 
methods, design and conduct investigations and evaluate their results, 
and present and defend their ideas in a variety of ways. Teaching to 
these assessments prepares students for the real expectations of 
college and of highly skilled work.
    These assessments are not used to rank or punish schools, or to 
deny promotion or diplomas to students. In fact, several countries have 
explicit proscriptions against such practices. They are used to 
evaluate curriculum and guide investments in professional learning--in 
short, to help schools improve. By asking students to show what they 
know through real-world applications of knowledge, these nations' 
assessment systems encourage serious intellectual activities on a 
regular basis. The systems not only measure important learning, they 
help teachers learn how to design curriculum and instruction to 
accomplish this learning.
    It is worth noting that a number of states in the U.S. have 
developed similar systems that combine evidence from state and local 
standards-based assessments to ensure that multiple indicators of 
learning are used to make decisions about individual students and, 
sometimes, schools. These include Connecticut, Kentucky, Maine, 
Nebraska, New Hampshire, Oregon, Rhode Island, Pennsylvania, Vermont, 
and Wyoming, among others. However, many of these elements of state 
systems are not currently allowed to be used to gauge school progress 
under NCLB.
    Encouraging these kinds of practices could help improve learning 
and guide schools toward more productive instruction. Studies have 
found that performance assessments that are administered and scored 
locally help teachers better understand students' strengths, needs, and 
approaches to learning, as well as how to meet state standards.\15\ 
Teachers who have been involved in developing and scoring performance 
assessments with other colleagues have reported that the experience was 
extremely valuable in informing their practice. They report changes in 
both the curriculum and their instruction as a result of thinking 
through with colleagues what good student performance looks like and 
how to better support student learning on specific kinds of tasks.
    These goals are not well served by external testing programs that 
send secret, secured tests into the school and whisk them out again for 
machine scoring that produces numerical quotients many months later. 
Local performance assessments provide teachers with much more useful 
classroom information as they engage teachers in evaluating how and 
what students know and can do in authentic situations. These kinds of 
assessment strategies create the possibility that teachers will not 
only teach more challenging performance skills but that they will also 
be able to use the resulting information about student learning to 
modify their teaching to meet the needs of individual students. Schools 
and districts can use these kinds of assessments to develop shared 
expectations and create an engine for school improvement around student 
work.
    Research on the strong gains in achievement shown in Connecticut, 
Kentucky, and Vermont in the 1990s attributed these gains in 
substantial part to these states' performance-based assessment systems, 
which include such local components, and related investments in 
teaching quality.\16\ Other studies in states like California, Maine, 
Maryland, and Washington,\17\ found that teachers assigned more 
ambitious writing and mathematical problem solving, and student 
performance improved, when assessments included extended writing and 
mathematics portfolios and performance tasks. Encouraging these kinds 
of measures of student performance is critical to getting the kind of 
learning we need in schools.
    Not incidentally, more authentic measures of learning that go 
beyond on-demand standardized tests to look directly at performance are 
especially needed to gain accurate measures of achievement for English 
language learners and special needs students for whom traditional tests 
are least likely to provide valid measures of understanding.\18\
What Indicators Might be Used to Gauge School Progress?
    A key issue is what measures should be used to determine Adequate 
Yearly Progress (AYP) or the alternative tools that are used for 
addressing NCLB's primary goals, e.g. assuring high expectations for 
all students, and helping schools address the needs of all students. 
Current AYP measures are too narrow in several respects: They are based 
exclusively on tests which are often not sufficient measures of our 
educational goals; they ignore other equally important student 
outcomes, including staying in school and engaging in rigorous 
coursework; they ignore the growth made by students who are moving 
toward but not yet at a proficiency benchmark, as well as the gains 
made by students who have already passed the proficiency benchmark; and 
they do not provide information or motivation to help schools, 
districts, and states improve critical learning conditions.
    This analysis suggests that school progress should be evaluated on 
multiple measures of student learning--including local and state 
performance assessments that provide evidence about what students can 
actually do with their knowledge--and on indicators of other student 
outcomes, including such factors as student progress and continuation 
through school, graduation, and success in rigorous courses. The 
importance of these indicators is to encourage schools to keep students 
in school and provide them with high-quality learning opportunities--
elements that will improve educational opportunities and attainment, 
not just average test scores.
    To these two categories of indicators, I would add indicators of 
learning conditions that point attention to both learning opportunities 
available to students (e.g. rigorous courses, well-qualified teachers) 
and to how well the school operates. In the business world, these kinds 
of measures are called leading indicators, which represent those things 
that employees can control and improve upon. These typically include 
evidence of customer satisfaction, such as survey data, complaints and 
repeat orders; as well as of employee satisfaction and productivity, 
such as employee turnover, project delays, evidence of quality and 
efficiency in getting work done; reports of work conditions and 
supports, and evidence of product quality.
    Educational versions of these kinds of indicators are available in 
many state accountability systems. For example, State Superintendent 
Peter McWalters noted in his testimony to this committee that Rhode 
Island uses several means to measure school learning conditions. Among 
them is an annual survey to all students, teachers, and parents that 
provides data on ``Learning Support Indicators'' measuring school 
climate, instructional practices, and parental involvement. In 
addition, Rhode Island, like many other states, conducts visits to 
review every school in the state every five years, not unlike the 
Inspectorate system that is used in many other countries. These kinds 
of reviews can examine teaching practices, the availability and 
equitable allocation of school resources, and the quality of the 
curriculum, as it is enacted.
    Ideally, evaluation of school progress would be based on a 
combination of these three kinds of measures and would emphasize gains 
and improvement over time, both for the individual students in the 
school and for the school as a whole. Along with data about student 
characteristics, an indicator system could include:
    <bullet> Measures of student learning: both state tests and local 
assessments, including performance measures that assess higher-order 
thinking skills and understanding, including student work samples, 
projects, exhibitions, or portfolios.
    <bullet> Measures of additional student outcomes: data about 
attendance, student grade-to-grade progress (promotion / retention 
rates) and continuation through school (ongoing enrollment), 
graduation, and course success (e.g. students enrolled in, passing, and 
completing rigorous courses of study).
    <bullet> Measures of learning conditions, data about school 
capacity, such as teacher and other staff quality, availability of 
learning materials, school climate (gauged by students', parents', and 
teachers' responses to surveys), instructional practices, teacher 
development, and parental engagement.
    These elements should be considered in the context of student data, 
including information about student mobility, health, and welfare 
(poverty, homelessness, foster care, health care), as well as language 
background, race / ethnicity, and special learning needs--not a basis 
for accepting differential effort or outcomes, but as a basis for 
providing information needed to interpret and improve schools' 
operations and outcomes.
How Might Indicators be Used to Determine School Progress and 
        Improvement Strategies?
    The rationale for these multiple indicators is to build a more 
powerful engine for educational improvement by understanding what is 
really going on with students and focusing on the elements of the 
system that need to change if learning is to improve. High-performing 
systems need a regular flow of useful information to evaluate and 
modify what they are doing to produce stronger results. State and local 
officials need a range of data to understand what is happening in 
schools and what they should do to improve outcomes. Many problems in 
local schools are constructed or constrained by district and state 
decisions that need to be highlighted along with school-level concerns. 
Similarly, at the school level, teachers and leaders need information 
about how they are doing and how their students are doing, based in 
part on high-quality local assessments that provide rich, timely 
insights about student performance.
    Some states and districts have successfully put some of these 
indicators in place. The federal government could play a leadership 
role by not only encouraging multiple measures for assessing school 
progress and conditions for learning but by providing supports for 
states to build comprehensive databases to track these indicators over 
time, and to support valid, comprehensive information systems at all 
levels.\19\
    If we think comprehensively about the approach to evaluation that 
would encourage fundamental improvements in schools, several goals 
emerge. First, determinations of school progress should reflect an 
analysis of schools' performance and progress along several key 
dimensions. Student learning should be evaluated using multiple 
measures that provide comprehensive and valid information for all 
subpopulations. Targets should be based on sensible goals for student 
learning, examining growth from where students start, setting growth 
targets in relation to that starting point, and pegging ``proficiency'' 
at a level that represents a challenging but realistic standard, 
perhaps at the median of current state proficiency standards. Targets 
should also ensure appropriate assessment for special education 
students and English language learners and credit for the gains these 
students make over time. And analysis of learning conditions including 
the availability of materials, facilities, curriculum opportunities, 
teaching, and leadership should accompany assessments of student 
learning.
    A number of states already have developed comprehensive indicator 
systems that can be sources of such data, and the federal government 
should encourage states to propose different means for how to aggregate 
and combine these data. In addition, many states' existing assessment 
systems already provide different ways to score and combine state 
reference tests with local testing systems, locally administered 
performance tasks (which are often scored using state standards), and 
portfolios.\20\
    For evaluating annual progress, one likely approach would be to use 
an index of indicators, such as California's Academic Performance 
Index, which can include a weighted combination of data about state and 
local tests and assessments as well as other student outcome indicators 
like attendance, graduation, promotion rates, participation and pass 
rates or grades for academic courses. Assessment data from multiple 
sources and evidence of student progression through / graduation from 
school would be required components. Key conditions of learning, such 
as teacher qualifications, might also be required. Other specific 
indicators might be left to states, along with the decision of how much 
weight to give each component, perhaps within certain parameters (for 
example, that at least 50 percent of a weighted index would reflect the 
results of assessment data).
    Within this index, disaggregated data by race/ethnicity and income 
could be monitored on the index score, or on components of the overall 
index, so that they system pays ongoing attention to progress for 
groups of students. Wherever possible these measures should look at 
progress of a constant cohort of students from year to year, so that 
actual gains are observed, rather than changes in averages due to 
changes in the composition of the student population. Furthermore, 
gains for English language learners and special education students 
should be evaluated on a growth model that ensures appropriate testing 
based on professional standards and measures individual student growth 
in relation to student starting points.
    Non-academic measures such as improved learning climate (as 
measured by standard surveys, for example, to allow trend analysis over 
time), instructional capacity (indicators regarding the quality of 
curriculum, teaching, and leadership), resources, and other 
contributors to learning could be included in a separate index on 
Learning Conditions, on which progress is also evaluated annually as 
part of both school, district, and state assessment.
    Once school progress indicators are available, a judgment must be 
made about whether a school has made adequate progress on the index or 
set of indicators. If the law is to focus on supporting improvement it 
will be important to look at continuous progress for all students in a 
school rather than the ``status model'' that has been used in the past. 
A progress model would recognize the reasonable success of schools that 
deserve it. Rather than identifying a school as requiring intervention 
when a single target is missed (for example, if 94% of economically 
disadvantaged students take the mathematics test one year instead of 
95%), a progress model would gauge whether the overall index score 
increases, with the proviso that the progress of key subgroups 
continues to be examined, with lack of progress a flag for 
intervention.
    The additional use of the indicators schools and districts have 
assembled would be in the determination of what kind of action is 
needed if a school does not make sufficient progress in a year. To use 
resources wisely, the law should establish a graduated system of 
classification for schools and districts based on their rate of 
progress, ranging from state review to corrective actions to eventual 
reconstitution if such efforts fail over a period of time. States 
should identify schools and districts as requiring intervention based 
both on information about the overall extent of progress from the prior 
year(s) and on information about specific measures in the system of 
indicators--for example, how many progress indicators have lagged for 
how long. This additional scrutiny would involve a school review by an 
expert team--much like the inspectorate systems in other countries--
that conducts an inspection of the school or LEA and analyzes a range 
of data, including evidence of individual and collective student growth 
or progress on multiple measures; analysis of student needs, mobility, 
and population changes; and evaluation of school practices and 
conditions. Based on the findings of this review, a determination would 
be made about the nature of the problem and the type of school 
improvement plan needed. The law should include the explicit 
expectation that state and district investments in ensuring adequate 
conditions for learning must be part of this plan.
    The overarching goal of the ESEA should be to improve the quality 
of education students receive, especially those traditionally least 
well served by the current system. To accomplish this, the measures 
used to gauge school progress must motivate continuous improvement and 
attend to the range of school outcomes and conditions that are needed 
to ensure that all students are educated to higher levels.
                                endnotes
    \1\ See, e.g. L. Darling-Hammond, No Child Left Behind and High 
School Reform, Harvard Education Review, 76, 4 (Winter 2006), pp. 642-
667. http://www.edreview.org/harvard06/2006/wi06/w06darli.htm
    L. Darling-Hammond, From `Separate but Equal' to `No Child Left 
Behind': The Collision of New Standards and Old Inequalities. In 
Deborah Meier and George Wood (eds.), Many Children Left Behind, pp. 3-
32. NY: Beacon Press, 2004.
    \2\ Linda Darling-Hammond, Elle Rustique-Forrester, & Raymond 
Pecheone (2005). Multiple measures approaches to high school 
graduation: A review of state student assessment policies. Stanford, 
CA: Stanford University, School Redesign Network.
    \3\ Allington, R. L. & McGill-Franzen, A. (1992). Unintended 
effects of educational reform in New York, Educational Policy, 6 (4): 
397-414; Figlio, D.N. & Getzler, L.S. (2002, April). Accountability, 
ability, and disability: Gaming the system? National Bureau of Economic 
Research.
    \4\ W. Haney (2000). The myth of the Texas miracle in education. 
Education Policy Analysis Archives, 8 (41): Retrieved Dec. 8, 07 from: 
http://epaa.asu.edu/epaa/v8n41/
    \5\ Smith, F., et al. (1986). High school admission and the 
improvement of schooling. NY: New York City Board of Education; 
Darling-Hammond, L. (1991). The Implications of Testing Policy for 
Quality and Equality, Phi Delta Kappan, November 1991: 220-225; Heilig, 
J. V. (2005), An analysis of accountability system outcomes. Stanford 
University.
    \6\For recent studies examining the increases in dropout rates 
associated with high-stakes testing systems, see Advocates for Children 
(2002). Pushing out at-risk students: An analysis of high school 
discharge figures--a joint report by AFC and the Public Advocate. 
http://www.advocatesforchildren.org/pubs/pushout-11-20-02.html; W. 
Haney (2002). Lake Wobegone guaranteed: Misuse of test scores in 
Massachusetts, Part 1. Education Policy Analysis Archives, 10(24). 
http://epaa.asu.edu/epaa/v10n24/; J. Heubert & R. Hauser (eds.) (1999). 
High stakes: Testing for tracking, promotion, and graduation. A report 
of the National Research Council. Washington, D.C.: National Academy 
Press; B.A. Jacob (2001). Getting tough? The impact of high school 
graduation exams. Education and Evaluation and Policy Analysis 23 (2): 
99-122; D. Lilliard, & P. DeCicca (2001). Higher standards, more 
dropouts? Evidence within and across time. Economics of Education 
Review, 20(5): 459-73;G. Orfield, D. Losen, J. Wald, & C.B. Swanson 
(2004). Losing our future: How minority youth are being left behind by 
the graduation rate crisis. Retrieved December 8, 2007 from: http://
www.urban.org/url.cfm?ID=410936; M. Roderick, A.S. Bryk, B.A. Jacob, 
J.Q. Easton, & E. Allensworth (1999). Ending social promotion: Results 
from the first two years. Chicago: Consortium on Chicago School 
Research; R. Rumberger & K. Larson (1998). Student mobility and the 
increased risk of high school dropout. American Journal of Education, 
107: 1-35; E. Rustique-Forrester (in press). Accountability and the 
pressures to exclude: A cautionary tale from England. Education Policy 
Analysis Archives; A. Wheelock (2003). School awards programs and 
accountability in Massachusetts.
    \7\ Advocates for Children (2002), Pushing out at-risk students; 
Heilig (2005), An analysis of accountability system outcomes; Wheelock 
(2003), School awards programs and accountability.
    \8\ Heilig, 2005.
    \9\ Wheelock, 2003
    \10\ Heilig, 2005.
    \11\ American Educational Research Association, American 
Psychological Association, & National Council on Measurement in 
Education, Standards for Educational and Psychological Testing, 
Washington DC: American Educational Research Association, 1999, p.142.
    \12\ AERA, APA, NCME, Standards for Educational and Psychological 
Testing., p.146.
    \13\ See for example, Haney (2000). The myth of the Texas miracle; 
J.L. Herman & S. Golan (1993). Effects of standardized testing on 
teaching and schools. Educational Measurement: Issues and Practice, 
12(4): 20-25, 41-42; B.D. Jones & R. J. Egley (2004). Voices from the 
frontlines: Teachers' perceptions of high-stakes testing. Education 
Policy Analysis Archives, 12 (39). Retrieved August 10, 2004 from 
http://epaa.asu.edu/epaa/v12n39/; M.G. Jones, B.D. Jones, B. Hardin, L. 
Chapman, & T. Yarbrough (1999). The impact of high-stakes testing on 
teachers and students in North Carolina. Phi Delta Kappan, 81(3): 199-
203; Klein, S.P., Hamilton, L.S., McCaffrey, D.F., & Stetcher, B.M. 
(2000). What do test scores in Texas tell us? Santa Monica: The RAND 
Corporation; D. Koretz & S. I. Barron (1998). The validity of gains on 
the Kentucky Instructional Results Information System (KIRIS). Santa 
Monica, CA: RAND, MR-1014-EDU; D. Koretz, R.L. Linn, S.B. Dunbar, & 
L.A. Shepard (1991, April). The effects of high-stakes testing: 
Preliminary evidence about generalization across tests, in R. L. Linn 
(chair), The Effects of high stakes testing. Symposium presented at the 
annual meeting of the American Educational Research Association and the 
National Council on Measurement in Education, Chicago; R.L. Linn 
(2000). Assessments and accountability. Educational Researcher, 29 (2), 
4-16; R.L. Linn, M.E. Graue, & N.M. Sanders (1990). Comparing state and 
district test results to national norms: The validity of claims that 
``everyone is above average.'' Educational Measurement: Issues and 
Practice, 9, 5-14; W. J. Popham (1999). Why Standardized Test Scores 
Don't Measure Educational Quality. Educational Leadership, 56(6): 8-15; 
M.L. Smith (2001). Put to the test: The effects of external testing on 
teachers. Educational Researcher, 20(5): 8-11.
    \14\ Achieve, Do graduation tests measure up? A closer look at 
state high school exit exams. Executive summary. Washington, DC: 
Achieve, Inc.
    \15\ L. Darling-Hammond & J. Ancess (1994). Authentic assessment 
and school development. NY: National Center for Restructuring 
Education, Schools, and Teaching, Teachers College, Columbia 
University; B. Falk & S. Ort (1998, September). Sitting down to score: 
Teacher learning through assessment. Phi Delta Kappan, 80(1): 59-64. 
G.L. Goldberg & B.S. Rosewell (2000). From perception to practice: The 
impact of teachers' scoring experience on the performance based 
instruction and classroom practice. Educational Assessment, 6: 257-290; 
R. Murnane & F. Levy (1996). Teaching the new basic skills. NY: The 
Free Press.
    \16\ J.B. Baron (1999). Exploring high and improving reading 
achievement in Connecticut. Washington: National Educational Goals 
Panel. Murnane & Levy (1996); B.M. Stecher, S. Barron, T. Kaganoff, & 
J. Goodwin (1998). The effects of standards-based assessment on 
classroom practices: Results of the 1996-97 RAND survey of Kentucky 
teachers of mathematics and writing. CSE Technical Report. Los Angeles: 
UCLA National Center for Research on Evaluation, Standards, and Student 
Testing; S. Wilson, L. Darling-Hammond, & B. Berry (2001). A case of 
successful teaching policy: Connecticut's long-term efforts to improve 
teaching and learning. Seattle: Center for the Study of Teaching and 
Policy, University of Washington.
    \17\ C. Chapman (1991, June). What have we learned from writing 
assessment that can be applied to performance assessment?. Presentation 
at ECS/CDE Alternative Assessment Conference, Breckenbridge, CO; 
J.L.Herman, D.C. Klein, T.M. Heath, S.T. Wakai (1995). A first look: 
Are claims for alternative assessment holding up? CSE Technical Report. 
Los Angeles: UCLA National Center for Research on Evaluation, 
Standards, and Student Testing; D. Koretz, K., J. Mitchell, S.I. 
Barron, & S. Keith (1996). Final Report: Perceived effects of the 
Maryland school performance assessment program CSE Technical Report. 
Los Angeles: UCLA National Center for Research on Evaluation, 
Standards, and Student Testing; W.A. Firestone, D. Mayrowetz, & J. 
Fairman (1998, Summer). Performance-based assessment and instructional 
change: The effects of testing in Maine and Maryland. Educational 
Evaluation and Policy Analysis, 20: 95-113; S. Lane, C.A. Stone, C.S. 
Parke, M.A. Hansen, & T.L. Cerrillo (2000, April). Consequential 
evidence for MSPAP from the teacher, principal and student perspective. 
Paper presented at the annual meeting of the National Council on 
Measurement in Education, New Orleans, LA; B. Stecher, S. Baron, T. 
Chun, T., & K. Ross (2000) The effects of the Washington state 
education reform on schools and classroom. CSE Technical Report. Los 
Angeles: UCLA National Center for Research on Evaluation, Standards, 
and Student Testing.
    \18\ Darling-Hammond, Rustique-Forrester, and Pecheone, Multiple 
Measures.
    \19\ M. Smith paper (2007). Standards-based education reform: What 
we've learned, where we need to go. Consortium for Policy Research in 
Education.
    \20\ At least 27 states consider student academic records, 
coursework, portfolios of student work, and performance assessments, 
like research papers, scientific experiments, essays, and senior 
projects in making the graduation decision. Darling-Hammond, Rustique-
Forrester, and Pecheone, Multiple Measures.
                                 ______
                                 
    [Letter from the National School Boards Association (NSBA) 
follows:]

                                                      May 10, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
Hon. Howard ``Buck'' McKeon, Senior Republican Member,
    Ranking Member, Committee on Education and Labor
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.

RE: Letter for the Record on No Child Left Behind (NCLB) Hearing--
        ``Boosting Quality in the Teaching Profession''
    Dear Chairman Miller and Ranking Member McKeon: On behalf of the 
95,000 school board members who serve the nation's 48 million students 
in our local public school districts, the National School Boards 
Association (NSBA) respectfully requests that this letter be entered 
into the record in conjunction with tomorrow's important hearing on 
teaching quality. We commend your leadership in holding a hearing on 
this matter that is inextricably linked to the ability of schools and 
districts to fulfill the goals of the No Child Left Behind Act (NCLB), 
particularly raising achievement for all students.
    The research on this matter is clear: no other school-related 
factor has a greater impact on student achievement than the ability of 
the student's teacher. In short, teachers matter. School districts and 
states are striving to recruit and retain qualified and effective 
teachers but face significant targeted staffing challenges. The Highly 
Qualified Teacher requirements within NCLB have added to those 
challenges in some instances.
    While hiring decisions remain the responsibility of local school 
boards, NSBA believes that Congress does have a role to play in 
assisting local school districts and states in their ongoing efforts to 
attract, support and retain qualified and effective teachers. The needs 
are particularly acute in high-poverty schools and for certain subjects 
in which teacher shortages are too common, including math, science, 
special education, and classes for English Language Learners.
    NSBA's legislative recommendations cover recruitment and retention, 
professional development, needed improvements to the Highly Qualified 
provisions in NCLB, and strengthening teacher preparation. While we 
recognize that there may be several legislative vehicles in which 
Congress can assist districts and states in strengthening teacher 
quality--including the reauthorizations of NCLB and the Higher 
Education Act, the TEACH Act, and legislation on U.S. economic 
competitiveness--we wish to take this opportunity to outline our 
recommendations since your committee will be leading efforts on this 
matter.
Recruitment and Retention
    Through federal incentives and funding for existing programs, 
Congress can provide important assistance to supplement districts' and 
states' teacher recruitment and retention programs. For example, 
adequate funding for Title I and especially Title II (Improving Teacher 
Quality State Grants), as well as incentives like the Teacher Loan 
Forgiveness Program need continued support. NSBA also supports newer 
concepts, such as the Teacher Incentive Fund, which can assist district 
programs that reward teachers and principals who demonstrate positive 
results in high-poverty schools. Such programs can also help foster the 
creation and expansion of differential pay initiatives for teachers of 
high-need subjects and hard-to-staff schools. We also are encouraged by 
efforts in Congress to provide scholarships for undergraduates who 
commit to teach for several years in hard-to-staff schools or high-need 
subjects, and for experienced teachers who further their education and 
take on added responsibilities, including mentoring.
Professional Development
    Improving professional development or in-service training is 
critical to supporting and retaining teachers. We recommend partially 
redirecting NCLB's focus and funding requirements from unproven 
sanctions to supporting comprehensive professional development programs 
that can improve teaching and raise student achievement. Comprehensive 
professional development would include analysis of students' learning 
needs, intensive induction and mentoring support, and peer 
collaboration. This approach would also result in additional Title I 
monies available for professional development.
Highly Qualified Improvements
    States and school districts have made strong progress in their 
efforts to meet the Highly Qualified Teacher requirements within NCLB. 
Those requirements have also added to pre-existing recruitment and 
retention challenges, particularly for rural schools and areas such as 
special education. The Department of Education has recognized this by 
granting some flexibility to districts and states, and clarified in the 
IDEA regulations that states can develop a single multi-subject High 
Objective Uniform State Standards of Evaluation (HOUSSE) to allow 
special education teachers of multiple core subjects to demonstrate 
subject matter competency in every core subject they teach. We 
recommend that Congress make that provision permanent, or permit a 
special education teacher with full state special education 
certification and a bachelor's degree to be considered highly 
qualified.
    Additionally, Congress should streamline existing highly qualified 
requirements by requiring instructional personnel employed by 
supplemental service providers to meet the same requirements as public 
school educators. Under current law, they are not held to the same 
standard.
    Finally, some states and school districts are attempting to develop 
accurate and appropriate methods, such as ``value added'' models, for 
determining and rewarding teacher effectiveness. It is a costly and 
complicated process that requires extensive collaboration among key 
stakeholders, including school boards, administrators and teachers, in 
order to develop a system that is viewed as fair and accurate. Congress 
can assist in this progress by providing funding (through matching 
grants) for states to develop the necessary data systems. Although 
value-added assessments provide information on student performance, 
they should never be the sole determining factor in evaluating teacher 
performance, which must include other factors including peer and 
principal evaluations.
    If Congress considers amending the highly qualified definition to 
take into account a teacher's effectiveness, NSBA recommends that it be 
added only as an alternative method by which teachers can meet the 
standards, not as an additional requirement. This approach could allow 
teachers who have a track record of success in raising student 
achievement but who may not meet all the current credentialing or 
subject matter requirements, to be deemed highly qualified. However, 
because of the complexity in developing such systems, Congress might 
consider creating a demonstration program for interested states wishing 
to utilize or create a value-added model for this purpose.
Teacher Preparation
    Quality teacher preparation programs, whether traditional or 
alternative, are an integral component to ensuring the nation has an 
adequate supply of outstanding teachers today and in the future. Few 
would disagree that the nation's teacher preparation programs have room 
for improvement. Congress should encourage schools of education to 
collaborate with local school districts to ensure appropriate alignment 
with NCLB requirements and state academic standards, as well as the 
proper education needed to enable teachers to effectively reach and 
educate today's increasingly diverse student body. NSBA also recommends 
that Congress increase accountability for teacher preparation programs 
by providing incentives to states to develop accountability programs 
which track the preparedness and success of graduates of its teacher 
preparation programs in raising student achievement (e.g. Louisiana's 
Teacher Preparation Accountability System).
    Again, we appreciate your leadership and interest in strengthening 
the efforts of school districts and states to recruit, support and 
retain quality teachers. We look forward to working with the Committee 
on this issue as you consider legislation to address these challenges.
            Sincerely,
                                        Michael A. Resnick,
                                      Associate Executive Director.
                                 ______
                                 
    [Letter from the National Writing Project follows:]

                                  Richard Sterling,
              Executive Director, National Writing Project,
                                                      May 11, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.

RE: Written Testimony Submitted by the National Writing Project to the 
        House Committee on Education and Labor
    Dear Chairman Miller: Quality professional development can be 
elusive and hard to define, even for an expert teacher. One of our 
veteran teachers in the National Writing Project, Barbara Smith from 
Berlin Center, Ohio, confessed to a career-long search for the most 
useful experience. ``I have participated in more than one hundred 
professional development activities,'' she said, ``including 
university-sponsored workshops, national conventions, regional 
seminars, scholarly presentations, teacher study groups, and two days 
of teacher inservice training provided by my local board of education 
each school year.'' In 2000, Barbara found in the writing project the 
program she had been seeking. She describes it this way: ``For eight 
hours each day, and often long into the evenings by choice, we worked 
together to understand deeply what it takes to be effective in the 
classroom. We identified barriers to our own learning, and then we 
broke those barriers to merge into a cohesive, caring learning 
community. We discovered the value of the support our colleagues 
offered. The directors of the institute wove throughout the sessions a 
strong program of theory, academic reading, and analysis of research. 
We worked to design and produce standards-based lessons that reflected 
the best practices identified in today's reading and writing research. 
We became readers and writers and researchers of our own teaching 
practice.''
    Barbara's summer institute took place at Kent State University. The 
principles behind that institute emerge from the National Writing 
Project's 33 years of work and experience in the field. These 
principles also take NCLB into account:
    <bullet> Quality professional development programs recognize the 
complexity of teaching academic subjects. The first definition of 
``high quality'' in NCLB is that professional development ``improve and 
increase teachers' knowledge of the academic subject they teach.'' One 
way to increase teachers' knowledge is to give them firsthand 
experience in their content areas. In other words, teachers need 
practice ``doing the work''--practice at being a historian, a 
scientist, a mathematician, or a writer. Writing project summer 
institutes offer participants the chance to write in multiple genres 
for multiple purposes to gain firsthand knowledge of the kinds of 
writing they teach and the kinds of intervention students may need. To 
be able to think and act as writer (or a mathematician or scientist) is 
essential to effectively teaching complex subjects.
    <bullet> Quality professional development programs extend over 
time. NCLB admonishes that professional development should not be 
``short-term workshops or conferences.'' One example of NCLB's 
definition of ``sustained, intensive, and classroom-focused'' 
professional development is the writing project summer institute, which 
lasts four weeks. School-year professional development, while less 
intensive, can run from 15 or 30 hours to 2 to 3 years, in the case of 
school partnerships. The goal is that teachers have enough time to 
develop a repertoire of strategies for teaching, to participate in the 
content of what they teach, and to begin to become research-informed 
decision makers.
    <bullet> Quality professional development programs take place in a 
community of professionalism. The assumption here is that teachers have 
questions and that they do think about their practice. During writing 
project summer institutes, for instance, each participant demonstrates 
a successful lesson or approach, with the theory and research to back 
it up. In a collegial environment, the discussion that follows is both 
supportive and questioning so that all participants can rethink and 
revise their own strategies. Respect for teacher knowledge is key to 
helping teachers be continuous learners.
    <bullet> Quality professional development programs intentionally 
build teacher capacity. Linda Darling-Hammond* urges policy makers to 
shift from ``designing controls intended to direct the system, to 
developing capacity that enables schools and teachers to be responsible 
for student learning and responsive to diverse and changing student and 
community needs.'' In the case of the writing project, writing, 
researching, reflecting on practice, studying student work, examining 
both the ``how'' and the ``why'' of classroom strategies, talking about 
how to embed standards--the combination of these activities develops 
teacher capacity to become informed designers of curriculum and of 
effective techniques for teaching writing and improving student 
learning.
---------------------------------------------------------------------------
    *Darling-Hammond, L. (1998). Policy and change: Getting beyond the 
bureaucracy. In A. Hargreaves, A. Lieberman, M. Fullan, & D. Hopkins 
(Eds.), The international handbook of education change (pp. 642-646). 
The Netherlands: Kluwer.
---------------------------------------------------------------------------
    <bullet> Quality professional development programs are co-
constructed. Working with schools demands that professional development 
providers co-construct the program with those who interact on a daily 
basis with students. NCLB recognizes this need when it recommends that 
professional development programs be ``developed with extensive 
participation of teachers, principals, parents, and school 
administrators.'' Writing projects involve the school community in 
designing partnerships which often include job-embedded activities that 
teachers find most helpful, for example: collaborative planning, 
classroom coaching, demonstration teaching, study and research groups, 
school-based writing assessment, curriculum development, inservice 
workshops, and college prep activities.
    On behalf of teachers like Barbara Smith and the over 130,000 
others who participated in National Writing Project programs last year, 
I am pleased to be part of the NCLB hearings. The subject of quality 
professional development is one about which we at the National Writing 
Project know a great deal and are always ready to discuss.
                                 ______
                                 
    [Whereupon, at 12:10 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
